<html>
<title> - AIRLINE SECURITY</title>
<body><pre>[Joint House and Senate Hearing, 107 Congress]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-480
 
                            AIRLINE SECURITY
=======================================================================


                             JOINT HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                                and the

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION
                               __________

                            SPECIAL HEARING

              THURSDAY, SEPTEMBER 20, 2001--WASHINGTON, DC
                               __________

        Printed for the use of the Committees on Appropriations






 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate
                                 ______


                    U.S. GOVERNMENT PRINTING OFFICE
77-646                       WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             TED STEVENS, Alaska
ERNEST F. HOLLINGS, South Carolina   THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            ARLEN SPECTER, Pennsylvania
TOM HARKIN, Iowa                     PETE V. DOMENICI, New Mexico
BARBARA A. MIKULSKI, Maryland        CHRISTOPHER S. BOND, Missouri
HARRY REID, Nevada                   MITCH McCONNELL, Kentucky
HERB KOHL, Wisconsin                 CONRAD BURNS, Montana
PATTY MURRAY, Washington             RICHARD C. SHELBY, Alabama
BYRON L. DORGAN, North Dakota        JUDD GREGG, New Hampshire
DIANNE FEINSTEIN, California         ROBERT F. BENNETT, Utah
RICHARD J. DURBIN, Illinois          BEN NIGHTHORSE CAMPBELL, Colorado
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              MIKE DeWINE, Ohio
                  Terrence E. Sauvain, Staff Director
                 Charles Kieffer, Deputy Staff Director
               Steven J. Cortese, Minority Staff Director
            Lisa Sutherland, Minority Deputy Staff Director
                                 ------                                

          Subcommittee on Transportation and Related Agencies

                   PATTY MURRAY, Washington, Chairman
ROBERT C. BYRD, West Virginia        RICHARD C. SHELBY, Alabama
BARBARA A. MIKULSKI, Maryland        ARLEN SPECTER, Pennsylvania
HARRY REID, Nevada                   CHRISTOPHER S. BOND, Missouri
HERB KOHL, Wisconsin                 ROBERT F. BENNETT, Utah
RICHARD J. DURBIN, Illinois          BEN NIGHTHORSE CAMPBELL, Colorado
PATRICK J. LEAHY, Vermont            KAY BAILEY HUTCHISON, Texas

                           Professional Staff

                              Peter Rogoff
                             Kate Hallahan
                        Wally Burnett (Minority)
                        Paul Doerrer (Minority)

                         Administrative Support

                               Angela Lee
                       Candice Rogers (Minority)







                      COMMITTEE ON APPROPRIATIONS

                   C.W. BILL YOUNG, Florida, Chairman
RALPH REGULA, Ohio                         DAVID R. OBEY, Wisconsin
JERRY LEWIS, California                    JOHN P. MURTHA, Pennsylvania
HAROLD ROGERS, Kentucky                    NORMAN D. DICKS, Washington
JOE SKEEN, New Mexico                      MARTIN OLAV SABO, Minnesota
FRANK R. WOLF, Virginia                    STENY H. HOYER, Maryland
TOM DeLAY, Texas                           ALAN B. MOLLOHAN, West Virginia
JIM KOLBE, Arizona                         MARCY KAPTUR, Ohio
SONNY CALLAHAN, Alabama                    NANCY PELOSI, California
JAMES T. WALSH, New York                   PETER J. VISCLOSKY, Indiana
CHARLES H. TAYLOR, North Carolina          NITA M. LOWEY, New York
DAVID L. HOBSON, Ohio                      JOSE E. SERRANO, New York
ERNEST J. ISTOOK, Jr., Oklahoma            ROSA L. DeLAURO, Connecticut
HENRY BONILLA, Texas                       JAMES P. MORAN, Virginia
JOE KNOLLENBERG, Michigan                  JOHN W. OLVER, Massachusetts
DAN MILLER, Florida                        ED PASTOR, Arizona
JACK KINGSTON, Georgia                     CARRIE P. MEEK, Florida
RODNEY P. FRELINGHUYSEN, New Jersey        DAVID E. PRICE, North Carolina
ROGER F. WICKER, Mississippi               CHET EDWARDS, Texas
GEORGE R. NETHERCUTT, Jr., Washington      ROBERT E. ``BUD'' CRAMER, Jr., 
RANDY ``DUKE'' CUNNINGHAM, California       Alabama 
TODD TIAHRT, Kansas                        PATRICK J. KENNEDY, Rhode Island
ZACH WAMP, Tennessee                       JAMES E. CLYBURN, South Carolina
TOM LATHAM, Iowa                           MAURICE D. HINCHEY, New York
ANNE M. NORTHUP, Kentucky                  LUCILLE ROYBAL-ALLARD, California
ROBERT B. ADERHOLT, Alabama                SAM FARR, California
JO ANN EMERSON, Missouri                   JESSE L. JACKSON, Jr., Illinois
JOHN E. SUNUNU, New Hampshire              CAROLYN C. KILPATRICK, Michigan
KAY GRANGER, Texas                         ALLEN BOYD, Florida
JOHN E. PETERSON, Pennsylvania             CHAKA FATTAH, Pennsylvania
JOHN T. DOOLITTLE, California              STEVEN R. ROTHMAN, New Jersey
RAY LaHOOD, Illinois                            
JOHN E. SWEENEY, New York                       
DAVID VITTER, Louisiana                         
DON SHERWOOD, Pennsylvania                      

VIRGIL H. GOODE, Jr., Virginia                  
                                                                       
                James W. Dyer, Clerk and Staff Director
                                 ------                                

 Subcommittee on the Department of Transportation and Related Agencies 
                             Appropriations

                   HAROLD ROGERS, Kentucky, Chairman
FRANK R. WOLF, Virginia              MARTIN OLAV SABO, Minnesota
TOM DeLAY, Texas                     JOHN W. OLVER, Massachusetts
SONNY CALLAHAN, Alabama              ED PASTOR, Arizona
TODD TIAHRT, Kansas                  CAROLYN C. KILPATRICK, Michigan
ROBERT B. ADERHOLT, Alabama          JOSE E. SERRANO, New York
KAY GRANGER, Texas                   JAMES E. CLYBURN, South Carolina
JO ANN EMERSON, Missouri
JOHN E. SWEENEY, New York






                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening statement of Senator Patty Murray........................     1
Statement of Congressman Harold Rogers...........................     3
Prepared statement of Senator Richard C. Shelby..................     4
Prepared statement of Senator Ben Nighthorse Campbell............     5
Statement of Congressman Martin Olav Sabo........................     6
Statement of Senator Robert C. Byrd..............................     7
Statement of Senator Ted Stevens.................................     9
Statement of Congressman David R. Obey...........................     9
Statement of Norman Y. Mineta, Secretary of Transportation, 
  Office of the Secretary, Department of Transportation..........    10
Heightened security measures.....................................    11
Prepared statement of Norman Y. Mineta...........................    13
Broader security concerns........................................    14
Economic response................................................    15
Statement of Jane F. Garvey, Administrator, Federal Aviation 
  Administration, Department of Transportation...................    16
Security measures................................................    16
System efficiency................................................    16
Rapid response team..............................................    17
Statement of Kenneth M. Mead, Inspector General, Office of the 
  Secretary, Department of Transportation........................    17
Organization of aviation security................................    18
Recommendations to enhance aviation security.....................    19
Prepared statement of Kenneth M. Mead............................    19
Governance, organization and delivery of aviation security.......    20
Changes needed to supplement and enhance security actions already 
  underway.......................................................    20
Security of checked baggage......................................    21
Screening checkpoint security....................................    21
Cargo security...................................................    21
Airport access controls..........................................    21
Issuing airport identification...................................    22
Federal Air Marshal Program......................................    22
Statement of Gerald L. Dillingham, Ph.D., Director, Physical 
  Infrastructure Issues, General Accounting Office...............    24
Air traffic control..............................................    25
Unauthorized access to secure spaces.............................    25
Passenger and baggage screening..................................    25
Prepared statement of Gerald L. Dillingham.......................    26
Terrorist acts illustrate severe weaknesses in aviation security.    26
Background.......................................................    28
Potential for unauthorized access to aviation computer systems...    28
Weaknesses in airport access controls............................    29
Inadequate detection of dangerous objects by screeners...........    29
Differences in the screening practices of five other countries 
  and the United States..........................................    30
Statement of Hank Queen, Vice President for Engineering and 
  Product Integrity, The Boeing Company..........................    31
    Prepared statement...........................................    33
Airplane security................................................    33
History..........................................................    34
Flight deck doors and Federal regulations........................    35
Hardened doors...................................................    39
Transponders.....................................................    39
Industry and Government activity since September 11..............    39
Security badges..................................................    40
Bogus credentials of airport and airline workers.................    41
Proposed security recommendations................................    41
Emergency security recommendations...............................    41
Screening at security checkpoints................................    42
Fines and enforcement............................................    42
Screening and access violations..................................    43
Compliance with security measures................................    44
Security contracts...............................................    44
Airport security companies.......................................    44
Baggage screeners................................................    44
Airport Security, Inc............................................    45
Logan and Newark screeners.......................................    45
Argenbright violations...........................................    45
Turnover of airport security screeners...........................    46
Watch list of terrorist suspects.................................    47
Computer assisted passenger prescreening system..................    47
Other transportation modes, terrorist risk assessment............    48
Essential Air Service............................................    49
Airline funding request..........................................    50
Security of private aircraft.....................................    51
Aviation regulations for private charters........................    52
Tracking flight traffic..........................................    52
Cockpit security.................................................    53
Federal responsibility for airport security......................    53
Federal loan guarantees for airlines.............................    55
Reopening of Reagan National Airport.............................    56
Baggage screening................................................    56
Security of other transportation modes...........................    58
Uniformed law enforcement officers at airport screening points...    58
Law enforcement oversight of baggage screeners...................    59
Prepared statement of Senator Richard J. Durbin..................    60
Liability of airlines............................................    62
Airline operations...............................................    63
Airline employee benefits........................................    63
Airport security firms...........................................    64
Federalization of aviation security..............................    64
Cockpit security--door hardening.................................    65
Manufacturers financial impact and Federal response..............    65
Impacts on general aviation and flight schools...................    66
Prepared statement of Congressman Todd Tiahrt....................    67
Database tracking of potential terrorists........................    68
General aviation security measures...............................    68
Flight schools...................................................    68
Sky marshals implementation......................................    69
Airline solvency proposal........................................    69
Database tracking of potential terrorists........................    70
Airline safety and public confidence.............................    71
Additional committee questions...................................    72
Question submitted by Senator Herb Kohl..........................    72
Container hardening..............................................    72
Questions submitted by Senator Ben Nighthorse Campbell...........    72
Lines of communication...........................................    72
Cockpit door.....................................................    73
Security loophole rule...........................................    73
Cross-check......................................................    73
Security personnel...............................................    74
General aviation.................................................    74
Questions submitted by Senator Patrick J. Leahy..................    74
Airport security measures........................................    74
Question submitted by Congressman Ed Pastor......................    77
Airline industry and related businesses emergency aid............    77









                            AIRLINE SECURITY

                              ----------                              


                      THURSDAY, SEPTEMBER 20, 2001

        U.S. Senate, Subcommittee on Transportation, 
            Committee on Appropriations; jointly with House 
            of Representatives, Subcommittee on 
            Transportation, Committee on Appropriations,
                                                    Washington, DC.
    The subcommittees met at 2:10 p.m., in room SD-106, Dirksen 
Senate Office Building, Hon. Patty Murray (chairman of the 
Senate subcommittee) and Hon. Hal Rogers (chairman of the House 
subcommittee) presiding.
    Present from the Senate committee: Senators Murray 
(presiding), Byrd, Kohl, Durbin, Specter, Bond, Stevens, 
Hutchison, and Domenici.
    Present from the House committee: Representatives Rogers, 
Young, Wolf, Callahan, Tiahrt, Aderholt, Granger, Emerson, 
Sweeney, Sabo, Obey, Olver, Pastor, Kilpatrick, and Serrano.


               opening statement of senator patty murray


    Senator Murray. Good afternoon. This joint committee will 
come to order. We are meeting today under extraordinary 
circumstances. Our country has been attacked. Our people are in 
mourning and our Nation is preparing for a long battle against 
terrorism. There is little we can say today to bring comfort to 
those who lost friends and loved ones in the attack on 
September 11. Our thoughts and prayers are with all of the 
victims, their families and their friends. We are all grateful 
to the rescue workers and relief organizations who are 
containing the damage and comforting the affected, and we are 
grateful to the military families of our Nation who may be 
called on to protect and defend us in the coming months.
    In the past few days, I have been struck by how all 
Americans have come together to show our national unity. At 
this hearing we have Democrats and Republicans from the House 
and from the Senate, all coming together to improve aviation 
safety, and I just want to add that, whatever the coming days 
may bring, we have got to hold on to this sense of unity we 
have discovered in the past 9 days.
    Because the attacks were launched from our Nation's own 
transportation system, today we have brought together the 
Transportation Subcommittees of the House and the Senate for 
the first joint hearing in recent memory. I want to thank 
Chairman Rogers especially for recommending that we do this 
hearing jointly, and I welcome the leadership of the chairman 
and all of our colleagues from the House.
    The terrorist attacks have revealed gaping holes in our 
transportation system and in our intelligence-gathering system. 
My purpose in calling this hearing is not to place blame on any 
one individual or agency. I want to be very clear that there 
were many failures here. We are not here to blame those workers 
who operate X-ray machines or screen passengers. We also had a 
failure of our intelligence system, on which we spend billions 
and billions of dollars each year. We cannot expect an $8 an 
hour security screener to foil an attack that a multi-billion 
dollar intelligence system could not prevent. Those airport 
security workers are no more responsible than the airlines that 
hired them, and the airlines are no more to blame than the FAA 
for allowing a vulnerable system to persist. Similarly, I do 
not believe the FAA is any more responsible than the 
intelligence agencies that are charged with monitoring 
suspected terrorists and thwarting their efforts.
    On Monday I met with a number of security screeners in 
Seattle. I was impressed by their dedication, but I am 
concerned about the lack of consistent standards, training, and 
experience throughout each airport and throughout our country. 
For too long, we have focused on how to do security 
inexpensively. From now on we have to focus on how to do it 
well.
    In truth, these workers are just part of our transportation 
system. From the airport parking garage to the turnoff, from 
the gate to the cockpit, and from the tower to the cabin, 
thousands of people are responsible for our safety when we step 
on an airplane. These are human beings, and they are making 
decisions about safety and security in a fast-moving 
environment, with little margin for error.
    I want to make sure that those workers have the most 
experience and best training possible, because our 
transportation security system is only as strong as its weakest 
link.
    As we have all seen in this past week, the aviation 
industry is a key part of our economy, a part that we cannot 
allow madmen to shut down. We must be safe, but we must also 
keep our transportation system running efficiently. In recent 
days, airlines and suppliers have cut service and laid off 
employees. The Boeing Company has just announced it is laying 
off as many as 30,000 employees because aircraft orders have 
been cancelled or delayed.
    I am vigorously supporting efforts to help the ailing 
aviation industry and its workers. As chairman of this 
subcommittee, I will work to make sure that the funding is 
there both to get this critical industry back on its feet and 
to make our aviation system once again the safest in the world.
    We called this hearing today to answer these two questions: 
Is it safe to fly today, and what steps must we take to prevent 
future tragedies? To answer these questions, we have this 
afternoon both Secretary of Transportation Norman Mineta and 
FAA Administrator Jane Garvey. We also have testimony from the 
DOT Inspector General and the General Accounting Office, which 
both have done extensive work in this arena. We will also have 
a representative from the Boeing Company to discuss specific 
issues of securing cockpit doors and the safety tradeoffs that 
come with that enhanced security measure. With the help of our 
witnesses today, we will take the lessons of this tragedy and 
turn them into safer airports and safer travel.
    Because we have a large number of colleagues here today, I 
will call on our chairmen and ranking members of the full 
committee and subcommittee for opening statements. Then we will 
have the testimony from all of our witnesses, and then each 
member that is here will have an opportunity to make a 
statement as they ask their questions after the testimony from 
our witnesses today.
    Chairman Rogers, thank you so much for joining us here 
today, and please join me with your opening statement.


                 statement of congressman harold rogers


    Chairman Rogers. Thank you very much, Madam Chairman. 
First, I would like to thank Senator Murray and ranking member 
Shelby for agreeing to this joint hearing today. There will be 
many hearings in the aftermath of September 11, but this is the 
first one that shows the unity of both Houses of Congress and 
both political parties. This is the first bipartisan, bicameral 
hearing on the crucial subject of aviation security.
    We stand united before the American people today to create 
a stronger front against terrorism. We will do our part on 
these subcommittees and do it quickly. We will ensure that the 
Nation's security is fortified and that the American people are 
assured of their safety as they return to our aviation system.
    First, we need to recognize and applaud the extraordinary 
effort being made by the Secretary, the FAA Administrator, and 
the thousands of departmental employees who are addressing this 
crisis. We need to recognize the hard work of our air traffic 
controllers on September 11 who helped guide thousands of 
aircraft with tens of thousands of people to the ground quickly 
amidst the most confusing and harrowing circumstances.
    My own view is that many lives were saved by that step, and 
I congratulate, Mr. Secretary, you and the Administrator 
particularly for that decision. We all owe all of the employees 
a big debt and the American people should be proud of the job 
you are doing on their behalf.
    Transportation, as Senator Murray has said, is critical to 
the Nation's economy. Already we are seeing the economic side 
effects spreading throughout the Nation. Turmoil in the airline 
industry leads to cancelled orders for aircraft. That in turn 
causes cancelled orders for aircraft engines, avionics, and 
other critical parts. When transportation suffers, the retail, 
conference and tourism sectors are also equally damaged.
    Terrorist organizations, of course, know this. They know 
the importance of the air transportation system, as the events 
of September 11 have so dramatically revealed. We must get our 
transportation networks and transportation industries back on 
their feet. We must show these organizations that we will not 
be defeated by these heinous acts.
    It is important to look backward to find the holes in our 
safety net and patch them up. But we must remember that this 
type of attack has never occurred before. Never has someone 
used a commercial airliner to deliberately create destruction 
on the ground, to strike the national symbols and 
infrastructure of a country.
    Since this was an attack using our own transportation 
system, it is urgent that our particular subcommittees focus on 
immediate preparedness. This must include a review of current 
security programs and their effectiveness as a starting point 
for a coordinated plan of improvements.
    But we must also be inspired to be creative, innovative, 
daring. We must think of new ways of doing business and develop 
breakthroughs to meet this threat to our Nation and to our way 
of life.
    Personally, I am focusing on improving three areas of our 
aviation security posture. I hope the witnesses will address 
these issues today. I am sure you will. First, of course, the 
sky marshal program. We must employ sky marshals, as I know we 
already are, and do it as quickly as possible.
    Second, we must secure the cockpit against intrusion by 
hijackers and deprive them of the capability of using the 
aircraft as a guided missile, and develop clear procedures to 
prevent cockpit takeover.
    Third, we must find ways to improve security on the ground, 
including passenger screening and unauthorized access to 
airport operating areas on the tarmac.
    For the good of the Nation, we must all continue to work 
together. Other committees must work together even as we are. 
Federal agencies must coordinate, communicate, cooperate for 
the security of our people. We can do this, we can accomplish 
this. The American people deserve it and the urgency of our 
situation demands it.
    Thank you.
    Senator Murray. Thank you, Mr. Chairman.
    The ranking member of the Senate Transportation Committee, 
Senator Shelby, is unable to be here at this moment. Without 
objection, I will include his statement in the record along 
with a statement from Senator Campbell.
    [The statements follow:]
            Prepared Statement of Senator Richard C. Shelby
    Madame Chairwoman. I thank you for holding this hearing and thank 
the witnesses for making themselves available during a very tragic and 
stressful time. I do have a number of questions that I will submit for 
the record, but I would like to make a few comments and observations 
about the tragic events that occurred on September 11th and about some 
of the issues and areas that I would encourage you to focus on during 
this critical response and recovery period.
    But before we get to that, we now know that on September 11th, a 
group of the passengers on United flight 93, the ill-fated flight that 
crashed in Pennsylvania, in the ultimate act of self-sacrifice and 
heroism appear to have rushed the cockpit and thwarted the terrorists 
aboard that flight from inflicting additional damage and loss on this 
great nation. Without doubt, those fathers, mothers, husbands and 
wives--patriots one and all--saved the lives of hundreds of Americans 
wherever that aircraft was targeted. That was an extraordinary act. 
They understood what was happening and that they would probably never 
again see their loved ones; but they acted heroically and, in 
sacrificing their own lives and dreams, probably saved the lives of 
hundreds of their fellow citizens.
    This nation owes them a debt of honor and gratitude that is hard to 
articulate. They deserve our recognition and our commitment that we 
will meet, address, and repel the threat that forced them to pay so 
great a price. They were among the many Americans in New York, 
Virginia, Pennsylvania, and around the nation who acted courageously 
during and in the aftermath of the terrorist attack on September 11th. 
They brought honor to all who love this country and what it represents. 
They are what America is all about. These were not warriors or law 
enforcement officials. You might say that they were neighbors, members 
of parishes, or people we might meet in our grocery stores. They were 
just ``average'' Americans. And the world should wonder and our enemies 
should tremble at their mettle.
    As devastating as the heinous act of September 11th was, and as 
incalculable as the pain, disruption, and loss inflicted upon the 
victims at the World Trade Center, the Pentagon, and on onboard the 
four hijacked United and American flights was, America and our very way 
of life we cherish will endure. No one can make right the loss that the 
families, the co-workers, the friends and loved ones of the victims 
suffered because of these despicable acts. But endure we must and 
endure we will. I know that all of us here today and across this great 
nation reflect and pray every day for the aggrieved and the fallen.
    Madame Chairwoman, Chairman Rodgers, Secretary Mineta, and 
Administrator Garvey, we must take every step to assure the nation that 
this tragedy cannot be repeated. That is a tall order. I commend to 
your attention the comments made by the pilot of United flight 564 on 
Saturday, September 15th to the passengers aboard that flight after the 
doors closed and as they prepared to depart from Denver International 
Airport. He said: ``I want to thank you brave folks for coming out 
today. We don't have any new instructions from the Federal government, 
so from now on we're on our own.'' (He explained that airport security 
measures had pretty much solved the problem of firearms being carried 
aboard, but not weapons of the type the terrorists apparently used, 
plastic knives or those fashioned from wood or ceramics.)
    He continued: ``Sometimes a potential hijacker will announce that 
he has a bomb. There are no bombs on this aircraft and if someone were 
to get up and make that claim, don't believe him. If someone were to 
stand up, brandish something such as a plastic knife and say, `This is 
a hijacking' or words to that effect, here is what you should do: Every 
one of you should stand up and immediately throw things at that 
person--pillows, books, magazines, eyeglasses, shoes--anything that 
will throw him off balance and distract his attention. If he has a 
confederate or two, do the same with them. Most important: get a 
blanket over him, then wrestle him to the floor and keep him there. 
We'll land the plane at the nearest airport and the authorities will 
take it from there.
    ``Remember, there will be one of him and maybe a few confederates, 
but there are 200 of you. You can overwhelm them.
    ``The Declaration of Independence say, `We, the people . . .' and 
that's just what it is when we're up in the air: we, the people, vs. 
Would-be terrorists. I don't think we are going to have any such 
problem today or tomorrow or for a while, but some time down the road, 
it is going to happen again and I want you to know what to do.
    ``Now, since we're a family for the next few hours, I'll ask you to 
turn to the person next to you, introduce yourself, tell them a little 
about yourself and ask them to do the same.''
    Madame Chairwoman. This sounds sensible to me. That pilot's 
guidance is serious, but these are serious times. Americans are a 
people who empower themselves to do great things. We should not delude 
ourselves into thinking that simple pronouncements from the FAA, with 
all due respect, or tweaks to the Federal Aviation Regulations will 
allow us to sleep comfortably on transcontinental flights. It is all of 
our responsibility to ensure the safety of our airways. The passengers 
aboard United flight 93 knew that instinctively. The pilot on 
Saturday's flight out of Denver merely reminds of it.
    Accordingly, as we review and reform our safety and security 
procedures, we must ask a simply question: will the actions and 
initiatives we undertake have prevented the recent terrorist attacks 
and will they prevent other acts by these barbaric thugs.
    Mr. Secretary and Madame Administrator. Our actions must be 
meaningful, effective, and they must restore the confidence of the 
American public in the integrity and safety of our transportation 
systems. If there ever were a time for bold and aggressive steps to 
improve the safety of our transportation systems, now is that time. I 
believe--no, I know--that this Congress and the American people will 
accept and embrace meaningful steps toward that end. We only need look 
at the full measure of sacrifice made by the passengers aboard United 
flight 93 to know the depths of our responsibility, and I am heartened 
by the fact that I know that same spirit is aboard every plane in the 
sky.
    I thank the Chair.
                                 ______
                                 
         Prepared Statement of Senator Ben Nighthorse Campbell
    Thank you Chairmen Murray and Rogers for holding this important and 
timely joint-subcommittee hearing.
    First of all, I want to express my sincere sympathy to the family 
members and friends of the thousands of victims of September 11th. 
Those tragic events are fixed in our minds and in our hearts, and we 
are all anxious about the future, but we must move as quickly as 
possible to ascertain our security deficiencies and prevent such events 
from ever happening again.
    For the past several years, this subcommittee has been concerned 
with chronic airline cancellations and delays and with the inadequate 
communication systems in place for reporting such incidents. Each year, 
constituents have complained by the thousands, but representatives from 
the airline industry have pointed fingers at one another without much 
progress being made. Finally, when we were faced with the ultimate need 
for an industry-wide communication system, the already inadequate 
system failed miserably.
    Additionally, this committee has continually been concerned with 
security measures at airports and in the air. In my opinion, the lack 
of adequate security industry-wide has been appalling. Four-inch knives 
were allowed on planes, security personnel, sometimes folks who do not 
have a command of the English language, are contracted out by the 
airlines to the lowest bidder, and cockpit doors are so flimsy that you 
can kick them in--but you don't need to, because the pilots and crew go 
in and out during flight. None of this may have been against 
regulations, but someone should have anticipated that these regulations 
were completely inadequate to secure public safety. In fact, Mary 
Schiavo, former Department of Transportation Inspector General has been 
warning the FAA and the public for years of such dangers. She was 
responsible for conducting security tests from 1990-1996 and I think 
it's high time we listen to her and others, including pilots, crew and 
passengers about any and all security concerns.
    We all understand that the airlines must be profitable, but the FAA 
and the airline industry should be put on notice that the public and 
Congress are demanding real solutions for serious problems. We want to 
keep the airline industry safe and financially healthy, because this 
nation depends so heavily on the services they provide. But today I say 
to everyone, the continued profitability of the airline industry will 
not come at the expense of the safety of every American who steps 
aboard an airplane.
    On behalf of all Americans, I demand that we move past the deft 
deflection of responsibility and do whatever it takes to make certain 
that security measures are updated and strictly enforced and that the 
communications systems between the towers, air traffic controllers, the 
airlines, federal agencies, and ultimately the passengers are fully 
integrated.
    We can and must offer financial support of the airline industry in 
light of the recent attacks, but that does not mean that emergency 
financial support comes without our demands the industry improve. Our 
safety cannot and will not be dependent on the professionalism of 
minimum-wage employees.
    Thank you, Madam Chairman, Mr. Chairman. I look forward to hearing 
the witness's testimony and their answers to questions and to hear 
precisely what steps the airline industry intends to make in this 
regard.

    Senator Murray. I will turn to the ranking member of the 
House Subcommittee on Transportation, Representative Sabo.

               STATEMENT OF Congressman MARTIN OLAV SABO

    Mr. Sabo. Thank you, Madam Chairman. We are here in 
response to the devastating acts of terrorists in New York, 
Washington, and Pennsylvania last week and to evaluate measures 
necessary to assure civil aviation's security and restore 
public confidence in air travel. First, I extend my deepest 
sympathies to the victims and their families. The human losses 
and senseless destruction are incomprehensible.
    I also commend the heroic acts of public servants and 
private citizens to address the crisis as it was happening, to 
work hard to rescue victims, and to continue to conduct rescue 
and recovery operations.
    As we begin this hearing, I hope we will proceed with cool 
and clear heads, focusing first on the appropriate short-term 
actions we must take now to heighten aviation security. We must 
also commit to carefully thinking through the longer-term 
measures needed to maintain security in air travel and across 
other transportation modes.
    Thank you.
    Senator Murray. Chairman Byrd.

                  STATEMENT OF SENATOR ROBERT C. BYRD

    Senator Byrd. Thank you, Madam Chairman. I commend you for 
calling this hearing today. I welcome Chairman Rogers, Mr. 
Sabo, and our other colleagues. Especially I welcome Mr. Obey 
and my bosom friend Ted Stevens. I also welcome Secretary 
Mineta, FAA Administrator Garvey, and other witnesses here this 
afternoon.
    It is most appropriate that this hearing take the form of a 
joint hearing between the House and Senate. Secretary Mineta, 
what you see is a bipartisan and bicameral committee ready, 
willing, and able to help. Just 72 hours after the tragic 
events of September 11, the Congress demonstrated its ability 
to respond and to respond quickly by appropriating $40 billion 
to address the crisis, not a small amount by any means, $40 for 
every minute since Jesus Christ was born.
    That supplemental appropriation bill provided $40 billion 
for five stated purposes, one of which was to improve aviation 
security. The House and Senate Appropriations Committees have 
been funding the Department of Transportation's initiatives in 
the area of aviation security for years. We have met or 
exceeded the administration's request, including a substantial 
increase in funds that were sought after Pan Am Flight 103 
exploded over Lockerbie, Scotland, and when TWA Flight 800 
exploded over the Atlantic Ocean.
    Over the years, at the request of current and prior 
administrations, we have provided billions of dollars for the 
deployment of explosive detection systems and for the hiring of 
hundreds of security inspectors stationed at airports across 
the country and abroad. Clearly, however, the DOT's efforts in 
this area have been misguided to a certain extent. At a 
minimum, they were directed only at one portion of the threat, 
because just last week four teams of terrorists permeated our 
aviation security measures with apparent ease and triggered the 
most horrifying series of events witnessed in our country since 
the invasion of the United States at Pearl Harbor.
    As an immediate step to accompany the reopening of the air 
traffic control system, the FAA has imposed new safety 
requirements. If we want a safe and efficient air 
transportation system, we are going to need to step up to these 
and other requirements. Some of those requirements will bear a 
considerable cost and we should have an honest and 
straightforward discussion of how we expect to pay for these 
new requirements.
    For example, I have heard one proposal that would take all 
the personnel that worked at security checkpoints and make them 
Federal employees. That proposal would relieve the airlines of 
at least a billion dollars of cost every year and transfer that 
amount or more onto the taxpayers. If that is what is necessary 
to ensure that we have effective safety at the checkpoints, 
then we should do it. But 5 or 10 years from now, when 
attention to this tragedy may have faded a bit, I hope that we 
will not hear repeated calls to shrink the size of the Federal 
Government.
    In addressing the costs of these new security procedures, I 
am particularly concerned about the burden that will be placed 
on the Nation's smaller airports, airports like the ones we 
have in Bluefield, Clarksburg, Beckley, Parkersburg, West 
Virginia. These airports have had modest operating budgets. 
Just the interim security enhancements that were ordered by the 
FAA last week will work a hardship on these small airports.
    This is not to be unexpected, but as we look at the costs 
that are incumbent on us to improve aviation safety we must 
recognize the needs of the smaller and more remote outposts of 
the aviation network.
    Separate from the issue of whether emergency funding is 
needed for airports, I am aware of proposals to provide very 
sizable appropriations of direct grant assistance to bail out 
the airlines. The airline industry is essential to this 
Nation's commerce, producing about $125 billion annually and 
creating work for manufacturers and other companies. The 
Federal Government cannot allow this industry to fold without 
seriously disrupting the U.S. economy and I am fully aware of 
that, fully supportive of doing whatever needs to be done to 
keep that from happening.
    But if we have now reached the point that this industry 
must live off the generosity of the U.S. taxpayer, then I think 
we have a responsibility to ensure that the taxpayers are well 
served. I am thinking particularly about our constituents that 
live in smaller cities and towns in rural America. Ever since 
we deregulated the airlines in 1978, these citizens have been 
asked to pay through the nose for infrequent and in most 
instances quite poor air service.
    Now, at the same time that the airlines are cutting back 
service to some cities and eliminating service to others, they 
are asking for a Federal bailout. I am not necessarily against 
providing some measured assistance to pump some fresh blood 
into the airlines. But I must ask, how will we ensure that the 
airlines are accountable with the taxpayers' money?
    I must also ask whether we need to look at re-regulating 
the airlines to ensure that all taxpayers, not just those in 
the big cities--and I have nothing against those in the big 
cities, but not just those in the big cities--get their money's 
worth.
    During a time of war, we should require that there be air 
service to all parts of America to ensure that there is 
mobility for all Americans.
    Mr. Secretary, I was the Majority Leader in 1978 when we 
deregulated the airlines, and in sackcloth and ashes I have 
wept and kicked myself repeatedly over the years since 1978 for 
going along with deregulation of the airlines. Why? Because the 
big airlines pulled out of West Virginia as soon as we 
deregulated the airlines. They left us hanging without adequate 
service, and then they gouged the taxpayers in these rural 
communities for service.
    We pay--I can get the figures; you have them--$600, $700 
for a round trip ticket to Charleston, West Virginia. It is 
unfair. The airlines provide service to London and back in many 
instances for less money than they require from the coal miner, 
the steel worker, the farmer, the school teacher, the little 
people, if we might call them little, in West Virginia and in 
other rural communities.
    Now, I am going to ask these airlines, you can believe 
that, because some of this money is going to flow through the 
Appropriations Committee, what are you going to do for our 
little people, if you want to call them little? We have been 
treated like little people and we are tired of it, and I am 
seething, seething with anger at myself for voting for 
deregulation.
    Now there has come a time when you, the airlines, need 
help. I am going to be there to help you. I want to help you, 
because we are all in this boat together. But I am going to ask 
you some questions about what kind of service you are going to 
give us, the people in the rural communities all over America.
    Thank you. Thank you, our witnesses.
    Thank you, Madam Chair.
    Senator Murray. Thank you, Mr. Chairman.
    Senator Stevens.

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you very much, Madam Chairman. In 
the interest of time, I would like to have my statement appear 
in the record.
    Just two comments. One, I am certain our two committees, 
the House and Senate Appropriations Committees, will provide 
the funds to restore and repair the critical transportation 
services of our country, not just the airlines, but also the 
rail and port facilities, pipeline and highway facilities. They 
all must be looked at as far as security is concerned.
    Secondly, I want to say, as I said this morning, our two 
witnesses here probably deserve greater recognition than anyone 
could realize, because between them they ordered the airplanes 
to come to the ground. That probably contained other terrorists 
who would have wreaked great damage, not only in the country, 
but particularly right here in this city. I hope, Mr. Mineta, 
you relate, as you did this morning, how you came to that 
conclusion. And he came to it very fast, because there were 
planes that were in the air or on the taxi strip that could 
have caused us all great harm had he not taken that action.
    I again publicly congratulate him, and I think we are very, 
very privileged to have two people such as Secretary Mineta and 
Administrator Garvey to head this team for us in terms of this 
subject, and in particular its impact and implications for 
general aviation and commercial aviation.
    Thank you very much.
    Senator Murray. Representative Obey.

                 STATEMENT OF Congressman DAVID R. OBEY

    Mr. Obey. I thank the chair for calling these hearings, and 
I agree with much that Senator Byrd and Senator Stevens have 
said. Today we simply need information. We need action. It 
would be nice if that action is accompanied by some thought. We 
also need a sense of balance. We do not need scapegoats.
    Members of Congress are going to have plenty of time to 
make their views known on this subject. Today we need to hear 
the witnesses. We do not need any opening statement from me. I 
think we just need to get on to the testimony.
    Senator Murray. Thank you very much.
    We will now turn to our witnesses that are here today. 
Secretary Mineta, we will begin with you.
STATEMENT OF NORMAN Y. MINETA, SECRETARY OF 
            TRANSPORTATION, OFFICE OF THE SECRETARY, 
            DEPARTMENT OF TRANSPORTATION
ACCOMPANIED BY MICHAEL JACKSON, DEPUTY SECRETARY, OFFICE OF THE 
            SECRETARY, DEPARTMENT OF TRANSPORTATION

    Secretary Mineta. Chairman Murray, Chairman Rogers, 
Chairman Byrd, Senator Stevens, Congressman Sabo, and 
Congressman Obey, and members of the two Transportation 
Appropriations Subcommittees: It is with both sadness and 
resolve that Administrator Garvey and I appear before you 
today. I join all Americans in my sadness and anger about the 
lives that were lost during the heinous, cowardly terrorist 
attack on September 11. I also follow President Bush with a 
firm, unfaltering commitment to help our Nation, and 
specifically our transportation system, to respond, rebuild, 
and recover.
    Though we will never overcome the sorrow that we feel for 
the families and friends who lost loved ones, we will ensure 
public safety and protect economic vitality. While it may take 
time to recreate comfortable confidence in travel, I can assure 
this committee that we can and we will enjoy a transportation 
system that is safe, secure, and stable.
    I want to also publicly express my gratitude and pride at 
the performance of the Department of Transportation's employees 
throughout the crisis. I would like to call particular 
attention to the professionalism displayed by the FAA, from 
Administrator Jane Garvey, Deputy Administrator Monte Belger, 
on down. The FAA has performed magnificently, as have crucial 
players in our Department, including the United States Coast 
Guard and all of those who work so well and who were well 
prepared in our Department of Transportation Crisis Management 
Center.
    On the morning of Tuesday, September 11, I was having 
breakfast with the deputy prime minister of Belgium, Isabel 
Durant, who is also their minister of transport, and my chief 
of staff, John Flaherty, came in and said: Excuse me, Mr. 
Secretary; may I see you? So I excused myself and went into the 
office, and the television set was on. The first thing I see is 
smoke billowing from the World Trade Center building.
    So he said: We don't know what it is. We think it might 
have been some sort of an explosion. So I said: Well, keep me 
posted, and I went back into the meeting with Mrs. Durant.
    Around 5 or 6 minutes later, he came back in and said: Mr. 
Secretary, may I see you? So I came back out, and he said: It's 
been confirmed it is an airplane that went into the World Trade 
Center. And as I am sitting there watching the television, all 
of a sudden from the right came this grey object, and then all 
of a sudden this plume of orange smoke that came out from the 
other side of the building.
    So I immediately went into the conference room and said to 
Mrs. Durant: You are going to have to excuse me; I am going to 
have to attend to some matters here. By that time I had been 
called by the White House to come immediately to the White 
House, and I went over there, walked into the White House, went 
into the situation room, and was briefed by Dick Clark, a 
member of the staff of the National Security Council.
    Then he said: You have got to join the Vice President over 
in the operations center. So I was escorted by the Secret 
Service over to the operations center.
    You know, when one of something occurs it is an accident. 
When two of the same thing occur, it is a pattern. While we 
were in the operations center, we then heard about an explosion 
at the Pentagon. We thought we heard also that it might have 
been a helicopter. Then it became apparent it was an American 
Airlines air carrier that had gone into the Pentagon. But when 
you have three of the same thing occur, it is a pattern.
    So immediately I called the FAA and I said: Get all the 
airplanes down right now. We do not know what is going on. All 
we are getting are, frankly, watching CNN, Fox, and other 
reports coming into the operations center. Well, at that point 
I believe there were a little over 4,500 aircraft in the air, 
and in less than 2 hours, 1 hour and 56 minutes, we were able 
to get every one of those airplanes down, due to the great 
professionalism of the air traffic controllers, flight deck 
crews, and pilots throughout the country.
    All that we have learned since that fateful morning leaves 
me convinced that this unusual command was the right thing to 
do. And thanks to thorough preparation, the Department of 
Transportation's Crisis Management Center took only minutes to 
kick into action, and the various modal administrations secured 
thousands of transportation facilities, and the United States 
Coast Guard secured our harbors and waterways while also 
readying its rescue operations.

                      Heightened security measures

    As we look into the future, the administration is already 
moving to restore public confidence in our transportation 
system and infrastructure. On September 11 I announced the 
gradual restoration of mobility within the national air space 
system. We took immediate steps to develop heightened security 
measures, to ensure the safety of airline passengers as well as 
people on the ground.
    As all of you are very well aware, all of the country's 
major airports, with the exception of the Ronald Reagan 
Washington National Airport, have resumed air service 
operations. We are working with the United States Secret 
Service, and they are considering the security implications of 
the reopening of Ronald Reagan National Airport.
    Now, because safety is of paramount importance, I required 
that heightened security measures, including a thorough search 
and security check of all airplanes and airports, were to be in 
place before any air service resumed last week. In addition, we 
discontinued curbside check-in at every airport, and passengers 
are now required to go to the ticket counters to check baggage. 
We also discontinued off-airport check-in. Only ticketed 
passengers are allowed to proceed past airport screeners. Well-
wishers must stay out of the secured areas, and there will be 
no exceptions.
    Now, consistent with the strict security measures imposed 
upon startup last week, I announced on Sunday the creation of 
two rapid response teams, consisting of FAA employees, to offer 
specific recommendations to me for the further improvement of 
security within our national aviation system. One team is 
focusing on ways to increase security at our Nation's airports. 
The other is focusing on aircraft integrity and security, with 
specific attention to cockpit access and an expanded Federal 
air marshal program. Both teams are meeting regularly and with 
urgency. Their reports are due October 1 at the latest, and I 
am in touch just about daily with the work of those two rapid 
response teams.
    Now, these internal teams will have input from a 
distinguished group of Americans with a wide range of 
expertise, and a key assignment to the airport security team is 
how best to increase the Federal role and presence in security 
screening. We are past the question of ``whether'' and are now 
focused on the question of ``how''.
    Now, please note that the need for a broader perspective as 
we address both security and commerce is paramount. The events 
of September 11 have focused media and public attention almost 
exclusively on aviation, which is understandable. However, our 
departmental responsibility is to be equally concerned about 
other modes of transportation. Under authority from the Ports 
and Waterways Safety Act, we have taken action to control the 
movement of all vessels in the navigable waters of the United 
States. All ports and waterways have remained open and secure 
since September 12, and we have put pipeline operators on 
alert.
    As we restore America's confidence in our ability to 
maintain the mobility and general freedoms that we hold dear, 
Congress, the Executive Branch, and the American people must 
not lose sight of the fact of the sobering need for heightened 
vigilance. We cannot allow this enemy to destabilize our 
political system, our economy, and our way of life, and we will 
not.
    As I am sure this committee understands, the economic 
viability of the United States airlines is now also an urgent 
and crucial matter. Given the crucial role of air carriers and 
the role of terrorist attacks in this economic trauma, 
immediate action is mandated. Today we hope to be submitting a 
proposal that will include certain general principles and 
specifics, because we have been working on these issues 
urgently and intensely since last week. We have worked with 
airline CEO's, labor union leaders, and the financial 
community, and we have met with congressional leaders from both 
sides of the aisle last night, this morning, and these meetings 
are going on. Those meetings are continuing at this present 
time.
    Now, the package at this point includes $3 billion for 
airlines to offset new costs for heightened and tightened 
security, $5 billion in direct economic relief, authorization 
for use of the war risk insurance program at the President's 
discretion in the domestic as well as in the international 
arena, and, fourth, limited modification to certain aspects of 
collateral liability in order to avert a near-term threat to 
continued availability of insurance.
    These modifications will provide a brief time in which to 
resolve that threat for the longer term. Also, there has been a 
strong message of support from congressional leaders on both 
sides of the aisle in both bodies of the United States Congress 
for some near-term financial support, and administration and 
congressional leaders are attempting to address these issues at 
this very moment.
    Time is of the essence for these proposals, and therefore I 
hope that the measure that we offer up will move forward 
immediately. We would then have the time necessary to consider 
and consult with you about additional measures that may prove 
to be necessary.
    I would like to close by noting my own firm commitment to 
working with the legislative leaders here today. You already 
deserve thanks for the swift bipartisan action that you took 
last week to provide supplemental appropriations that helped 
get action under way across the Federal Government. In these 
traumatic times, I look forward to the honor of working closely 
with all of you as we face the complex and crucial challenges 
that lie ahead.

                           PREPARED STATEMENT

    Madam Chairwoman, I would like to ask unanimous consent 
that my full statement be made a part of the record.
    Senator Murray. Without objection.
    Thank you, Mr. Secretary.
    [The statement follows:]

                 Prepared Statement of Norman Y. Mineta

    Mr. Chairman, Members of the Committee, it is with both sadness and 
resolve that I appear before you today. Obviously, our lives, and the 
life of our nation, changed dramatically as a result of the terrible 
attack of September 11.
    Though we will never overcome the sorrow we feel for the families 
and friends who lost loved ones, we will be able to ensure public 
safety.
    And, while it may take time to recreate comfortable confidence in 
air travel, I assure this committee that we can--and will--enjoy a 
transportation system that is safe, secure, and stable. The effort 
being expended by the government, the carriers, airport authorities, 
local police forces, and others on behalf of aviation will continue, 
and the traveling public can count on this.
    That is the President's commitment, and I will marshal all 
resources of the Department of Transportation to accomplish that 
fundamental goal.
    I should begin by taking this public opportunity to express my 
profound gratitude and pride in the performance of the employees 
throughout the Department of Transportation. I want to emphasize 
particularly my appreciation for the professionalism displayed by the 
FAA from top-to-bottom since the attack. From Administrator Garvey on 
down, the FAA has performed magnificently, as have other crucial 
players in our Department, including the Coast Guard and all those who 
worked with the well-prepared DOT Crisis Management Center.
    I hope here briefly to outline some of the key activities of our 
Department on September 11 and then to move to essential plans for our 
future.
    On the morning of September 11th, on first word of the attack, I 
moved directly to the Presidential Emergency Operations Center in the 
White House. As soon as I was aware of the nature and scale of the 
attack, I called from the White House to order the air traffic system 
to land all aircraft, immediately and without exception. That was an 
unprecedented step. But with the risk of additional flights that might 
be used as terrorist weapons, I believe that it was the right and 
necessary step to take.
    In the moments that followed my call, countless brave, tough, and 
smart Federal air traffic controllers worked with courageous and calm 
pilots and flight crews to land over 4,500 aircraft. Though all these 
emergency landings were entirely unplanned, they were safely and 
successfully accomplished. That was a historic feat in crisis 
management, and it illustrated the magnificent skill of key players in 
our transportation systems.
    This Committee should also be aware of the extraordinarily rapid 
response achieved with respect to all modes of transportation 
throughout our country on September 11th.
    Thanks to elaborate simulation and preparation, the Department of 
Transportation's Crisis Management Center took only minutes to kick 
into action. The first crash occurred at 8:46 am, and the Crisis 
Management Center was fully operational--with secure lines of 
communication, initiation of security procedures, and key contacts on 
line--by 9 am. Then, in a pre-planned fashion, the Department rapidly 
secured thousands of transportation hubs and corridors across the 
United States--including bridges and rail lines, roads and harbors.
    Of course, as we move forward, we must dramatically alter our 
approach. As President Bush has said: the world has changed. I add: so 
too has the very nature of our national transportation system.
    The events of the past several days require us to take new steps to 
move people and commerce safely and efficiently, despite the fact that 
the nature of the threat has clearly changed. It is a mission we cannot 
afford to leave for a later time.
    This Administration is already moving to restore and enhance our 
air transportation system. On September 13th, I announced the gradual 
restoration of flights within the national airspace system. We took 
immediate steps to develop heightened security measures to ensure the 
safety of airline passengers as well as people on the ground.
    All of the country's major airports have resumed scheduled domestic 
commercial and cargo service operations, with the exception of Reagan 
National Airport, which remains temporarily closed. Scheduled passenger 
airline service is operating at about 78 percent of normal levels. 
General aviation operations have also resumed except for visual flight 
rules operations in the immediate vicinity of our nation's 30 largest 
airports. We are currently increasing access to international 
commercial and general aviation flights.
    Because safety is of paramount importance, I required that 
heightened security measures be in place before any air service 
resumed. A thorough search and security check of all airplanes and 
airports took place before passengers were allowed to enter and board 
aircraft.
    We discontinued curbside check-in at every airport. We discontinued 
off-airport check-in. We no longer allow passengers to check in for 
their flights at hotels or other locations. All passengers are now 
required to go to the ticket counters to check baggage. Only ticketed 
passengers and authorized personnel are allowed to proceed past airport 
screeners--well-wishers must stay out of the secured areas.
    Let there be no doubt: we will soon be taking additional steps to 
increase security beyond those already taken.
    Now we must deal more broadly with the aftermath of September 11th. 
We have already turned toward development of long-term, sustainable 
security improvements within our airports and on our aircraft to ensure 
American passengers are provided with the highest possible levels of 
safety.
    Consistent with the strict security measures imposed upon startup 
last week, I announced on Sunday the creation of two Rapid Response 
teams to make specific recommendations for the further improvement of 
security within the national aviation system. Their conclusions are due 
October 1, at the latest. One team is focusing on ways to increase 
security at our nation's airports. The other is focusing on aircraft 
integrity and security. Among those areas that will be addressed will 
be making airport screening a more credible deterrent, expanding the 
Federal Air Marshal program, and enhancing cockpit security. Both teams 
are now undertaking their tasks with a sense of urgency.
    As they work on these teams, our own experts at the Federal 
Aviation Administration and Department of Transportation will have 
input from a distinguished group of Americans with a wide range of 
expertise in many different aspects of air transportation and law 
enforcement.
    I understand the complexity of these issues, and I know there have 
been numerous studies on many of these issues. Yet the larger context 
has changed dramatically. We now face a different security threat not 
only in transportation, but in all aspects of American life. We have to 
be willing to meet that changed threat with additional counter-
measures, and still find ways to keep our transportation systems the 
efficient and vital circulation system of our economy. We must 
therefore judge our security options in a different light than we might 
have judged them in the past.
    What I expect now are good, unambiguous answers to the new 
questions and heightened risks. The Department of Transportation has 
acted promptly in response to the changed circumstances, and we will 
take further actions promptly.
                       broader security concerns
    We also need to keep a broad perspective as we address both 
security and commerce. The events of September 11th have focused media 
and public attention almost exclusively on aviation, which is 
understandable. Yet, as Vice President Cheney has noted, the odds are 
good that terrorists may use entirely new lines of attack. The 
Department I am honored to direct is focusing on all modes of 
transportation, including but not limited to airplanes and airports.
    Thus, under authority from the Ports and Waterways Safety Act, we 
have taken action to control the movement of all vessels in the 
navigable waters of the United States.
    All ports and waterways have remained open and secure since Sept. 
12 with very limited exceptions. We put pipeline operators on alert. 
And with the resources provided to the U.S. Coast Guard, it has 
performed with monumental efficiency.
    In the New York City area, our employees have worked selflessly for 
days to bring services back, provide alternative means of access to the 
City, and, at the same time, guard against possible further acts of 
terrorism.
    I want to emphasize the over-arching threat we now face. The new 
security measures we have already implemented--and those we will 
implement both publicly and discreetly--are not designed simply to deal 
with threats of further attacks like those of September 11th.
    For example, the President has asked our Department to help protect 
the integrity of our nation's entire transportation infrastructure. And 
that is what we are doing. But we also have to recognize that we have 
to meet the challenge of new and different security threats not only in 
transportation, but throughout our society.
    We will have to take precautions in transportation that we have 
never taken before, and we will have to do the same in virtually every 
aspect of American life. We will find ways to preserve the best of our 
transportation systems--the freedom of movement, the safe and efficient 
movement of goods and people that is so necessary to our economy. We 
will find ways to accomplish both heightened security and the benefits 
of an efficient transportation system.
                           economic response
    I turn now to another critical topic--maintaining the air 
transportation system in the face of severe financial problems. The 
current situation in the airline industry is that access to credit 
markets is greatly restricted and revenues dramatically diminished.
    I would emphasize that the task at hand is not to prop up one or 
another of the carriers. It is not to ``make whole'' the industry as if 
September 11th had never occurred. Rather it is to recognize that this 
key part of the economy of this country requires new foundations in 
security and confidence as solid as they were once before. I believe 
the Federal Government has a responsibility for the safety of the 
public, airline passengers and crews in particular, and to ensure the 
foundation of security, insurance, and other necessities that will help 
this key part of the U.S. economy function. This nation needs a vital, 
viable, and competitive airline industry.
    Accordingly, we are proposing on an expedited basis an initial 
package to provide strength, security, and confidence in air 
transportation.
    Our proposal includes:
  --$3 billion to airlines to help offset the substantial new costs 
        they are incurring because of tightened security requirements.
  --$5 billion in direct and immediate payments to airlines, roughly in 
        proportion to their size.
  --Authorization for the War Risk Insurance Program to be invoked, at 
        the President's discretion, in the domestic arena as well as 
        the international.
  --Limited modifications to certain aspects of collateral liability, 
        in order to avert a near-term threat to the continued 
        availability of insurance coverage. The main purpose is to give 
        us a brief period of time in which to try to resolve that 
        threat.
    We have additional steps under consideration, some of which would 
take additional time to fully sort out. We believe that on the measures 
we are now proposing, time is of the essence. We believe these 
proposals should move forward immediately, and we would then have 
additional days to consider and to consult with you on additional 
measures that may be needed.
    I would like to close by taking this occasion to thank this 
Congress for its swift, bipartisan action last week in providing needed 
supplemental appropriations to get action underway across the 
Government. I look forward to working closely with each of you as we 
face and meet the challenges ahead.
    This completes my prepared statement. I would be pleased to respond 
to the Committee's questions.

    Senator Murray. Ms. Garvey.
STATEMENT OF JANE F. GARVEY, ADMINISTRATOR, FEDERAL 
            AVIATION ADMINISTRATION, DEPARTMENT OF 
            TRANSPORTATION
    Ms. Garvey. Thank you. Madam Chair, Chairman Rogers, and 
Members of the Committee: It is an honor for me to be here 
today to appear before you. I would like to begin by joining 
the Secretary in offering my heartfelt condolences and prayers 
and those of everyone at the FAA to the family and friends of 
those who were lost last Tuesday. I know a number of you had 
constituents on several of those flights involved in the World 
Trade Center. I offer you our condolences as well.
    I would also like to take a moment, if I could, to publicly 
express my profound gratitude to the staff of the FAA and in 
particular to the air traffic controllers. One editorial writer 
who traveled on a plane that morning wrote later that: ``In a 
life and death situation that might have been even more 
catastrophic, the controllers, the systems people, the 
management supporting them, did their jobs and in so doing 
brought tens of thousands of Americans safely back to earth.'' 
It is a singular honor to associate myself with their 
professionalism today.

                           Security measures

    As the Secretary has noted, in the aftermath of last 
Tuesday the President called on all Americans to begin to 
return to normal as quickly as possible. For those of us at the 
FAA, that has meant that we need to focus on two principal 
areas. One is to work with the airport community and with the 
airlines to put in place more stringent security measures. The 
Secretary has mentioned a number of those measures. Some of 
them are clearly visible to the traveling public; others are 
less so.
    I would just add that one overriding principle for us was 
to create a series of redundancies in the system that would 
make the system even more secure. We are--and I know this has 
been mentioned by Chairman Rogers, so I do want to comment on 
the Federal air marshal program. We are enormously grateful to 
Congress. The money and the resources that you provided have 
allowed us to move forward very, very quickly to put in place 
more Federal air marshals. We think that is extraordinarily 
important. We are also deeply grateful to the Attorney General, 
who has come forward with a number of Treasury and Justice 
officials to help us in that program. We are very grateful for 
that.

                           System efficiency

    The second focus for us, of course, has been to restore the 
system. We have been doing that in a methodical and a very 
deliberate way and in very close daily collaboration with the 
aviation community and with the airport community. It began, of 
course, with the airlines by their systematic sweep of all the 
aircraft that were involved and on the ground. We worked very 
closely with the airports to bring those airports into full 
certification. We continue to do that. Every day there are more 
parts of the system that we want to open up and we will 
continue to do that on a daily basis.
    As the Secretary has mentioned, the incidents of last week 
have really caused all of us--and I really mean all of us, the 
airlines, the airport operators, the public policymakers--to 
rethink the balance of responsibility for civil aviation 
security. It has changed the way we think. I think if you look 
at the security measures that we had in place, much of it was 
very much geared toward explosives, and we have had to really 
rethink and challenge every assumption that we had in place 
before September 11. We are doing that.

                          Rapid response team

    That really leads me to my last point. I believe that the 
measures we have put in place are the right measures, but they 
are not the only measures. The Secretary spoke about the rapid 
response teams that we put in place last weekend. We are 
vigorously working those issues and we believe that those 
recommendations will allow us to move forward. I will only add 
that the direction that I have given to the staff based on my 
conversation with the Secretary is that this must be action-
oriented, this must be viewed both in the short term and in the 
long term with some very specific action items that we can 
undertake.
    Finally, Madam Chairman, if I could, let me just add that, 
like all Americans, there were moments last week when all of us 
at the FAA felt quiet moments of despair and to some degree 
desperation. There were some pretty tough moments in the 
operations center, but I have to say that even in those moments 
of despair there was an overarching sense of resolve. We are 
determined to do whatever it takes to work, if it means 24 
hours a day as some people have been working, we are committed 
to restoring public confidence in the aviation system.
    We thank you for your support and your confidence and your 
continued attention to this issue. Thank you.
    Senator Murray. Thank you, Ms. Garvey.
    Mr. Mead.
STATEMENT OF KENNETH M. MEAD, INSPECTOR GENERAL, OFFICE 
            OF THE SECRETARY, DEPARTMENT OF 
            TRANSPORTATION
    Mr. Mead. Thank you.
    I think there are some things that get engraved in your 
mind, as in marble. I remember to this day President Kennedy 
getting shot and exactly what I was doing, and the day that the 
Challenger blew up, and now the World Trade Center and the 
Pentagon is forever embedded there. So I think I just wanted to 
start off my brief remarks by expressing sorrow to the many 
families who have lost loved ones as a result of the attacks of 
last week and my enormous regard for Secretary Mineta and 
Administrator Garvey and the many rescue and relief workers 
that have sacrificed so much over the past week.
    I must say that Mr. Dillingham of GAO and ourselves in the 
Inspector General's Office have for at least a decade, perhaps 
a little more, made numerous recommendations for strengthening 
the aviation security system on a number of fronts. Reports 
showing vulnerabilities in the screening of passengers, checked 
and carry on baggage and cargo, access to security areas of the 
airport, and the issue of controlling airport identification 
badges.
    Most recently, a private security company was placed on 36-
month probation, ordered to pay over $1 million in fines for 
failing to conduct background checks, falsifying training 
records for employees entrusted with security screening at a 
major U.S. airport. As recently as Friday, we arrested 12 non-
U.S. citizens for illegally obtaining airport access media or 
identification badges.
    I wanted this subcommittee to know that we have temporarily 
detailed some of law enforcement staff to the Federal Air 
Marshal program. I think it is a very wise decision to beef up 
this program and make it more robust. I think that will go a 
long way toward restoring confidence and having a deterrent 
effect.
    I think we all know that the events of last week show the 
need to tighten up aviation security, that there are 
vulnerabilities in it. But it is not going to be foolproof, 
especially when you have people who are willing to die in the 
commission of their criminal acts. That is why I think it is 
always important in discussions, on the subject of aviation 
security, to say why it is important to root out this terrorism 
to begin with, because it is going to be impossible to design a 
system that will be foolproof.
    I would like to highlight two sets of issues. One has to do 
with the governance and organization of aviation security, how 
we deliver it in this country; and secondly, just highlight a 
few aviation security areas I think can be strengthened in 
addition to the measures that have already been put in place 
over the past week.

                   Organization of aviation security

    Given the scope and complexity of the security challenge as 
we know it now, coupled with the longstanding history of 
problems with the aviation security program, I think the time 
has come to revisit the option of vesting governance of the 
program and responsibility for the provision of security in one 
Federal organization or not-for-profit Federal corporation.
    It does not mean that everybody has to be a Federal 
employee, but it does mean a much more robust Federal presence 
and control. That entity would have security as its primary and 
central focus, profession, and mission. Under our current 
oversight system, we have asked FAA to oversee and regulate 
aviation security and those charged with providing the 
security, the airlines and the airports, themselves face other 
priorities, missions, and indeed in some cases competing 
economic pressures.
    I think a centralized, consolidated approach with a 
security mission would require passenger and baggage screeners 
to have uniform, more rigorous training and performance 
standards applicable nationwide. I think that would result in 
more consistent security across this country and of higher 
quality.
    You will not be able to do this overnight. A transition 
period would be required. So in the interim some measures have 
to be put in place to make the best of what we have and restore 
public confidence. I would just like to make a few points that 
weigh in this regard. Congress has put a lot of money into 
these explosive detection machines. I believe they are 
substantially underutilized. They continue to be substantially 
underutilized, and I think that we should immediately increase 
the utilization of these machines. They detect sophisticated 
explosives. They do a good job, I think, and now is the time to 
use them, even though it may mean some extra delay in checking 
in a passenger.

              Recommendations to enhance aviation security

    Screening checkpoint security. It is imperative that we get 
tougher standards out there for these screeners and soon, and 
that will probably have a resultant effect of increasing their 
pay somewhat. But that has been a problem going back 14 years.
    Airport access controls. This is very important, too. This 
is where you do not go through the passenger screening station; 
instead, you go through a door. There is a technique called 
piggybacking, where a legitimate employee walks through the 
door and someone can follow that person right out, if they are 
not careful. So it is very important that we get tight security 
in the airport secure operations area.

                           PREPARED STATEMENT

    I think also we should immediately begin doing criminal 
background checks on all employees at the airport and 
screeners, even those that have been employed for a while, in 
other words not just new employees.
    Those are a few steps I think we can take in addition to 
the ones that are already in place. Thank you.
    [The statement follows:]

                 Prepared Statement of Kenneth M. Mead

    Chairpersons Murray and Rogers, Ranking Members Shelby and Sabo, 
and Members of the Subcommittees: We want to first express our sorrow 
to the many families who have lost or are missing loved ones as a 
result of the terrorist attacks last week. We also want to acknowledge 
the national response the President, Secretary Mineta, other Department 
heads, the Congress, law enforcement, and the many rescue and relief 
workers have taken regarding these attacks.
    We have been reporting on aviation security for at least a decade 
and have made numerous recommendations for strengthening the system 
covering a broad range of issues within the security system--advanced 
security technologies, passenger and baggage screening, airport access 
control, and cargo security. In the last several years alone, we have 
issued reports showing vulnerabilities with screening of passengers; 
checked and carry-on baggage and cargo; access to secure areas of the 
airport; and issuing and controlling airport identification badges.
    We also have conducted numerous criminal investigations resulting 
in prosecutions involving the falsification of airport identification, 
security screener training records, and background checks. Most 
recently, a private security company was placed on 36 months probation 
and ordered to pay over $1 million in fines and restitution for failing 
to conduct background checks and falsifying training records on 
employees staffing security checkpoints at a major U.S. airport. Also, 
since last Friday, we have arrested 12 non-U.S. citizens who illegally 
obtained security badges necessary to gain admittance to secure areas 
at another major U.S. airport. We would like the Subcommittees to know 
that we temporarily detailed some of our law enforcement staff to the 
Federal Air Marshal Program, and we are assisting the FBI in various 
aspects of its investigation.
    The horror and tragedy of the September 11, 2001 terrorist attacks, 
with the loss of thousands of lives and the resultant economic damage, 
illustrates the vulnerability of the current security system. It also 
shows that our transportation systems, in this case aviation, can be 
used as a weapon against us. The aviation security system, as a vital 
national security interest, is a critical line of defense, but it is 
not foolproof, particularly against terrorists who are willing to die 
in their criminal schemes. This is why the effort to stop terrorist 
attacks along with the strengthening of transportation security is so 
important.
    Also, public confidence in the security of the Nation's 
transportation systems, especially aviation, has been seriously damaged 
and needs to be restored. The President, Departments of Justice and 
Transportation and others already have a broad range of security 
measures underway to address this issue. One such measure is increasing 
the workforce in the Federal Air Marshall Program. Other additional 
measures currently in place at all the Nation's commercial airports 
include increased security such as: eliminating curbside baggage check-
in, intensified passenger and carry-on baggage screening at security 
checkpoints, and limiting access beyond the screening checkpoints to 
passengers with tickets or ticket confirmations.
    Today, I would like to highlight some issues concerning governance 
and organizational structure of how to approach aviation security and 
then proceed to some specific areas that need to be strengthened. We 
will be sharing these points in detail with the Secretary's Rapid 
Response Teams.
       governance, organization and delivery of aviation security
    The current U.S. system has a variety of organizations responsible 
for various elements of aviation security. Other Nations use models 
different from ours. In Belgium, France, and the United Kingdom, the 
airports are responsible for screening. In the Netherlands, the 
government is currently responsible for passenger screening, but 
employs a security company to conduct the screening operations.
    Given the scope and complexity of the security challenge as we now 
know it, coupled with a longstanding history of problems with the 
aviation security program, we believe the time has come to consider the 
option of vesting governance of the program and responsibility for the 
provision of security in one Federal organization or not-for-profit 
Federal corporation. This entity would have security as its primary and 
central focus, profession, and mission. Under the current system, those 
charged with aviation security oversight and regulation (FAA) and those 
charged with providing the security (the airlines and airports) are 
themselves facing other priorities, missions, and, in some cases, 
competing economic pressures.
    A centralized, consolidated approach by an organization with a 
security mission would require passenger and baggage screeners to have 
uniform, more rigorous training, and performance standards applicable 
nationwide. The employees of this entity would not necessarily need to 
be Federal employees, but would be required to meet established 
performance standards, and would be subject to termination if they do 
not perform. This should result in more consistent security at our 
Nation's airports.
    A Federal organization or Federal corporation would be responsible 
for screening passengers, employees (anyone with access to the aircraft 
or secure areas of the airport), carry-on baggage, checked baggage, and 
cargo. It would also issue, control and account for identification 
media at airports nationwide; search aircraft and airport facilities 
with canine units; and manage airport access control systems. The 
organization could also include the current Federal Air Marshals; and 
could take over responsibility for developing, purchasing and deploying 
advanced security equipment, such as explosives detection equipment. 
The organization, not the airlines, FAA, or airports, would determine 
when the security equipment should be used to screen baggage and be 
responsible for the maintenance and upgrading of this equipment.
    This entity would also be able to maintain close ties to the 
intelligence community, revise requirements or procedures without going 
through a lengthy rulemaking process, require employees to be U.S. 
citizens and have background and credit checks, and provide screening 
personnel better salaries and a career path.
    Any change in the governance and organization of this system will 
require careful analysis, cannot be done overnight, and will require a 
transition period. In the interim, we must sustain the current system 
and improve security measures now in place.
   changes needed to supplement and enhance security actions already 
                                underway
    The aviation security system in place today is a layered system of 
systems in place at the Nation's airports. This system involves 
prescreening passengers at check-in; screening passengers' checked and 
carry-on baggage, and cargo at security control points in the airports; 
controlling access to secure areas of the airport; and restricting 
access to secure areas of the airport to unauthorized individuals.
    Aviation security in the U.S. is also based on a system of shared 
responsibilities among FAA, air carriers, and airport operators. FAA is 
responsible for establishing and enforcing regulations, policies, and 
procedures; identifying potential threats and appropriate 
countermeasures; deploying Federal Air Marshals on selected U.S. air 
carrier flights; and providing overall guidance and oversight to ensure 
the security of passengers, crews, baggage, cargo, and aircraft. Air 
carriers are primarily responsible for applying security measures to 
passengers, crews, baggage, and cargo. This includes screening all 
passengers, and passengers' carry-on and checked baggage, which is 
usually performed by contractors. Airports, run by State or local 
government authorities, are responsible for the security of the airport 
environment and for providing law enforcement support for 
implementation of air carrier and airport security measures.
    The Department of Transportation's Office of Inspector General 
(OIG) and the General Accounting Office (GAO) have issued numerous 
reports identifying weaknesses in the aviation security system and 
recommending corrective actions. Many of these weaknesses are still 
present and need to be addressed without delay. The following 
paragraphs highlight those areas that need immediate attention by FAA. 
These areas include security of checked baggage, screening checkpoint 
security, cargo security, controlling access to secure areas of the 
airport, issuing airport identification, and the Federal Air Marshal 
Program. We will be providing this information to the Secretary's Rapid 
Response Teams.
                      security of checked baggage
    Explosives detection equipment such as the CTX machine was 
developed to assist screeners in identifying threat items in passenger 
baggage. In our 1998 report on Deployment of Explosives Detection 
Equipment, we recommended that FAA develop a strategy to more 
effectively utilize the CTX machines and enhance screener performance. 
Recently, Congress passed the Aviation Security Improvement Act of 
2000, which requires FAA to maximize the use of explosives detection 
equipment. Today, however CTX machines are still underused, and 
screeners' performance needs improvement.
    FAA has taken action to increase utilization of bulk explosives 
detection machines. However, we do not accept the utilization goals 
that FAA has chosen. It is too low. Nor do we accept that FAA's goals 
are responsive to the requirements mandated in the Airport Security 
Improvement Act of 2000. The majority of the machines are still 
underutilized. A bulk explosives detection machine in use has an 
immediate, powerful, and visible deterrent effect on potential 
terrorist attack. One sitting idle does not.
                     screening checkpoint security
    In our 1996 report on efforts to improve airport security we found 
screeners frequently failed to detect threat items at security 
checkpoints. More recently, GAO completed a review titled Long-Standing 
Problems Impair Airport Screeners' Performance.\1\ In this 2000 report, 
GAO found that long-standing problems combine to reduce screeners' 
effectiveness in detecting dangerous objects, most notably (1) the 
rapid turnover of screener personnel, and (2) human factors conditions 
that for years affected screeners' hiring, training, and working 
environment. GAO found that despite several laws enacted by Congress, 
concerns remain over screeners' ability to detect dangerous objects. 
Furthermore, FAA has acknowledged that screeners' detection of 
dangerous objects during testing is unsatisfactory and needs 
improvement.
---------------------------------------------------------------------------
    \1\ Aviation Security: Long-Standing Problems Impair Airport 
Screeners' Performance, Report Number GAO/RCED-00-75, dated June 2000.
---------------------------------------------------------------------------
    This is a long-standing problem--one that was reported on over a 
decade ago by the Department of Transportation and GAO.
                             cargo security
    We just completed a follow-up audit of FAA's Cargo Security 
Program. We continue to find weaknesses in FAA's policy for allowing 
cargo on passenger aircraft. We will not discuss the details of those 
weaknesses here today, but will be briefing the Secretary of 
Transportation, the Federal Aviation Administrator, and the Secretary's 
recently created Rapid Response Teams.
                        airport access controls
    Controlling access to secure areas of the airport is critical in 
protecting the airport's infrastructure and aircraft from unauthorized 
individuals. During late 1998 and early 1999, we successfully accessed 
secure areas \2\ in 68 percent of our tests at eight major U.S. 
airports. Once we entered secure areas, we boarded aircraft 117 times. 
The majority of our aircraft boardings would not have occurred if 
employees had taken the prescribed steps, such as making sure doors 
closed behind them. In addition to recommending that FAA work with 
airport operators and air carriers to implement and strengthen existing 
controls to eliminate access control weaknesses, we also recommended 
that comprehensive training programs be developed that teach employees 
their role in airport security, and make employees accountable for 
compliance. These recommendations along with others were incorporated 
into the Airport Security Improvement Act of 2000.
---------------------------------------------------------------------------
    \2\ OIG uses the term secure area to define the area of an airport 
where each person is required to display airport-approved 
identification. Each airport defines this area, which may be the entire 
Air Operations Area or may be limited to a smaller, more restrictive 
area.
---------------------------------------------------------------------------
    FAA recently issued regulations making individuals directly 
accountable to FAA for noncompliance with access control requirements. 
But testing and assessing fines for security violations is not the only 
answer. FAA must assist airport operators and air carriers in 
developing and implementing comprehensive training programs. All 
security training programs, not just for access control, must teach 
employees their role in aviation security, the importance of their 
participation, how their performance will be evaluated, and what action 
will be taken if they fail to perform.
                     issuing airport identification
    Additional actions are needed to improve the process used to ensure 
that employees with access to secure areas of an airport are 
trustworthy. Our 2000 report on Controls Over Airport Identification 
Media looked at industry's compliance with FAA's background 
investigation requirements at six U.S. airports and found that the 
requirements were ineffective, and airport operators, air carriers and 
airport users \3\ frequently did not comply with these requirements.
---------------------------------------------------------------------------
    \3\ Airport users include foreign air carriers, non-air-carrier 
airport tenants, and companies that do not have offices at the airport, 
but require access to the secure airport areas.
---------------------------------------------------------------------------
    We made recommendations to FAA to: strengthen background 
investigation requirements to include initial and randomly recurring 
FBI criminal checks for all employees; expand the list of crimes that 
disqualify an individual from unescorted access to secure airport 
areas; and incorporate in background investigation requirements the use 
of credit checks and drug tests to help assess whether individuals can 
be trusted with the public's safety and be permitted to work in secure 
airport areas.
    The Airport Security Improvement Act of 2000 incorporated some of 
our recommendations and required FBI criminal checks at Category X 
airports as of December 2000. However, other airports will not enter 
this program until December 2003, even though FAA has stated the 
capacity to process additional checks exists. We recommended that all 
airports be required, immediately, to conduct criminal checks for all 
employees that have access to secure airport areas, and for all 
screeners, including cargo screeners. Also, criminal checks must not be 
restricted to first-time applicants, as the current law provides, but 
should include all employees regardless of their employment date. 
Further, criminal checks must be recurring.
    We also must consider additional methods of determining the 
trustworthiness of individuals, especially for individuals who have not 
been in the U.S. long enough for a criminal records check to be 
effective. FAA has stated that conducting foreign criminal checks 
presents numerous problems and, therefore, would not be feasible. FAA 
also declined to implement the use of credit checks and drug tests 
because Airport Security Improvement Act of 2000 did not include these 
requirements. But, we believe that alternate investigation methods, 
such as those used by Canada, must be explored, including: credit 
checks, requirements that applicants be U.S. citizens, and an automated 
profiling system that takes into consideration factors including an 
individual's place of birth.
                      federal air marshal program
    In the 1970's, hundreds of security officers were hired through an 
agreement between the FAA and U.S. Customs Service. In 1973, after the 
Customs Sky Marshal program phased out, the FAA continued a limited Air 
Marshal Program using volunteer special agents from its Civil Aviation 
Security.
    Following the Cuban refugee problems in Florida and the hijacking 
of Trans World Flight 847 in 1985, the Secretary of Transportation 
released a report, in 1987, which concluded there was a need for an 
expanded Federal Air Marshal (FAM) Program to supplement ground 
security measures. Initially, all FAA security specialists hired 
between 1985 and 1992 were required to also serve as FAMs. Currently, 
FAA has a dedicated staff of FAMs, but the actual number of FAMs is 
classified. We think it is a wise decision to substantially increase 
use of this Program in the interest of restoring public confidence and 
as a deterrent to criminal on aircraft.
    This concludes my statement. I would be pleased to answer any 
questions.

                        AVIATION SECURITY TESTIMONY AND REPORTS AS OF SEPTEMBER 14, 2001
----------------------------------------------------------------------------------------------------------------
            Date                                             Title                                 Report Number
----------------------------------------------------------------------------------------------------------------
          Testimony
 04/06/2000..................  Aviation Security. Statement of Alexis Stefani, Assistant              AV-2000-076
                               Inspector General for Auditing Before the Subcommittee on
                               Aviation, Committee on Commerce, Science, and Transportation,
                               U.S. Senate.
03/16/2000..................  Aviation Security. Statement of Alexis Stefani, Assistant              AV-2000-070
                               Inspector General for Auditing Before the Subcommittee on
                               Aviation, Committee on Transportation and Infrastructure, U.S.
                               House of Representatives.
03/01/2000..................  Improving Aviation Safety, Efficiency, and Security: FAA's fiscal      AV-2000-054
                               year 2001 Request For Research, Engineering, and Development,
                               Statement of Alexis Stefani, Assistant Inspector General for
                               Auditing Before the Subcommittee on Technology, Committee on
                               Science, U.S. House of Representatives.
03/10/1999..................  Aviation Security. Statement of Alexis Stefani, Deputy Assistant       AV-1999-068
                               Inspector General for Aviation Before the Subcommittee on
                               Transportation and Related Agencies, Committee on Appropriations,
                               U.S. House of Representatives.
05/14/1998..................  Aviation Security. Statement of Alexis Stefani, Deputy Assistant       AV-1998-134
                               Inspector General for Aviation Before the Subcommittee on
                               Aviation, Committee on Transportation and Infrastructure, U.S.
                               House of Representatives.
         Audit Reports
 12/07/2000..................  Controls Over Airport Identification Media........................     AV-2001-010
11/18/1999..................  Airport Access Control............................................     AV-2000-017
10/21/1999..................  Deployment of Explosives Detection Equipment......................     AV-2000-002
07/16/1999..................  Security of Checked Baggage on Flights Within the United States...     AV-1999-113
10/05/1998..................  Deployment of Explosives Detection Systems........................     AV-1999-001
07/17/1998..................  Dangerous Goods/Cargo Security Program............................     AV-1998-178
06/01/1998..................  Management Advisory on Review of Security Controls Over Air            AV-1998-149
                               Courier Shipments.
04/17/1997..................  Federal Air Marshall Program......................................     R9-FA-7-006
7/03/1996...................  Efforts to Improve Airport Security...............................     R9-FA-6-014
09/20/1993..................  Audit of Airport Security.........................................     R9-FA-3-105
----------------------------------------------------------------------------------------------------------------


                                        AVIATION SECURITY--INVESTIGATIONS
                                  [February 3, 1999 through September 14, 2001]
----------------------------------------------------------------------------------------------------------------
          Subject Area                      Date                                   Summary
----------------------------------------------------------------------------------------------------------------
Screeners & Baggage Handlers...  Sept. 14, 2001...........  Employees who are non-U.S. citizens without proper
                                                             INS status were authorized to enter secured areas
                                                             of Dulles, ongoing investigation.
Security Badges................  Sept. 14, 2001...........  Arrest warrants were issued against non-U.S.
                                                             citizens who obtained security badges at Miami
                                                             International Airport.
Security Badges................  Sept. 13, 2001...........  Employee at Miami International Airport pleads
                                                             guilty to using job in ID section to make false
                                                             security badges for coworkers.
Cockpit Access.................  June 7, 2001.............  Civilian used false FAA ID card to obtain
                                                             unauthorized cockpit access on 3 separate flights.
Access Control.................  June 5, 2001.............  Non-employee of Miami International Airport
                                                             illegally used an Airport Secured ID Display Area
                                                             access badge to gain entry to a secured area.
Access Control.................  February 1, 2001.........  Miami International Airport employee gained access
                                                             to secured areas by providing false data on Airport
                                                             ID Badge application.
Screeners......................  October 25, 2000.........  Private firm (Argenbright) failed to conduct
                                                             background checks on checkpoint screeners at
                                                             Philadelphia Airport. Company fined $1 million,
                                                             $350,000 restitution and $200,000 in investigative
                                                             costs.
Access Control.................  May 1, 2000..............  Employees at Dallas-Ft. Worth Airport allowed
                                                             unauthorized personnel to use their security badges
                                                             to gain access to secured areas.
Screeners......................  March 27, 2000...........  Private firm (Aviation Safeguards) falsely certified
                                                             on at least 70 occasions that criminal background
                                                             checks had been accomplished on employees seeking
                                                             access to secure areas at Miami International
                                                             Airport.
Access Control.................  Feb. 3, 1999.............  Miami-Dade County Police Office falsely certified
                                                             that criminal background checks had been
                                                             accomplished on 22 employees seeking access to
                                                             secure areas at Miami International Airport. Upon
                                                             hiring, applicants had clearance to enter secured
                                                             areas of the airport.
----------------------------------------------------------------------------------------------------------------

    Senator Murray. Thank you, Mr. Mead.
    Dr. Dillingham.
STATEMENT OF GERALD L. DILLINGHAM, Ph.D., DIRECTOR, 
            PHYSICAL INFRASTRUCTURE ISSUES, GENERAL 
            ACCOUNTING OFFICE
    Dr. Dillingham. Thank you, Madam Chairman. Thank you for 
the opportunity to be here this afternoon. We join with others 
in acknowledging that we do not know all the elements of our 
Nation's aviation security system that failed and served as a 
contributing cause to the horrendous disaster that occurred on 
September 11. We also are cognizant of the fact that aviation 
security is a shared responsibility and that no security system 
will be 100 percent safe. However, we do believe that more can 
be and should be done to increase the effectiveness of our 
Nation's aviation security system.
    The work we have done for this committee and other 
committees of the Congress over the last few years has 
identified weaknesses and potential vulnerabilities throughout 
the system. As a basis for going forward this afternoon, I 
would like to present a summary of our assessment of security 
concerns in three areas: one, air traffic control or ATC; two, 
unauthorized access to secure areas; and three, the performance 
of the passenger and carry on baggage screening system, 
including how the United States and selected other countries' 
systems differ. I would also like to offer some suggestions as 
to some immediate actions that might improve aviation security 
in these areas.

                          Air traffic control

    With regard to ATC security, our reviews of ATC security 
have identified significant deficiencies in the physical 
security of the facilities that house ATC systems, the systems 
themselves, and the security status of the FAA personnel and 
contract personnel who assess these systems. The potential 
implications of these deficiencies is tremendous. The ATC 
system is the heart of our aviation system. It is the system 
that manages the tens of thousands of aircraft that cross the 
Nation on a daily basis.
    Over the past few years, we have made nearly 25 
recommendations to address these identified deficiencies. To 
its credit, FAA has worked to address these recommendations and 
is making some progress. However, most have yet to be 
completed.

                  Unauthorized access to secure spaces

    With regard to secure areas, in May of 2000 we reported 
that our special agents had used fictitious law enforcement 
badges and credentials to gain access to secure areas in 
airports and bypass security checkpoints at two airports. They 
walked unescorted to airport departure gates. These agents had 
been issued tickets, boarding passes, and could potentially 
have carried weapons, explosives, or other dangerous objects 
onto the aircraft.
    FAA acted immediately to require airport law enforcement 
officers to review the credentials of all armed law enforcement 
officers seeking to board aircraft. This was an interim measure 
as a more permanent fix is being developed.

                    Passenger and baggage screening

    With regard to passenger carry on baggage screening, this 
has been a longstanding problem. Our research showed that in 
1978 screeners were missing about one out of ten threat objects 
that FAA used to test performance. FAA and the airlines 
characterized that level of performance as significant and 
alarming. By 1987 they were missing two out of ten.
    For the decade of the nineties, test results showed that in 
some cases screener performance has gotten worse. In our latest 
research we found that as testing gets more realistic, that is 
as the tests become more closely to approximate how a terrorist 
might attempt to infiltrate a checkpoint, the screener 
performance declined significantly.
    A principal cause of performance problems is the rapid 
turnover among screeners. It exceeds 100 percent annually at 
most large airports, leaving few skilled and experienced 
screeners on the job, to say nothing of security issues 
associated with that. People leave these jobs because of low 
wages with few if any fringe benefits, the repetitive, 
monotonous nature of the work, and by and large the efforts 
today to address this problem area have been slow and largely 
ineffective.
    We believe the tools, techniques, and technologies are 
available to address these challenges. Generally, they have 
either not been used or not used effectively or just taken more 
time than should. A case in point is the promulgation of rules 
to implement the provisions of FAA's Reauthorization Act of 
1996 that would establish screening company certification 
programs. The relevant rule is now scheduled for issuance this 
month, more than 2\1/2\ years later than originally scheduled.
    Now I would like to turn briefly to what we found in our 
examination of screening companies and screening programs in 
foreign countries. The question is, are there lessons that we 
can learn from other countries? The answer is maybe. The 
foreign screening operations we examined differed significantly 
from U.S. operations in many of the areas we listed as 
challenges in the United States. Generally speaking, the 
screening operations required more extensive screener 
qualifications and training, including higher pay, better 
benefits, and often included different screening techniques, 
such as a physical patdown of some passengers.
    One other significant difference is that in most of these 
countries responsibility for screening is placed with the 
government or airport authority instead of air carriers. The 
foreign screening operations reported significantly lower 
screener turnover and there was some evidence that they may 
have better screener performance as well.
    FAA and the air carriers have implemented new controls that 
promise a greater sense of security. We believe that to further 
minimize the vulnerabilities in our aviation security system 
more needs to be done. Some immediate actions that we would 
suggest is: limiting passengers to one carry on bag, with 
increased manual searches; screen all airport and airline 
employees who have access to sterile and secure areas, 
including mechanics, ramp workers, food service workers, 
vendors, store employees, at the same time limiting access; 
strengthen--and I think this is the most important--strengthen 
intelligence-sharing among law enforcement agencies, FAA, and 
cleared airport and airline personnel. A key action is to 
complete the promulgation of the screening company 
certification regulation.
    Concurrently, it might be time for Congress to consider 
whether airlines should continue to bear primary responsibility 
for screening operations at the Nation's airports. It has been 
observed that previous aviation tragedies have resulted in a 
cycle of activity, but the long-term resolve and actions to 
correct flaws in the system diminishes as the memory of the 
crisis recedes. The future of the Nation's aviation system and, 
as we are only beginning to understand, so much more hinges in 
large part on overcoming this cycle.
    The GAO continues to stand ready to assist this committee 
in this extraordinarily difficult challenge. Thank you.
    [The statement follows:]

               Prepared Statement of Gerald L. Dillingham

    terrorist acts illustrate severe weaknesses in aviation security
    Madam Chairman, Mr. Chairman, and Members of the Subcommittees: A 
safe and secure civil aviation system is a critical component of the 
nation's overall security, physical infrastructure, and economic 
foundation. Billions of dollars and a myriad of programs and policies 
have been devoted to achieving such a system. Although it is not fully 
known at this time what actually occurred or what all the weaknesses in 
the nation's aviation security apparatus are that contributed to the 
horrendous events of last week, it is clear that serious weaknesses 
exist in our aviation security system and that their impact can be far 
more devastating than previously imagined.
    We are here today to discuss the vulnerabilities that we have 
identified throughout the nation's aviation system. Our testimony is 
based on our prior work and includes assessments of security concerns 
with (1) aviation-related computer systems, (2) airport access 
controls, and (3) passenger and carry-on baggage screening, including 
how the United States and selected other countries differ in their 
screening practices. Our testimony will also offer some observations 
about improving aviation security in these various areas.
    In summary:
    As we reported last year, our reviews of the Federal Aviation 
Administration's (FAA) oversight of air traffic control (ATC) computer 
systems showed that FAA had not followed some critical aspects of its 
own security requirements. Specifically, FAA had not ensured that ATC 
buildings and facilities were secure, that the systems themselves were 
protected, and that the contractors who access these systems had 
undergone background checks. As a result, the ATC system was 
susceptible to intrusion and malicious attacks. FAA is making some 
progress in addressing the 22 recommendations we made to improve 
computer security, but most have yet to be completed.
    Controls for limiting access to secure areas, including aircraft, 
have not always worked as intended. As we reported in May 2000, our 
special agents used fictitious law enforcement badges and credentials 
to gain access to secure areas, bypass security checkpoints at two 
airports, and walk unescorted to aircraft departure gates. The agents, 
who had been issued tickets and boarding passes, could have carried 
weapons, explosives, or other dangerous objects onto aircraft. FAA is 
acting on the weaknesses we identified and is implementing improvements 
to more closely check the credentials of law enforcement officers. The 
Department of Transportation's Inspector General has also documented 
numerous problems with airport access controls, and in one series of 
tests, the Inspector General's staff successfully gained access to 
secure areas 68 percent of the time.
    As we reported in June 2000, tests of screeners revealed 
significant weaknesses as measured in their ability to detect threat 
objects located on passengers or contained in their carry-on luggage. 
In 1987, screeners missed 20 percent of the potentially dangerous 
objects used by FAA in its tests. At that time, FAA characterized this 
level of performance as unsatisfactory. More recent results have shown 
that as testing gets more realistic--that is, as tests more closely 
approximate how a terrorist might attempt to penetrate a checkpoint--
screeners' performance declines significantly. A principal cause of 
screeners' performance problems is the rapid turnover among screeners. 
Turnover exceeded over 100 percent a year at most large airports, 
leaving few skilled and experienced screeners, primarily because of the 
low wages, limited benefits, and repetitive, monotonous nature of their 
work. Additionally, too little attention has been given to factors such 
as the sufficiency of the training given to screeners. FAA's efforts to 
address these problems have been slow. We recommended that FAA develop 
an integrated plan to focus its efforts, set priorities, and measure 
progress in improving screening. FAA is addressing these 
recommendations, but progress on one key effort--the certification of 
screening companies--is still not complete because the implementing 
regulation has not been issued. It is now nearly 2\1/2\ years since FAA 
originally planned to implement the regulation.
    Screening operations in Belgium, Canada, France, the Netherlands, 
and the United Kingdom--countries whose systems we have examined--
differ from this country's in some significant ways. Their screening 
operations require more extensive qualifications and training for 
screeners, include higher pay and better benefits, and often include 
different screening techniques, such as ``pat-downs'' of some 
passengers. Another significant difference is that most of these 
countries place responsibility for screening with airport authorities 
or the government instead of air carriers. The countries we visited had 
significantly lower screener turnover, and there is some evidence they 
may have better screener performance; for example, one country's 
screeners detected over twice as many test objects as did U.S. 
screeners in a 1998 joint screener testing program conducted with FAA.
    The events of September 11, 2001, have changed the way this country 
looks at aviation security. Last week, FAA and the air carriers 
implemented new controls that promise a greater sense of security. We 
support these actions. Yet, to further minimize the vulnerabilities in 
our aviation security system, more needs to be done. Additional 
considerations for the immediate future could include prioritizing 
outstanding recommendations that address security, developing a 
strategic plan to address the recommendations, assigning specific 
executive responsibility for carrying out this plan, and identifying 
the sources and amounts of funding needed. In establishing priorities, 
a key action needed is to complete the promulgation of the screening 
company certification regulation, which also implements the 
requirements of the Airport Security Improvement Act of 2000, enacted 
by the Congress last November. The Congress also needs to reconsider 
whether airlines should continue to bear primary responsibility for 
screening operations at the nation's airports. Aviation security has 
truly become a national security issue, and responsibility for 
screening may no longer appropriately rest with air carriers. 
Consideration of the role of air carriers in conducting passenger 
screening could be examined as part of the ongoing effort to identify 
and structure mechanisms to provide financial and other assistance to 
help the aviation industry emerge from the current crisis.
    It has been observed that previous tragedies have resulted in 
congressional hearings, studies, recommendations, and debates, but 
little long-term resolve to correct flaws in the system as the memory 
of the crisis recedes. The future of aviation security hinges in large 
part on overcoming this cycle of limited action that has too often 
characterized the response to aviation security concerns.
                               background
    Some context for my remarks is appropriate. The threat of terrorism 
was significant throughout the 1990s; a plot to destroy 12 U.S. 
airliners was discovered and thwarted in 1995, for instance. Yet the 
task of providing security to the nation's aviation system is 
unquestionably daunting, and we must reluctantly acknowledge that any 
form of travel can never be made totally secure. The enormous size of 
U.S. airspace alone defies easy protection. Furthermore, given this 
country's hundreds of airports, thousands of planes, tens of thousands 
of daily flights, and the seemingly limitless ways terrorists or 
criminals can devise to attack the system, aviation security must be 
enforced on several fronts. Safeguarding airplanes and passengers 
requires, at the least, ensuring that perpetrators are kept from 
breaching security checkpoints and gaining access to secure airport 
areas or to aircraft. Additionally, vigilance is required to prevent 
attacks against the extensive computer networks that FAA uses to guide 
thousands of flights safely through U.S. airspace. FAA has developed 
several mechanisms to prevent criminal acts against aircraft, such as 
adopting technology to detect explosives and establishing procedures to 
ensure that passengers are positively identified before boarding a 
flight. Still, in recent years, we and others have often demonstrated 
that significant weaknesses continue to plague the nation's aviation 
security.
     potential for unauthorized access to aviation computer systems
    Our work has identified numerous problems with aspects of aviation 
security in recent years. One such problems is FAA's computer-based air 
traffic control system. The ATC system is an enormous, complex 
collection of interrelated systems, including navigation, surveillance, 
weather, and automated information processing and display systems that 
link hundreds of ATC facilities and provide information to air traffic 
controllers and pilots. Failure to adequately protect these systems 
could increase the risk of regional or nationwide disruption of air 
traffic--or even collisions.
    In five reports issued from 1998 through 2000, we pointed out 
numerous weaknesses in FAA's computer security.\1\ FAA had not (1) 
completed background checks on thousands of contractor employees, (2) 
assessed and accredited as secure many of its ATC facilities, (3) 
performed appropriate risk assessments to determine the vulnerability 
of the majority of its ATC systems, (4) established a comprehensive 
security program, (5) developed service continuity controls to ensure 
that critical operations continue without undue interruption when 
unexpected events occur, and (6) fully implemented an intrusion 
detection capability to detect and respond to malicious intrusions. 
Some of these weaknesses could have led to serious problems. For 
example, as part of its Year 2000 readiness efforts, FAA allowed 36 
mainland Chinese nationals who had not undergone required background 
checks to review the computer source code for eight mission-critical 
systems.
---------------------------------------------------------------------------
    \1\ Aviation Security: Weak Computer Security Practices Jeopardize 
Flight Safety (GAO/AIMD-98-155, May 18, 1998), Computer Security: FAA 
Needs to Improve Controls Over Use of Foreign Nationals to Remediate 
and Review Software (GAO/AIMD-00-55, Dec. 23, 1999), Computer Security: 
FAA is Addressing Personnel Weaknesses, But Further Action Is Required 
(GAO/AIMD-00-169, May 31, 2000), FAA Computer Security: Concerns Remain 
Due to Personnel and Other Continuing Weaknesses (GAO/AIMD-00-252, Aug. 
16, 2000), and FAA Computer Security: Recommendations to Address 
Continuing Weaknesses (GAO-01-171, Dec. 6, 2000).
---------------------------------------------------------------------------
    To date, we have made nearly 22 recommendations to improve FAA's 
computer security. FAA has worked to address these recommendations, but 
most of them have yet to be completed. For example, it is making 
progress in obtaining background checks on contractors and accrediting 
facilities and systems as secure. However, it will take time to 
complete these efforts.
                 weaknesses in airport access controls
    Control of access to aircraft, airfields, and certain airport 
facilities is another component of aviation security. Among the access 
controls in place are requirements intended to prevent unauthorized 
individuals from using forged, stolen, or outdated identification or 
their familiarity with airport procedures to gain access to secured 
areas. In May 2000, we reported that our special agents, in an 
undercover capacity, obtained access to secure areas of two airports by 
using counterfeit law enforcement credentials and badges.\2\ At these 
airports, our agents declared themselves as armed law enforcement 
officers, displayed simulated badges and credentials created from 
commercially available software packages or downloaded from the 
Internet, and were issued ``law enforcement'' boarding passes. They 
were then waved around the screening checkpoints without being 
screened. Our agents could thus have carried weapons, explosives, 
chemical/biological agents, or other dangerous objects onto aircraft. 
In response to our findings, FAA now requires that each airport's law 
enforcement officers examine the badges and credentials of any 
individual seeking to bypass passenger screening. FAA is also working 
on a ``smart card'' computer system that would verify law enforcement 
officers' identity and authorization for bypassing passenger screening.
---------------------------------------------------------------------------
    \2\ Security: Breaches at Federal Agencies and Airports (GAO/T-OSI-
00-10, May 25, 2000).
---------------------------------------------------------------------------
    The Department of Transportation's Inspector General has also 
uncovered problems with access controls at airports. The Inspector 
General's staff conducted testing in 1998 and 1999 of the access 
controls at eight major airports and succeeded in gaining access to 
secure areas in 68 percent of the tests; they were able to board 
aircraft 117 times. After the release of its report describing its 
successes in breaching security,\3\ the Inspector General conducted 
additional testing between December 1999 and March 2000 and found that, 
although improvements had been made, access to secure areas was still 
gained more than 30 percent of the time.
---------------------------------------------------------------------------
    \3\ Airport Access Control (AV-2000-017, Nov. 18, 1999).
---------------------------------------------------------------------------
         inadequate detection of dangerous objects by screeners
    Screening checkpoints and the screeners who operate them are a key 
line of defense against the introduction of dangerous objects into the 
aviation system. Over 2 million passengers and their baggage must be 
checked each day for articles that could pose threats to the safety of 
an aircraft and those aboard it. The air carriers are responsible for 
screening passengers and their baggage before they are permitted into 
the secure areas of an airport or onto an aircraft. Air carriers can 
use their own employees to conduct screening activities, but mostly air 
carriers hire security companies to do the screening. Currently, 
multiple carriers and screening companies are responsible for screening 
at some of the nation's larger airports.
    Concerns have long existed over screeners' ability to detect and 
prevent dangerous objects from entering secure areas. Each year, 
weapons were discovered to have passed through one checkpoint and have 
later been found during screening for a subsequent flight. FAA monitors 
the performance of screeners by periodically testing their ability to 
detect potentially dangerous objects carried by FAA special agents 
posing as passengers. In 1978, screeners failed to detect 13 percent of 
the objects during FAA tests. In 1987, screeners missed 20 percent of 
the objects during the same type of test. Test data for the 1991 to 
1999 period show that the declining trend in detection rates 
continues.\4\ Furthermore, the recent tests show that as tests become 
more realistic and more closely approximate how a terrorist might 
attempt to penetrate a checkpoint, screeners' ability to detect 
dangerous objects declines even further.
---------------------------------------------------------------------------
    \4\ Information on FAA tests results is now designated as sensitive 
security information and cannot be publicly released. Consequently, we 
cannot discuss the actual detection rates for the 1991-99 period.
---------------------------------------------------------------------------
    As we reported last year, there is no single reason why screeners 
fail to identify dangerous objects.\5\ Two conditions--rapid screener 
turnover and inadequate attention to human factors--are believed to be 
important causes. Rapid turnover among screeners has been a long-
standing problem, having been identified as a concern by FAA and by us 
in reports dating back to at least 1979. We reported in 1987 that 
turnover among screeners was about 100 percent a year at some airports, 
and according to our more recent work, the turnover is considerably 
higher.\6\ From May 1998 through April 1999, screener turnover averaged 
126 percent at the nation's 19 largest airports; 5 of these airports 
reported turnover of 200 percent or more, and one reported turnover of 
416 percent. At one airport we visited, of the 993 screeners trained at 
that airport over about a 1-year period, only 142, or 14 percent, were 
still employed at the end of that year. Such rapid turnover can 
seriously limit the level of experience among screeners operating a 
checkpoint.
---------------------------------------------------------------------------
    \5\ Aviation Security: Long-Standing Problems Impair Airport 
Screeners' Performance (GAO/RCED-00-75, June 28, 2000).
    \6\ Aviation Security: FAA Needs Preboard Passenger Screening 
Performance Standards (GAO-RCED-87-182, July 24, 1987).
---------------------------------------------------------------------------
    Both FAA and the aviation industry attribute the rapid turnover to 
the low wages and minimal benefits screeners receive, along with the 
daily stress of the job. Generally, screeners are paid at or near the 
minimum wage. We reported last year that some of the screening 
companies at 14 of the nation's 19 largest airports paid screeners a 
starting salary of $6.00 an hour or less and, at 5 of these airports, 
the starting salary was the then--minimum wage--$5.15 an hour. It is 
common for the starting wages at airport fast-food restaurants to be 
higher than the wages screeners receive. For instance, at one airport 
we visited, screeners' wages started as low as $6.25 an hour, whereas 
the starting wage at one of the airport's fast-food restaurants was $7 
an hour.
    The demands of the job also affect performance. Screening duties 
require repetitive tasks as well as intense monitoring for the very 
rare event when a dangerous object might be observed. Too little 
attention has been given to factors such as (1) improving individuals' 
aptitudes for effectively performing screener duties, (2) the 
sufficiency of the training provided to screeners and how well they 
comprehend it, and (3) the monotony of the job and the distractions 
that reduce screeners' vigilance. As a result, screeners are being 
placed on the job who do not have the necessary aptitudes, nor the 
adequate knowledge to effectively perform the work, and who then find 
the duties tedious and dull.
    We reported in June 2000 that FAA was implementing a number of 
actions to improve screeners' performance. However, FAA did not have an 
integrated management plan for these efforts that would identify and 
prioritize checkpoint and human factors problems that needed to be 
resolved, and identify measures--and related milestone and funding 
information--for addressing the performance problems. Additionally, FAA 
did not have adequate goals by which to measure and report its progress 
in improving screeners' performance.
    FAA is implementing our recommendations. However, two key actions 
to improving screeners' performance are still not complete. These 
actions are the deployment of threat image projection systems--which 
place images of dangerous objects on the monitors of X-ray machines to 
keep screeners alert and monitor their performance--and a certification 
program to make screening companies accountable for the training and 
performance of the screeners they employ. Threat image projection 
systems are expected to keep screeners alert by periodically imposing 
the image of a dangerous object on the X-ray screen. They also are used 
to measure how well screeners perform in detecting these objects. 
Additionally, the systems serve as a device to train screeners to 
become more adept at identifying harder-to-spot objects. FAA is 
currently deploying the threat image projections systems and expects to 
have them deployed at all airports by 2003.
    The screening company certification program, required by the 
Federal Aviation Reauthorization Act of 1996, will establish 
performance, training, and equipment standards that screening companies 
will have to meet to earn and retain certification. However, FAA has 
still not issued its final regulation establishing the certification 
program. This regulation is particularly significant because it is to 
include requirements mandated by the Airport Security Improvement Act 
of 2000 to increase screener training--from 12 hours to 40 hours--as 
well as expand background check requirements. FAA had been expecting to 
issue the final regulation this month, 2\1/2\ years later than it 
originally planned.
differences in the screening practices of five other countries and the 
                             united states
    We visited five countries--Belgium, Canada, France, the 
Netherlands, and the United Kingdom--viewed by FAA and the civil 
aviation industry as having effective screening operations to identify 
screening practices that differ from those in the United States. We 
found that some significant differences exist in four areas: screening 
operations, screener qualifications, screener pay and benefits, and 
institutional responsibility for screening.
    First, screening operations in some of the countries we visited are 
more stringent. For example, Belgium, the Netherlands, and the United 
Kingdom routinely touch or ``pat down'' passengers in response to metal 
detector alarms. Additionally, all five countries allow only ticketed 
passengers through the screening checkpoints, thereby allowing the 
screeners to more thoroughly check fewer people. Some countries also 
have a greater police or military presence near checkpoints. In the 
United Kingdom, for example, security forces--often armed with 
automatic weapons--patrol at or near checkpoints. At Belgium's main 
airport in Brussels, a constant police presence is maintained at one of 
two glass-enclosed rooms directly behind the checkpoints.
    Second, screeners' qualifications are usually more extensive. In 
contrast to the United States, Belgium requires screeners to be 
citizens; France requires screeners to be citizens of a European Union 
country. In the Netherlands, screeners do not have to be citizens, but 
they must have been residents of the country for 5 years. Training 
requirements for screeners were also greater in four of the countries 
we visited than in the United States. While FAA requires that screeners 
in this country have 12 hours of classroom training before they can 
begin work, Belgium, Canada, France, and the Netherlands require more. 
For example, France requires 60 hours of training and Belgium requires 
at least 40 hours of training with an additional 16 to 24 hours for 
each activity, such as X-ray machine operations, that the screener will 
conduct.
    Third, screeners receive relatively better pay and benefits in most 
of these countries. Whereas screeners in the United States receive 
wages that are at or slightly above minimum wage, screeners in some 
countries receive wages that are viewed as being at the ``middle 
income'' level in those countries. In the Netherlands, for example, 
screeners received at least the equivalent of about $7.50 per hour. 
This wage was about 30 percent higher than the wages at fast-food 
restaurants in that country. In Belgium, screeners received the 
equivalent of about $14 per hour. Not only is pay higher, but the 
screeners in some countries receive benefits, such as health care or 
vacations--in large part because these benefits are required under the 
laws of these countries. These countries also have significantly lower 
screener turnover than the United States: turnover rates were about 50 
percent or lower in these countries.
    Finally, the responsibility for screening in most of these 
countries is placed with the airport authority or with the government, 
not with the air carriers as it is in the United States. In Belgium, 
France, and the United Kingdom, the responsibility for screening has 
been placed with the airports, which either hire screening companies to 
conduct the screening operations or, as at some airports in the United 
Kingdom, hire screeners and manage the checkpoints themselves. In the 
Netherlands, the government is responsible for passenger screening and 
hires a screening company to conduct checkpoint operations, which are 
overseen by a Dutch police force. We note that, worldwide, of 102 other 
countries with international airports, 100 have placed screening 
responsibility with the airports or the government; only 2 other 
countries--Canada and Bermuda--place screening responsibility with air 
carriers.
    Because each country follows its own unique set of screening 
practices, and because data on screeners' performance in each country 
were not available to us, it is difficult to measure the impact of 
these different practices on improving screeners' performance. 
Nevertheless, there are indications that for least one country, 
practices may help to improve screeners' performance. This country 
conducted a screener testing program jointly with FAA that showed that 
its screeners detected over twice as many test objects as did screeners 
in the United States.
    This concludes my prepared statement. I will be pleased to answer 
any questions that you or Members of the Committee may have.

    Senator Murray. Thank you, Dr. Dillingham.
    I especially want to welcome Mr. Queen for being here 
today. He is Vice President of Engineering and Product 
Integrity for the Boeing Company. They have spent a great deal 
of time, I know, in assisting the Secretary of Transportation. 
I spent a great of time with him earlier this week out in 
Seattle and he flew out here with me yesterday from Seattle. So 
we appreciate your coming all the way across the country and 
the Boeing Company for working with all of us as we try to make 
sure we have done the right thing for the safety of our 
airlines.
    Mr. Queen.
STATEMENT OF HANK QUEEN, VICE PRESIDENT FOR ENGINEERING 
            AND PRODUCT INTEGRITY, THE BOEING COMPANY
    Mr. Queen. Thank you, Chairman Murray and Chairman Rogers. 
As you say, I am Hank Queen. I am Vice President of Engineering 
and Product Integrity for Boeing Commercial Airplanes. I am 
responsible for the design, certification, product development, 
and continued operational safety of all Boeing commercial 
airplanes.
    I would like to start by offering, on behalf of the entire 
Boeing Company, our condolences to the friends and families of 
the victims of the terrible events of September 11. We build a 
little bit of ourselves into every one of those airplanes.
    Senator Murray. Do you want to pull the mike closer?
    Mr. Queen. And it was truly horrifying to us to see our 
airplanes used as weapons of destruction.
    The Boeing Company supports the measures already taken to 
strengthen security of the aviation system and we agree that 
the aviation system security is paramount and must be taken to 
a higher level. Boeing is pledging total cooperation and 
support to this effort. On September 12 Boeing began working 
with the airlines, the government, airline associations, pilot 
associations, and flight attendant associations on immediate 
and longer-term actions to address this new threat.
    We must take a systematic approach to aviation security. 
The first line of defense is airport security. The crew in the 
airplane should not be the last line of defense.
    I am here today specifically to address improved aircraft 
security. As we consider our options for achieving that goal, 
we must ensure that we do not jeopardize safety in other 
unintended ways. As you know, every part of the airplane is 
subject to Federal aviation regulations established to ensure 
safety. These regulations require a delicate balance of 
multiple safety objectives. For example, cockpit doors must be 
lockable, but not inhibit emergency evacuations. Also, the 
structure of the flight deck must be able to withstand pressure 
differences in the event of a rapid decompression. That is why 
cockpit doors are designed with vents that open or the entire 
door opens whenever there is a significant pressure difference 
between the cockpit and the cabin.
    There have been over 600 decompressions in commercial jet 
transportation history. Half of these were severe enough to 
cause the oxygen masks to deploy. Approximately 50 of these 
rapid decompressions could have stressed the structure, and in 
fact 2 of these led to accidents that resulted in new 
requirements and changes in the commercial airplane fleet. So 
solutions to enhance the integrity of the flight deck door must 
allow for rapid decompression.
    There is another important consideration as we look at 
changes. There are more than 7,000 commercial jet airplanes 
registered in the United States, with over 40 different flight 
deck door designs. We need to keep these numbers in mind as we 
consider any design changes to improve aircraft security. 
Finding solutions that can be implemented quickly with a large 
number of airplanes is essential. We face many challenges. 
However, we have a dedicated team working to meet these 
challenges. They are coordinated with the government and 
airline manufacturing efforts since September 11 and we have 
included in this effort examining such possible changes as crew 
procedural changes to restrict access to flight decks, using 
all the resources in the cabin to overpower hijackers, and 
potential maneuvering of the aircraft; also, there have been 
near-term design and hardware changes to further inhibit entry 
to the flight deck; longer term solutions, such as securing the 
flight deck to deny access to hijackers and technology to 
prevent the use of airplanes as a weapon. We are also working 
with NASA and the FAA on other technologies, such as bomb 
protection and advanced ballistic materials.
    So in summary, we do recognize the need for immediate 
improvements in aviation security. We are actively working with 
the airlines, the FAA, pilot associations, flight attendant 
associations, and others to rapidly develop solutions in 
response to the actions of September 11.
    Thank you.
    Senator Murray. Thank you, Mr. Queen.
    [The statement follows:]

                    Prepared Statement of Hank Queen

                           airplane security
    Thank you Madam Chairman Murray and Chairman Rogers. I am Hank 
Queen, Vice President of Engineering and Product Integrity for Boeing 
Commercial Airplanes. In that position, I am responsible for design, 
certification, product development and continued operational safety of 
all Boeing commercial aircraft.
    Let me open my remarks by offering, on behalf of the entire Boeing 
Company, our condolences to the friends and families of the victims of 
the terrible events of September 11. We at Boeing have spent our 
working lives dedicated to a safe and efficient global air 
transportation system, a system that enhances peace and prosperity 
through the flow of people, goods and ideas around the world. We build 
a little bit of ourselves into every one of our magnificent airplanes. 
To see those airplanes used as weapons of destruction horrified us 
beyond words. Our hearts go out to all those touched by these vicious 
acts.
    The Boeing Company supports the measures already taken to 
strengthen the security of the aviation system. We applaud the recent 
action taken by Transportation Secretary Norm Mineta in naming two high 
level rapid response teams to address airport and aircraft security 
issues. Boeing is pledging total cooperation and support to this 
effort. In fact, on September 12, government, Boeing, airlines, airline 
associations, pilot associations and cabin attendant associations began 
working together on immediate and longer term actions to address the 
new threat. The team's activity and progress to date will become a part 
of the support to the rapid response team.
    Enhancements to commercial aviation security must be approached by 
looking at the entire system, as the airlines, manufacturers and 
government work together to provide a layered defense against many 
threats. The aviation security environment is very complex. (Figure 1). 
The first layer is to prevent unauthorized access to the airport and 
the airplane. The crew and the airplane should be the last lines of 
defense. Boeing has been increasingly involved with aviation security 
as the threat has grown. However, on September 11, 2001, we were all 
shocked with a new threat, that of using the aircraft as a weapon.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                history
    In the 1960's, skyjacking incidents led to the need to screen 
carry-on baggage and incorporate both noticeable and behind the scenes 
security changes to airports, airline operations and airplane designs.
    After the Lockerbie bombing, the International Civil Aviation 
Organization (ICAO) began to address aircraft design standards that 
could enhance security. In 1997, they called upon their member nations 
to adopt new design requirements to address the threat of bombs, fire, 
smoke, bullets, and grenades.
    In October 27, 1999, the FAA directed its Aviation Rulemaking 
Advisory Committee to study implementation of the ICAO requirements. On 
June 11, 2001, to counter the increased threat of passenger air rage, 
the FAA added strengthening flight deck doors to the committee's work 
agenda.
    This history is shown on Figure 2.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    The fundamental approach to airplane security has been to keep 
dangerous objects and individuals off airplanes. Current Federal 
Aviation Regulations governing airplane design and operation have 
addressed the many hazards facing a modern commercial transport.
               flight deck doors and federal regulations
    As you know, every part of the airplane is subject to Federal 
Aviation Regulations. The regulations affecting flight deck door design 
require a delicate balance of multiple safety objectives. (Figure 3) 
The design balances the needs for providing a sterile environment for 
the flight crew; the ability for rescue crew to reach the pilots; the 
need to withstand rapid depressurization in the flight deck or 
passenger compartments; and, the need for the pilots to command 
emergency situations in the cabin.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We are making assessments about what could be done to better ensure 
aviation security through potential changes to aircraft. Some of these 
enhancements may require FAA rule changes.
    The FAA regulations drive the design of the flight deck and door 
installation. Summaries of the major rules that the design must satisfy 
are:
  --The flight deck must be secure from passengers. This is why cockpit 
        doors have locks and why pilots are required to keep the doors 
        shut and locked during flight.
  --The lockable door cannot inhibit emergency evacuations. This is why 
        cockpit windows or emergency escape hatches are designed to 
        open and why cockpit doors are designed to open under force 
        from rescuers.
  --The flight deck must be able to withstand pressure differences 
        between the cabin and the flight deck in the event of a rapid 
        decompression. This is why cockpit doors are designed with 
        vents that open, or the entire door opens, whenever there is a 
        significant pressure differential between the cockpit and the 
        cabin. There have been over 600 decompressions in commercial 
        jet transportation history. Half of these were severe enough to 
        cause the oxygen masks to deploy. Approximately 50 were rapid 
        decompressions that could stress the structure. Only two of 
        those led to accidents.
  --The flight crew must have overall command of evacuations. This is 
        why cockpit doors are designed to be forced open in the event 
        the door gets jammed.
  --The door must prevent light, noise or odor from entering the flight 
        deck and fatiguing the crew.
    Solutions to enhance the integrity of the flight deck door must 
allow for rapid decompression and address both the door itself and the 
door's installation. The door hinge, door lock, door frame and the 
bulkhead on which the door is mounted must be all considered. (Figure 
4)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    There are more than 7,000 commercial jet airplanes registered in 
the United States, with over 40 different flight deck door systems. 
(Figure 5) The balance needed to meet competing door design 
requirements will lead to different solutions for most of the doors in 
service. (Figure 6) There may not be a simple design solution that can 
be quickly implemented. Enhancements may take from several months to 
years to install in the fleet and must be integrated with existing 
safety requirements.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                             hardened doors
    Boeing has provided a bullet resistant, reinforced flight deck door 
with Kevlar material to one customer on two models of aircraft. As 
requested by the customer, we also:
  --Installed a steel plate over the door lock mechanism
  --Strengthened flight deck door jams, headers, hinge pins and latch 
        mechanism
  --Lined the forward walls of the lavatories immediately aft of the 
        flight deck
  --Lined the rest of the bulkhead near the lavatories.
    Even with these changes, this does not prevent access by a 
determined intruder. This installation does not meet current FAA 
regulations.
                              transponders
    We know there are many questions about transponder systems and the 
ability to turn them off in flight. Transponders continuously transmit 
aircraft identification, altitude and air speed data to ground radar. 
The flight crew can turn off the transponder when requested to do so by 
Air Traffic Control because of clutter on the ATC radar screen or when 
there are faults in the transponder. Flight crews are trained to use 
the transponder to notify ATC when the aircraft is in distress and/or 
being hijacked. The crew can also use special radio terminology to 
alert ATC of a hijacking. There are also special codes between the 
flight deck and cabin crews to indicate a hijack situation. Even with 
the transponder turned off, the flight path of the airplane is still 
visible on radar.
    If it is deemed necessary to change the existing transponder design 
requirements, the designs can be changed. However, once again, there 
are more than 7,000 airplanes in the U.S. fleet, so it would take time 
to incorporate changes.
          industry and government activity since september 11
    The coordinated government, airline and manufacturer efforts since 
September 11, 2001 have focused on possible changes in the following 
areas:
  --Immediate flight and cabin crew responses such as procedural 
        changes to restrict access to flight decks, using all the 
        resources in the cabin to overpower hijackers, and potential 
        maneuvering of the aircraft.
  --Examining near-term design and hardware changes to prevent entry 
        into the flight deck.
  --And identifying longer-term solutions to study such as secure and 
        hardened flight decks to deny access to hijackers, and 
        technology to prevent the use of the airplane as a weapon.
    Boeing is beginning to look at what would be required to deny 
unwanted access to the flight deck if that is where the government and 
industry decide to go. A truly impenetrable door design would have to 
go beyond a simple dead bolt or add-on door brace. The door may have to 
prevent access by people, fire, smoke, toxic gases, bullets, and 
grenades. It would also have to meet multiple other safety objectives.
    Boeing is also working on other technologies with NASA and the FAA 
such as bomb protection and advanced ballistic materials.
                                summary
    Boeing is actively working with the airlines, the FAA, pilot 
associations, flight attendant associations and others to develop 
practical measures in response to the acts of September 11. We will 
focus on airplane-related issues, including flight deck security and 
modifications to operating procedures, in the context of broader system 
solutions to enhance safe, efficient global air transportation. (Figure 
7)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            Security badges

    Senator Murray. We will now move to the question portion of 
this hearing. There are a number of colleagues here who have 
questions to ask, so we are going to keep strict adherence to 
the 5-minute time. We will do this. I will open with questions, 
turn to Mr. Rogers, and then go back and forth from side to 
side as we move through all our committee members.
    I would like to remind all of our colleagues that at 4:30 
we will go into a closed hearing session. So we have a lot of 
people to get to in a short amount of time and I would ask our 
witnesses to keep their answers short, giving us the 
information we need as quickly as possible.

            Bogus credentials of airport and airline workers

    Mr. Mead, let me begin with you. You stated in your remarks 
that we have arrested 12 non-U.S. citizens since last Friday 
who had illegally obtained security badges that allowed them 
access to the secured section of the airport. Can you tell us 
if all airport personnel have been revalidated and granted new 
badges since September 11?
    Mr. Mead. No, I do not believe so.
    Senator Murray. So is it likely that we still have some 
individuals with bogus credentials?
    Mr. Mead. Yes.
    Senator Murray. Ms. Garvey, can you respond and tell us 
what we are doing about that?
    Ms. Garvey. Madam Chair, actually we have directed all the 
airlines and the airports to revalidate the badges. There is 
more perhaps we could add in the closed session. They were 
directed to do that, I believe yesterday or the day before 
yesterday, and that is both for airports and airlines.
    Senator Murray. So that process is in place and moving 
forward?
    Ms. Garvey. It is under way.

                   PROPOSED SECURITY RECOMMENDATIONS

    Senator Murray. Mr. Secretary, the Department of 
Transportation has received numerous recommendations to close 
the loopholes in our security systems. The Inspector General, 
the GAO, NTSB, Pan Am 103, many, many commissions. The FAA's 
record for moving out on these recommendations has been 
painfully slow. Can you tell us what some of the principal 
causes for these delays are and what measures you have put in 
place to make sure that these specific delays do not repeat 
themselves now at this critical juncture?
    Secretary Mineta. Madam Chairman, let me speak to the time 
since I have been Secretary of Transportation, since January 
25. One of the problems that I have found when I got to the 
Department was the prolonged time it does take to get rules and 
regulations out. That now has changed and we are getting the 
rules and regulations out on a timely basis.
    Last year Senator Hutchison had a bill on airport 
improvements in security. We got those rules out this year and 
those were pending at OMB. This is the one that gave the FAA 
more authority to increase the level of training requirements, 
the kinds of standards, as related to the screeners. That was 
at OMB when September 11 occurred. So OMB is holding it up 
right now, pending any improvements we may want to add to that 
rule.
    But in terms of my stewardship, I am going to make sure, as 
I have since the 25 of January, that rules and regulations are 
promulgated on a timely basis.

                   EMERGENCY SECURITY RECOMMENDATIONS

    Senator Murray. Ms. Garvey, you have put out a number of 
emergency procedures since September 11 regarding the security 
of the system. Should we expect further system directives in 
the very near term?
    Ms. Garvey. Madam Chair, you will be seeing more. Every day 
we are in constant communication with both the airports and the 
airlines. Some have asked for further clarification on some of 
the emergency rules, so we are doing that. As the Secretary 
mentioned, we are also, as a result of the rapid response 
teams, expecting some additional recommendations. So there will 
be more to come. I think we will in some cases be seeing a very 
fundamental change.
    Senator Murray. In the next several days, what are you 
looking for?
    Ms. Garvey. Well, actually in the next several days there 
may be additional rules or amendments based upon what we are 
hearing from the airlines, although I talked with some of the 
airline officials today and they were focusing more on 
clarification in a couple of areas. So almost on a daily basis 
we are putting out some clarification where need be.
    If I could also make just one very quick mention, you are 
right, we take too long in government to get rules out. The 
public process sometimes in responding to some of the 
comments--I think of the certification rule as one of them--is 
sometimes overwhelming. We should make no excuses there. We 
should simply do better.
    I will say that with the Gore Commission there were 31 
recommendations and 28 have actually been implemented. There 
are seven, including the two rules that both you and the 
Secretary spoke about, rather, that are pending and ready to 
go, and one thorny negotiation with the post office that I see 
coming to a rapid conclusion, in part as a result of this 
terrible tragedy.
    Senator Murray. So I can assume that your agency is moving 
forward quickly to enact as many of these as possible?
    Ms. Garvey. Yes, you can, Madam Chair.

                   SCREENING AT SECURITY CHECKPOINTS

    Senator Murray. Mr. Mead, Dr. Dillingham, let me ask you 
this question. As you know, there have been many reports that 
have criticized the airlines for failing to do adequate 
screening at security checkpoints. Your investigators, you 
testified, have brought weapons and bomb-like devices onto 
aircraft with relative ease, and unauthorized personnel got in 
secure spaces around the aircraft just as easily. To your 
knowledge, has the FAA ever used its authority to shut down a 
concourse temporarily when screeners are not doing a good job?
    Mr. Mead. I can't speak to that in open session.

                         FINES AND ENFORCEMENT

    Senator Murray. Dr. Dillingham, I assume the same. Well, 
let me ask you if you think the fines that the FAA has imposed 
on airlines in the past are adequate?
    Mr. Mead. In some cases yes, in some cases no. I see from 
where we sit a lot of variance among FAA regions. It is not 
consistent across the board. I think they can do a lot more in 
the enforcement end of things in assessing fines.
    Senator Murray. Do you think increasing fines will mean 
increasing responsibility on the airlines to do the right 
thing?
    Mr. Mead. In my opinion, Senator Murray, it would help. But 
I think the issue needs to be addressed through the front door, 
and I think the front door is making sure that we have 
screeners of higher caliber, that are better motivated and have 
some type of career path.
    Senator Murray. Dr. Dillingham.
    Dr. Dillingham. If fines are increased, the agency will 
have to stick with the fine. You cannot have a fine where you 
pay 50 cents on the dollar or 25 cents on the dollar if you 
hold out long enough.

                    Screening and access violations

    Senator Murray. Mr. Secretary, let me just end with you. 
Can you share with us how the FAA's enforcement posture has 
changed regarding screening and access violations since 
September 11?
    Secretary Mineta. Since the 11th? Well, it has increased 
appreciably. After we increased the requirements being placed 
on airports and airlines, each of the airports--not each of the 
airports, but there are FSM's, Federal security managers, and 
those FSM's are responsible for making sure that the airports 
that are under their jurisdiction were adhering to the new 
increased stringent requirements.
    So before any of the airports could be cleared to be added 
back onto the list to be able to have planes going in and out, 
the FSM had to sign off that the airport was now meeting those 
stringent requirements. A lot of those are visible stringent 
requirements; some of them are not.
    Senator Murray. I assume your agency has authorized the FAA 
to take enforcement activity on these?
    Secretary Mineta. Take enforcement action?
    Senator Murray. Take enforcement action, since the 11th on 
violations, fines, shutting down an air carrier?
    Secretary Mineta. I will have to ask Administrator Garvey 
if there have been any airports since Tuesday the 11th that 
have been fined or whatever.
    Ms. Garvey. We have asked our security managers and, by the 
way, also the airport directors. I spoke with 31 of the top 
airport directors on Monday and asked them to pull together 
technology security companies and the airport station managers, 
the airline station managers, to talk directly with them, 
making sure everybody understands what the regulations are, 
what the changes are, what needs to be done, and report back to 
security managers if they were having any difficulty. We have 
asked our security managers to redouble their efforts in those 
areas. So we have got a lot to keep up with. But they are 
circling back and getting to us.
    Whether or not there has been any specific or additional 
fines since the 11th, I would have to get back to you on that. 
I do not know of any now. I know they have been given strong 
direction to be as aggressive as they need to be.
    Senator Murray. And they understand what will be enforced?
    Ms. Garvey. Yes. Yes, they do.
    [The information follows:]

                   Compliance With Security Measures

    Since September 11, FAA Security Special Agents have 
documented 1,487 findings on airports, air carriers, and 
screening checkpoints for compliance issues with the new 
security measures. Of these, 1,462 have been resolved through 
immediate corrective action and for the other 25, Enforcement 
Investigative Reports (EIR) have been initiated. The 25 cases 
that could result in enforcement action are still under 
investigation by the respective civil aviation security field 
offices.

                           Security contracts

    Secretary Mineta. If I might, one of the questions I asked 
Administrator Garvey last week, since these are contracts 
between the security company and the airlines at any given 
airport, I asked can we as the DOT/FAA go in and abrogate those 
contracts and throw them off the property?
    Senator Murray. Can we?
    Secretary Mineta. We are in the middle of still looking at 
that. It is very difficult for us to be able to go in and do 
that since it is an airline-security company contract. But if 
they are not meeting standards----
    Senator Murray. But it is my understanding that you can 
shut an airport or an airline down if they do not meet the 
enforcement standards that you have put out, correct?
    Ms. Garvey. That is correct, yes.
    Senator Murray. Thank you. I will yield to Mr. Rogers.

                       AIRPORT SECURITY COMPANIES

    Mr. Rogers. Following up on the same point, and that is 
security of the personnel, the passengers and the baggage that 
is allowed on an airplane, that is the airlines have the 
obligation, do they not, to check passengers and baggage that 
come on their planes; is that not correct?
    Secretary Mineta. That is correct.
    Mr. Rogers. So they have contracted at various airports, 
the airlines have, with security companies to perform that 
chore for them, correct? Is that not a low bid contract?
    Secretary Mineta. Generally they are.
    Mr. Rogers. So the security company is interested, and the 
airlines presumably, in getting the job done as cheaply as they 
can, correct?
    Secretary Mineta. There are certain standards that are 
required, even if it is low bid.

                           BAGGAGE SCREENERS

    Mr. Rogers. But those standards have not been enforced, 
have they? In fact, we have been waiting now for 3 years or 
more in the Congress for the FAA to issue a final rule on the 
performance of screeners; is that not correct, Madam Garvey?
    Ms. Garvey. Mr. Chairman, that is the rule that the 
Secretary was referring to, that is ready to go, that we are 
looking at again to determine whether, in light of what we 
experienced last Tuesday, we want to make any additional 
changes. But it is ready to go, and you are right that that is 
something that has been required.

                         Airport Security, Inc.

    Mr. Rogers. Let me ask Mr. Mead: Have you checked out 
Dulles Airport, for example, on the qualifications of the 
employees of the, is it, the Argenbright Company?
    Mr. Mead. Yes. I think you may be referring to--the Dulles 
Airport work is on going. Philadelphia Airport clearly had a 
problem.
    Mr. Rogers. I want to ask you about Dulles. Did you check 
on the employees at the screening operation at Dulles Airport?
    Mr. Mead. Yes, we are checking.
    Mr. Rogers. Tell us the makeup of the staff there in terms 
of their citizenship in the United States, for example.
    Mr. Mead. Yes, a substantial percentage of them are not 
U.S. citizens.
    Mr. Rogers. What percent?
    Mr. Mead. I think it is about 80 percent. It may be 
somewhat more.
    Mr. Rogers. 80 percent of the people checking for 
terrorists at Dulles Airport are not American citizens?
    Mr. Mead. I believe that is so.
    Mr. Rogers. Is that one of the airports where one of these 
planes originated the other day?
    Mr. Mead. Yes.

                       Logan and Newark screeners

    Mr. Rogers. Have you checked Logan in Boston in the same 
fashion?
    Mr. Mead. No.
    Mr. Rogers. Or Newark?
    Mr. Mead. No.
    Mr. Rogers. What about whether or not those employees have 
been checked for a criminal record?
    Mr. Mead. New employees, under a law that was passed 
recently, have to undergo a criminal background check. That 
does not apply to existing employees. In my statement, sir, I 
recommended that it should apply to all employees.

                         Argenbright violations

    Mr. Rogers. Well, the company that has been employed by the 
airlines at Dulles, what is the name of the company there at 
Dulles?
    Mr. Mead. Argenbright.
    Mr. Rogers. Do they also have the Philadelphia contract as 
well?
    Mr. Mead. Yes, sir.
    Mr. Rogers. Have you noticed any unusual things happening 
under that contract in Philadelphia?
    Mr. Mead. Well, in Philadelphia less than a year ago, 
because of falsification of training records and problems with 
background checks, there was a criminal plea to a $1 million 
fine.
    Mr. Rogers. A criminal plea by whom?
    Mr. Mead. By Argenbright.
    Mr. Rogers. In criminal court?
    Mr. Mead. Yes, sir.
    Mr. Rogers. Have they paid the fine?
    Mr. Mead. I do not know if they have paid the fine.
    Mr. Rogers. Do they still hold the contract in 
Philadelphia?
    Mr. Mead. Yes, they do.
    Mr. Rogers. And at Dulles?
    Mr. Mead. Yes, sir.
    Mr. Rogers. And other airports?
    Mr. Mead. Yes, sir.
    Mr. Rogers. Where?
    Mr. Mead. 46 other airports.
    Mr. Rogers. Let me get this straight. One company is 
checking for terrorists at 46 of our Nation's airports and the 
company itself is in violation of America's criminal laws?
    Mr. Mead. That is true, at least in Philadelphia.
    Mr. Rogers. And at one of the other airports that you are 
very familiar with, Dulles, 80 percent of their employees 
screening for terrorists are not even citizens of the United 
States of America?
    Mr. Mead. No. Well, currently I am not sure if this 
particular security company should be singled out there, 
because there is no requirement in the program currently that 
they be U.S. citizens.
    Mr. Rogers. Has this company been in trouble at any other 
airports that they are in?
    Mr. Mead. I cannot speak to that, sir. I would have to get 
back to you on the record.

                 Turnover of airport security screeners

    Mr. Rogers. What about the turnover rate, Mr. Dillingham? I 
have been reading the GAO's report on aviation security issued 
June of 2000. You are the principal author, are you not?
    Dr. Dillingham. Yes, sir.
    Mr. Rogers. Tell us about the type of personnel screening 
companies are hiring around the country at the airports to 
screen for terrorists.
    Dr. Dillingham. Let me get back just a little bit to the 
point you raised before. Screeners do not have to be a U.S. 
citizen. They can have a resident alien card as well.
    The other point you raised with regard to Argenbright, I 
think IG Argenbright is also a foreign-owned company as well.
    With regard to the types of personnel that are being hired, 
one of the requirements is that you have a high school diploma 
or a GED. We have not checked the records of individual 
companies, but in the course of doing our work we clearly got 
the idea that this was not a job where you would find the most 
skilled person.
    Mr. Rogers. They are minimum wage jobs, are they not?
    Dr. Dillingham. Yes, sir.
    Mr. Rogers. And the turnover rate is exorbitantly high, is 
it not?
    Dr. Dillingham. Yes, sir.
    Mr. Rogers. In one airport the turnover rate is 400 percent 
a year?
    Dr. Dillingham. Yes, sir.
    Mr. Rogers. At Atlanta it is 375 percent a year, at 
Baltimore-Washington 155, Boston Logan 207, Chicago O'Hare 200, 
and Houston 237 percent a year, at St. Louis 416 percent a 
year; is that correct?
    Dr. Dillingham. Yes, sir.
    Mr. Rogers. So these are untrained, inexperienced, lowest 
paid personnel, many of them certainly not citizens, and the 
company got the contract by the lowest bid?
    Dr. Dillingham. Yes, sir.
    Mr. Rogers. Now, what is wrong with this picture?
    Dr. Dillingham. I think the picture is clear to everyone. 
There are a couple of things that even make this a little more 
problematic. It is not only that the high turnover rate means 
that the people that are doing the baggage checking have very 
little experience, but it is also the case that they are there 
long enough to learn the techniques of baggage screening and 
going through screening points. So you have a huge number of 
people out there who know parts of how aviation security works. 
That is probably as important as the lack of experience on the 
screening pad there.

                    WATCH LIST of terrorist suspects

    Mr. Rogers. Let me ask anyone that may know--Madam 
Chairman, I thank you for the time--we let 19 hijackers get 
through the system the other day. None of them were caught or 
stopped. I assume that all 19 of those names or at least a 
portion of them were on a watch list, were they not?
    Ms. Garvey. Mr. Chairman, they were not on a list that was 
provided to the aviation community. Perhaps we could say more 
in closed session.
    Could I just add one note to what Mr. Mead said about the 
Dulles situation? Mr. Mead has been very forthcoming with us at 
the FAA about his investigation and has reported to us as 
recently as a few days ago about the status of it. We are 
working very closely with him. Although these are contracts, 
obviously, nationwide these are contracts with airlines, we are 
working closely with them to look at what options are 
available. So we know this is a real issue.
    Mr. Rogers. Well, this system, not curbside baggage 
curbing, not checking checked baggage--none of those things 
were relevant, were not the proximate cause of Tuesday. The 
proximate cause, the real cause, was these people got through 
our screening system at three of our Nation's major airports. 
So we know where we need to do work.
    Mr. Secretary?
    Secretary Mineta. Mr. Chairman, the only problem is that, 
even though they did get through the screening system, the 
question is what is it that would have triggered them to be 
stopped. They were carrying either plastic-type knives--they 
had box-openers, which are this long with a sharp hook, razor-
sharp. But under the four-inch requirement at the time, it 
would not have been picked up as being an illegal carryon 
knife.

            Computer assisted passenger prescreening system

    Mr. Rogers. There is a little thing called CAPPS.
    Secretary Mineta. But as Administrator Garvey said, and I 
am not sure at this point as to whether or not those names were 
part of the CAPPS. They were held by the Immigration Service. 
They knew. They had them on the Immigration watch list. But 
again, there is no requirement that Immigration submit that to 
DOT or to FAA to pass it along to the airlines to be part of 
the CAPPS.
    Mr. Rogers. It seems to me that if you are on a terrorist 
watch list one of the places that that name ought to go quickly 
is the FAA to go into the computer-assisted profile system.
    Secretary Mineta. Mr. Chairman, that is something we can 
discuss more fully in a closed session.
    Mr. Rogers. Thank you.
    Senator Murray. Thank you, Mr. Chairman.
    Chairman Byrd.

         OTHER TRANSPORTATION MODES, TERRORIST RISK ASSESSMENT

    Senator Byrd. Madam Chairman, I think that the line of 
questioning that has been opened by Mr. Rogers is one that 
ought to be pursued, perhaps quite extensively, in closed 
session. This goes to the weakness of the 5-minute limitation 
on questions.
    Let me shift to another area, and I will try to be brief. I 
have to leave soon. What steps, in view of the likelihood, Mr. 
Mineta, that in the future terrorists will turn their attention 
to still other untried mechanisms to disrupt our way of life, 
either on the water or on the railways, what steps have you 
been able to take to minimize the risk of terrorism on all 
modes of transportation--railroads, bridges, and so on--since 
September 11?
    Secretary Mineta. Well, first of all, right from the 11th 
of September when we activated the crisis management center 
with all of the DOT modes, they notified all of the companies 
or facilities within those jurisdictions, whether they be 
ports, pipelines, truck companies, railroads, et cetera. They 
were all notified in terms of taking increased security 
measures. Pipeline companies employed helicopters to check 
their pipelines. Railroads, whether it be at the station or 
whether it is freight rail or Amtrak, they increased their 
security measures.
    That is something that I ask each of our modes every day, 
as to what is going on. When someone says, well, I talked to 
the railroads or talked to whomever, to me that is not 
satisfactory. What I want to know is what are they doing; once 
they institute those measures, are we monitoring them to make 
sure that they are in fact doing what they told us?
    So we are trying to be as comprehensive and inclusive as 
possible. I get a briefing every morning at 8:30 or 8:00 
o'clock from the intelligence agencies, as does Administrator 
Garvey. I asked on Wednesday the 12th of September whether or 
not all these things we have been told and read about, whether 
or not there is a matrix that we could build with all that 
information we knew since I have been there on the 25th of 
January to even come near indicating that an airplane would be 
used as a lethal weapon, where the targets might be, what the 
kind of things that might occur.
    Senator Byrd. Excuse me, if I may interrupt. I am on a very 
limited time.
    Secretary Mineta. Yes, sir.
    Senator Byrd. In other words, you are saying to me, I hope, 
that, while everyone is focused quite properly on the new 
threat of hijacked aircraft being used as weapons, I hope you 
are assuring me that you are also focusing on the containment 
of other threats, other vulnerabilities, in our transportation 
system, such as railroads, bridges, and so on?
    Secretary Mineta. Absolutely, absolutely. That was why I 
said in the statement our responsibility is to be equally 
concerned about other modes of transportation, and we are 
focusing not just on aviation, but on the security aspects of 
all modes of transportation.

                         Essential Air Service

    Senator Byrd. Good, good. I am pleased to have that 
assurance.
    I have one other question. I introduced it in my opening 
remarks. I happen to believe that the airlines should not be 
allowed to take billions of dollars in relief from the general 
treasury and simultaneously reduce or eliminate air service to 
taxpayers in small cities and rural communities. Now, this 
sounds very critical of the airlines. I guess you can 
understand why I seem to be a little bitter in the light of the 
history, which I have also already mentioned, as to the 
treatment that small communities have had in rural areas of 
this country since and beginning with the deregulation of the 
airlines, concerning which I feel very badly with respect to my 
own vote.
    But let me ask you specifically, how does your statutory 
proposal address the issue of maintaining air service to our 
small cities, our towns and rural communities during this 
industry downturn?
    Secretary Mineta. In the package that is being discussed 
right now, there is no further enhancement of the Essential Air 
Service program. It stands as it is right now, at $50 million. 
Hopefully, there would be some discussion about the possibility 
of increasing that amount, but right now it is $50 million for 
the Essential Air Service program as we know it right now.
    Senator Byrd. Mr. Mineta, I just hope that we will give 
more attention than that to our rural areas in this country.
    Secretary Mineta. Yes, you and I, sir, have had many 
conversations about this. So to the extent that it has been a 
budgetary limitation, it has been kept at $50 million.
    Senator Byrd. Well, you and I really have not had many 
conversations along this line. Perhaps the fault is mine, but 
we are looking ahead now, and I hope that we will focus our 
attention in considerable degree at least on the plight of the 
small areas, these communities, the small towns in the rural 
areas of this country, as we quite properly consider helping 
the big airlines, bailing out the airlines, which in times past 
in considerable measure have turned their backs on the rural 
areas of this country.
    Madam Chairman, I want to thank you. I want to thank all 
the other members, and I beg their pardon for having to step 
out during the questioning and meet with Senator Stevens and 
Mr. Young concerning the appropriation bill. Thank you.
    Thank you, Mr. Mineta. Thank you.
    Secretary Mineta. Thank you very much, Mr. Chairman.
    Mr. Rogers. Mr. Sabo.
    Mr. Sabo. We wish Senator Byrd well in his meeting. Before 
I start, I would like to yield 30 seconds to our colleague 
Frank Wolf, who has to get back to the floor.
    Mr. Wolf. Thank you, Mr. Sabo, and I thank both the 
chairmen.
    Very, very quickly, with the airlines in trouble 
financially, they are not going to move ahead aggressively. 
Secondly, we need to federalize the inspection service 
immediately, including the baggage and doing background checks. 
You cannot do background checks on people who have only been 
here for a year because they cannot go back over to the 
country.
    Third, it ought to be in the Department of Justice, which 
is the law enforcement agency, so that the FAA is not 
conflicted with promoting aviation. It should be in law 
enforcement. Also, we should secure the cockpit.
    When we come back in private session, I will raise some of 
the issues that you already know. We should have air marshals, 
but we have armed pilots in certain airlines. We had air 
marshals. We have pilots who are well trained, and as pilots--
particularly since they got up and left the seat--I believe the 
pilots ought to be given weapons, as in some other airlines, 
whereby they can be in essence an air marshal. Had the pilots 
in this case had weapons, these cases would not have happened.
    With that, I will just yield back the balance of my time 
and thank you. But we ought to federalize this. There is no 
contracting out, there is nothing that any private sector or 
nonprofit can do. We do not contract out the FBI, we do not 
contract out the Customs Service. We ought not contract out 
this.
    I thank the chairman.

                        airline funding request

    Mr. Sabo. Let me indicate, I really do think this issue of 
how we deal with the cockpit is absolutely crucial. As 
everything we discover, all issues are more complicated than 
one thinks. But that clearly would have dealt with the heart of 
the problem on September 11. I think it also fundamentally 
deals with the problem of other hijackings. If the hijackers 
know they are not going to get control of the plane, there is 
not much reason for doing it.
    But let me ask a question on a different subject. I 
understand the administration is sending up their request on 
the airline package which includes $5 billion. I am curious as 
to the source. I assume it does not come from the $40 billion. 
Is it an emergency supplemental that is being requested? What 
form does it take?
    Secretary Mineta. I will tell you. Let me ask our Deputy 
Secretary Michael Jackson to come up, because he just returned 
from a meeting with the House and Senate leadership, I believe 
it was, or at least the House leadership, on discussions 
relating to the package that is being considered for submission 
to Congress.
    Mr. Sabo. As I understand it, you are allocating $3 billion 
from the $40 billion for some of the enhanced security 
measures?
    Secretary Mineta. The $3 billion, I believe, comes from the 
original $20 billion, and I will have to see where they came 
out in this meeting today.
    Mr. Jackson. Congressman, we are proposing that the 
additional $5 billion would be a new emergency appropriation.
    Mr. Sabo. It is not something that is coming out of this 
committee's jurisdiction?
    Mr. Jackson. It will have to have an appropriation and so 
the House and Senate will have to deal with that issue as an 
appropriation, to my understanding.
    Mr. Sabo. Mr. Chairman, I will yield and let you move on to 
other committee members.
    Senator Murray. Thank you very much.
    Senator Kohl.
    Senator Kohl. Thank you, Madam Chairman.
    Earlier this week a member of my staff discovered some 
disturbing facts regarding chartering of aircraft. We are 
talking about private jets. She called several companies that 
charter these jets of all sizes and tried to determine how 
difficult it would be to rent a jet. I do not want to get into 
the details of what she discovered, but let me just summarize 
it by telling you that one representative actually said to this 
person on my staff, and I quote: ``Renting one of our jets is 
not that different from renting an automobile. The procedures 
are not entirely dissimilar.''
    So I would like to get into this whole question of private 
aircraft and how people secure them, how they get a hold of 
them, what kind of security we have with respect to private 
aircraft. I can tell you, in my own experience, I have used 
private aircraft from time to time and I have never had any 
security whatever in connection with the boarding of an 
aircraft, myself or the people with whom I travel, my friends. 
When you go down after you have secured an aircraft, if you are 
renting it and there are pilots, you simply walk into the place 
and they say, are you Mr. Kohl, and I say yes, I am, and off we 
go, and everything else is come as come be.
    Now, there is no, to my experience and what I have been 
able to learn in the last week, there is literally no security 
with respect to private aircraft in this country. I would like 
you to please comment on that, not with respect so much to what 
has been, but with respect to what is going to be, because the 
citizens of America need to be protected from all the things 
that can happen as a result of a private aircraft being 
hijacked as it is from commercial airlines. Is that not true, 
Secretary Mineta?

                      Security of private aircraft

    Secretary Mineta. Senator, let me have Administrator Garvey 
address that issue.
    Ms. Garvey. Senator, I will take your cue and focus on the 
going forward. You are right that private charters do not have 
to meet the same security requirements. Public charters who 
have individual passengers pay for their individual seats do 
have to go through the same security requirements. Public 
charters involving aircraft with 30 or fewer seats have to meet 
security requirements, under certain conditions. The 
applicability of securing requirements to private charters is 
going to change in November of this year. This was an issue, we 
felt was an issue, even before this incident had occurred, and 
we have been developing a change, a regulation change, which is 
to go into effect in November of this year. With the new 
requirement, private charters will be treated the same as 
public charters with 30 or fewer seats.
    I think what we need to do in the next 30 days is see if we 
can move that November date up even sooner, and we are doing 
that. One note, though, or really a compliment to the general 
aviation airports and to the fixed base operators who operate 
on larger aircraft--they are, on their own, really stepping out 
and putting in place some additional security managers, using 
in many cases a member of the local police force.
    But again, November of this year was the original date for 
the change. We will see about moving it up.
    [The information follows:]
               Aviation Regulations for Private Charters
    The FAA did issue Special Aviation Regulation (SFAR) 91 on October 
1, 2001, addressing security checks for all operators, including 
private charters, that enplane or deplane passengers into sterile 
areas. The SFAR essentially advances the November 14, 2001, date for 
private charters to comply with the provisions of the amendment to part 
108, which was published on July 17, 2001.
    The FAA is requiring operators to implement security procedures: 
(1) by October 6, 2001, for all aircraft operations in which 
passengers, crewmembers, or other persons are enplaned from or deplaned 
into a sterile area regardless of weight; and (2) when notified, for 
all aircraft operations conducted under part 91 in aircraft with a 
maximum certificated takeoff weight exceeding 12,500 pounds. Item No. 2 
applies regardless of whether passengers, crewmembers, or other persons 
are enplaned from, or deplaned into, a sterile area.

    Senator Kohl. So you do recognize the danger inherent in 
that whole private aircraft business?
    Ms. Garvey. Yes, sir, and the new requirement will treat 
private charters in the same way, with the same security 
requirements as public charters with 30 or fewer seats.
    Senator Kohl. Well, I will be looking forward to seeing 
that; and you are saying hopefully even sooner than November?
    Ms. Garvey. That is correct, Senator.
    Senator Kohl. Thank you. I thank you very much.
    I thank you, Madam Chairman.
    Mr. Rogers. Mr. Olver.

                        Tracking flight traffic

    Mr. Olver. Thank you very much, Mr. Chairman.
    I am going to attempt something I have never done before, 
which is to try to get three questions in my 5 minutes. I have 
a very short follow-up to the question posed by Senator Byrd a 
little bit earlier. Many of the airlines have announced 20 to 
25 percent reduction in the total flights that they expect to 
be carrying out in the near future. Is anybody from the 
Secretary, the Administrator, or the IG's Office, watching 
whether the flight reduction is coming disproportionately from 
any sector of the country or from large communities or small 
communities? Is there any pattern beginning to emerge from 
that? And if there is not, if it has not been looked at, should 
we not be looking at it somewhere in your area?
    Secretary Mineta. Our office has not. It is something that 
I will take a look at.
    Mr. Mead. I think it should be looked at. It is probably a 
little early to say exactly what the patterns are going to be, 
but I agree wholeheartedly it is something that needs to be 
watched, and we will do that.

                            cockpit security

    Mr. Olver. I think I am getting agreement that it should be 
looked at, and I trust that you will look at it rather 
carefully as this develops.
    I want to follow up on Mr. Wolf. My colleague from the 
House had zeroed in on two issues. Cockpit security was number 
one. Mr. Queen, you had mentioned that there was something like 
7,000 planes and 40 designs. Are there either national airline 
companies from other countries that have a system of restricted 
access all the way to--well, I think this goes through a 
process of hardening--perhaps all the way to an access which is 
totally outside the access from the passenger cabin, separate 
access for the flight deck?
    Is that true, that there are companies, national companies 
or other than our companies, that do that sort of thing?
    Mr. Queen. I will tell you what I know and do not know. I 
do know that there are some customers who, after delivery, do 
what is called door-hardening.
    Mr. Olver. The customer has done it?
    Mr. Queen. Airlines, yes, after delivery from Boeing. I 
know that we, at Boeing, on one customer's airplanes, two 
different model types, in the late eighties added kevlar to 
their doors on the cockpits.
    Mr. Olver. Is there any kind of a report that would 
summarize the kind of hardening mechanisms that are in place by 
airlines, different airlines or different nations?
    Mr. Queen. I personally do not know. I think we have an 
opportunity in the working group that we have to gather that 
kind of information. To be honest, most airlines are a little 
reluctant to share that because they do not want to share the 
details of what they have done to enhance their security.
    Mr. Olver. That is probably obvious, that they would be 
reluctant. But I would be very interested in seeing what we can 
know about that kind of thing.
    Mr. Queen. We will try to find out.

              FEDERAL RESPONSIBILITY FOR AIRPORT SECURITY

    Mr. Olver. Then my third one--I am getting close to doing 
this--has to do with Mr. Mead and Mr. Dillingham. Mr. Mead, 
each of you has used some cases, cases of breakdowns in the 
security system, some of them looking fairly egregious and some 
of them looking like a randomized pattern almost. Mr. Mead, you 
have said it is time, I think very close to your words, to have 
Federal responsibility for airport security.
    Mr. Dillingham said it might be time to give that 
responsibility. It seems that the case is fairly strong. That 
is Mr. Wolf's other zeroed-in point.
    I am curious if the Secretary and the Administrator would 
give us their estimate of how close we are to the time to do 
this kind of overall security responsibility directly under a 
Federal agency.
    Ms. Garvey. The rapid response team, of course, that the 
Secretary mentioned will be coming to the Secretary very soon 
with a response. I can tell you that the principle going in is 
that we need, we absolutely need, a fundamental change in the 
way we approach screening.
    The second principle going in is that we absolutely need to 
have a much stronger Federal presence. I think some of the 
questions that Chairman Wolf pointed to--for example, should it 
be in Treasury--as Mr. Mead said--we were talking about that 
this morning and he said the devil is sometimes in the details.
    So we are very, very close to coming to the Secretary with 
these options very much fleshed out. But the fundamental 
principle about it must change, it must change, and we need to 
have a much stronger presence. Whether that assumes a true 
federalization is, I think, the issue we are working on now.
    Mr. Olver. Any other comments, Mr. Secretary?
    Secretary Mineta. I guess what we are trying to do 
throughout the system as we see these shortcomings is try to 
plug, so to speak, the loophole, because there is no question 
that life is vastly different for all of us, whether you are a 
passenger or an airline operator, in terms of the requirements. 
We are going to be looking at, we are looking at all these 
requirements.
    Mr. Olver. How long would it take to get a thoughtful 
response to that question of whether we need to do that 
nationalization?
    Secretary Mineta. We hope to be able to do that very 
quickly. Part of the solution may be in part of the funding 
that is available through the emergency supplemental bill.
    Senator Murray. Thank you very much.
    I would remind all of us that we do want to go into closed 
hearing in half an hour, so if we can keep our questions and 
answers short I would appreciate it.
    Mr. Mead. I just want to say that there has been a lot of 
talk about federalization or nationalization. I think it is a 
term that is not self-defining. Ms. Garvey said, I think, the 
devil is in the details on exactly what we mean by that.
    Senator Murray. Thank you.
    Senator Specter.
    Senator Specter. Thank you, Madam Chairman. Let me thank 
you and Chairman Rogers for suggesting this joint hearing. I 
think it has been a very good hearing. I would also be 
interested to work with the House colleagues to see the 
interaction. Perhaps we ought to do it more often.
    Mr. Secretary, in just the few minutes I have I am going to 
direct my questions to you. At the outset, let me say it is 
reassuring to have you in this tough position in these tough 
times with your legislative background and your capabilities in 
this arena.
    I think that Congressman Rogers has been very effective in 
his examination in pointing out some major deficiencies which 
really need very prompt correction. It is very distressing to 
hear Inspector General Mead comment about the criminal 
conviction and payment of a large fine for a company which is 
handling security clearance in many places, and then to hear 
that they ought not to be singled out, that there may be 
similar problems at other places.
    I quite agree with Dr. Dillingham that it is fine to have 
resident aliens with green cards in key positions, but I do 
believe that it merits some inquiry to be sure that they are 
not part of some plan with some foreign conspirators. There is 
no inference that that is so, but it requires a look. When you, 
Mr. Secretary, say that there is no positive factor established 
because some of the evidence is box-cutters and knives, of 
course we do not know as we sit here, probably will never know, 
what happened on all the other planes, whether the others had 
guns or what they had.
    I think it has become very obvious that the existing steps 
at airports need to be corrected immediately. We have seen the 
very serious deficiency in law enforcement officials and 
immigration notifying the FAA as to what is happening. So that 
there is a good blueprint which is emerging fairly rapidly in a 
fairly brief hearing.

                  FEDERAL LOAN GUARANTEES FOR AIRLINES

    Mr. Secretary, the questions that I want to cover with you, 
in the couple minutes that I have, relate to the response of 
the airlines. It seems to me that there is a solid legal basis 
at least for consideration on losses which are directly 
attributable to the terrorist acts being borne by the country, 
as opposed to by any specific business entity or individual. 
This is really an attack on our country and we are at war. When 
we try to figure out what is fair and just, some consideration 
ought to be given to how we are going to bear these costs, 
whether they are national costs as a cost of war.
    I had asked you informally before the hearing started--that 
is when, people might be interested to know, we transact most 
of our business, as opposed to the formal question and answer 
session, which may be somewhat guided or inhibited by the 
television cameras. But a constituent, US Airways, is only 
symbolic of the entire airline industry as to what is 
happening, and the $5 billion in cash has to be supplemented by 
stopgap loan guarantees of $12.5 billion behind it, and speed 
is really the essence of what we have to accomplish.
    The Congress, to its credit, which is somewhat unusual, 
responded very promptly last week with $40 billion as the 
President requested and a resolution for the use of force. It 
is my hope that we will move promptly with a package which will 
stop the hemorrhaging now.
    Last week, had there been $2.5 billion advanced, it is 
entirely possible that might have foreclosed the matter for a 
larger advance. So I would hope that you would weigh in from 
your authoritative position to couple to $5 billion with a 
backup $12.5 billion loan guarantee.
    Secretary Mineta. Senator Specter, since those negotiations 
were going on while I was here and I sent Deputy Secretary 
Jackson to those meetings that went on between the White House 
and the House leadership, I believe he can bring us up to date 
on what is going to happen on that issue specifically of loan 
guarantees.
    Senator Specter. Thank you.
    Mr. Jackson. Senator, the administration has reached a 
position where we would be supportive of a package of 
additional financial supplemental aid for the near term and 
believe that that is an important component of the 
stabilization of the airlines. So we are supporting money for 
safety, as the Secretary described in his opening remarks, and 
money for the $5 billion initial recapitalization and cash 
infusion, some prospective and retroactive insurance liability, 
terrorism insurance provisions, and a few other items that are 
being discussed this afternoon.
    So on the longer-term financial mechanisms, we are 
supporting some measure there.
    Senator Specter. The $12.5 billion backup line of credit?
    Secretary Mineta. Senator, I think the amount is something 
that is still in flux. I think the subject matter you are 
interested in is part of the package. As to how much it is 
specifically, it is still open.
    Mr. Jackson. And how that would be structured and 
administered.
    Secretary Mineta. And how it would be structured.
    Senator Specter. Madam Chairman, one further question.
    Senator Murray. One further question. You are 2 minutes 
over your time.

                  REOPENING OF REAGAN NATIONAL AIRPORT

    Senator Specter. Mr. Secretary, with respect to Reagan 
National Airport, very important for the Nation, especially for 
US Airways, the biggest occupant there. It is very close to the 
Capitol, about 90 seconds. But it is comparable to Dulles, 
which is 2\1/2\ minutes. I know it is a security issue, but 
could you give us some idea as to what may happen with Reagan 
National Airport with respect to reopening?
    Secretary Mineta. Senator, you have hit it on the head. It 
is a security issue. We are working with the National Security 
Council and, more specifically, with the United States Secret 
Service on this issue, trying to fashion some way to get Reagan 
National Airport back on line. The desire is to have takeoffs 
to the south and arrivals from the south and nothing going 
north or approaching from the north, but that cannot be done 
all the time, because the laws of nature and the physics of 
aircraft lift require a different set of wind conditions and 
they do not always exist in terms of a southerly approach or a 
southerly takeoff.
    But in any event, I suggested maybe putting a sky marshal 
on every flight that departs National or comes into National. 
Well, that is a whole slug of flights in terms of the number of 
air marshals that we will have. In any event, every day we are 
talking to the National Security Council/U.S. Secret Service 
about coming up with alternatives as to what we might be able 
to do to get Reagan open, up again, recognizing that there is a 
major airline that is on the precipice.
    Senator Specter. Thank you.
    Thank you.
    Mr. Rogers. Mr. Pastor.

                           BAGGAGE SCREENING

    Mr. Pastor. Thank you, Mr. Chairman. I want to thank the 
leadership of the subcommittee for holding this joint hearing. 
Also, I would express my condolences and heartfelt sympathy to 
the pilots, attendants, and passengers who perished in this 
tragic attack, and hopefully from this hearing we will secure 
the airline industry, but also secure the entire transportation 
industry.
    One of the things, during these hard times we look for 
culprits, but I have to tell you that a person's status, legal 
immigrant, does not translate into a guage for judging loyalty. 
I know that they have to do background checks. I know we have 
to be secure. But being here legally but not being a citizen 
does not translate to disloyalty. I just have to remind my 
friends what happened in Oklahoma. Those were U.S. citizens. So 
we just need to be careful in how we translate loyalty and 
status.
    I know you have ongoing investigations on how the 
terrorists got on the planes and what they carried. What 
security measure right now in place do you think would avoid it 
happening again?
    Secretary Mineta. Next question. I do not have a good 
answer for that one.
    Mr. Pastor. This last weekend I traveled back to Phoenix 
and back to D.C. and I see still people carrying as many bags 
as they want.
    Secretary Mineta. Well, we have not done anything on the 
limit. We were just talking earlier about limiting it to one 
bag per person, including purses for women.
    Mr. Pastor. Well, I have to tell you----
    Secretary Mineta. That is not in effect yet.
    Mr. Pastor. I understand that.
    Secretary Mineta. The question is should we be doing things 
like this.
    Mr. Pastor. I saw in Dulles Saturday, where people had 
their carry on bags, and the impatience of many of the 
passengers, the pressure put on the people looking through the 
bags. I can tell you that, even though they are trained and 
they are trying to beef up security, I am sure there were some 
things that passed through those bags that you would not want 
to have carried on airplanes.
    Secretary Mineta. I experienced the same thing when I went 
to BWI to watch what was happening there on Saturday, and the 
long lines. The whole function of wanding an individual was 
sort of a function of how long is a line. Long line, nobody got 
wanded. Yet we said specifically random wanding of passengers 
coming through the security point. That does not say give up 
wanding because it is a long line. It still says random 
wanding.
    Mr. Pastor. But then who would be selected randomly? Why 
not everybody? Because there are certain people that 
obviously----
    Secretary Mineta. But by the same token, I know that when 
the line got shorter everybody got wanded.
    Mr. Pastor. Well, I would think that possibly they might 
look at me and I might profile someone that might be carrying 
something they should not be carrying. I may be wanded, but 
someone what may not look like a terrorist might not be wanded. 
I think you need to wand everybody, even though it takes time.
     People ought to be limited to carrying one bag that is 
small enough that it can be monitored and be made secure and at 
least allow a person to carry an ID, maybe a plane ticket and a 
few things. But I think that is going to stop probably 90 
percent or more of the things that you do not want to have on 
airplanes not to get on airplanes.
    Secretary Mineta. ID's are required.
    Mr. Pastor. I understand it, but what I am saying is the 
bag you carry should be small enough that it can be secured 
within a reasonable amount of time, but allow the things that 
you need to carry on to be carried on--your ID, your ticket, 
and a few things, pocketbook and stuff like that. But there are 
still things on the airline. In first class I saw the attendant 
opening a bottle of wine with a corkscrew, and it is longer 
than four inches. What are you going to do with a glass that is 
still being used, or bottles that are given out. So there are 
different ways that people can still use what is being used on 
the airlines to handicap an attendant or possibly create chaos 
on an airline.

                 SECURITY OF OTHER TRANSPORTATION MODES

    Senator Byrd asked a question. In Japan they use the 
subways in a terrorist attack. What are we doing to ensure that 
the subway trains are secure?
    Secretary Mineta. Well, both the Federal Raiload 
Administration and the Federal Transit Administration have been 
having conversations with either APTA or with AAR on specific 
things that are going to be required of the railroads to 
increase their surveillance and security measures, part of 
which I suppose goes back to that earlier question that was 
raised by someone about the cost of this kind of surveillance, 
especially with public transit agencies. How do you do it with 
a transit agency that has, let us say, 57 buses or 1,300 buses? 
How do they inspect those vehicles to make sure as they are 
going through the Holland Tunnel that they do not have some 
unwanted baggage on it?
    Those are being talked about right now, and the early part 
of next week I hope to be getting a report back on some of the 
specific stuff they will be looking at and incorporating in 
terms of their operation.
    Mr. Pastor. I thank the panel, Madam Chair.
    Senator Murray. Senator Durbin.
    Senator Durbin. Thank you, Madam Chairman. Chairman Rogers, 
I thank you for this hearing. I thank you for this hearing. I 
think this is appropriate and timely.
    I also want to thank Secretary Mineta and Administrator 
Garvey. You have a tough job and you have done good work. In 
fact, in many ways your public service has saved lives, 
particularly in light of this national crisis.

     Uniformed law enforcement officers at airport screening points

    I would like to focus, if I can, on an area of questioning 
which has already been addressed. There has been a lot of 
attention since I returned to Washington on our airlines. I 
think it is appropriate and I hope that we move very quickly to 
respond. It appears that the legislation moving forward is 
focusing on the solidness of the airlines--loans, grants, tax 
considerations, questions of liability. These are all very 
important and without the prompt attention of Congress and our 
action I am afraid that we will face an even greater crisis in 
our airline industry.
    This is the first hearing I am aware of that has focused on 
the security aspect of this. I would suggest to everyone here 
the fact that yesterday in the United States of America 
airlines operated at 31 percent of their capacity has much more 
to do with security than it does with solvency. I think people 
are reluctant to use our airports and our airlines, this brings 
me to my question, Secretary Mineta.
    I do not think there is anything that has come forward in 
this hearing today which will make people feel safer about 
using our airports and airlines. I am sad to report that, 
because I want us to return to normal as quickly as possible, 
but the questions that have been propounded and answered and 
the testimony that we have about the gross inadequacy of the 
screening system in American airports has to give every member 
of this panel pause, let alone the flying public.
    The suggestion that we have gone to the lowest bidder time 
and again, hired people who are not well trained, not as 
conscientious as they should be, who are not well supervised, 
who have often been found to fail in their attempts to stop 
people who would bring weapons on airplanes, has to be a matter 
of great concern to all of us.

             LAW ENFORCEMENT OVERSIGHT OF BAGGAGE SCREENERS

    My specific question to you, Mr. Secretary, is this. On 
September 11, 2001, in a matter of moments you made a decision 
which saved lives. You brought down planes across America, as 
you said, in less than 2 hours. Because of that decision, 
people are alive today who might not otherwise be alive. I 
would like to ask you this: Are you prepared now through the 
FAA to make an order that at every screening station in every 
airport in America there will be a uniformed law enforcement 
officer to supervise the activity of these screeners until 
Congress can respond with the administration to federalize this 
activity with the appropriate people to give us the sense of 
security we need?
    Secretary Mineta. I know that at Baltimore they are doing 
that. There is a police officer at the screening point 
overseeing that operation. That is what I saw Saturday. Whether 
or not we are considering doing that nationally, let me ask 
whether Administrator Garvey or General Canavan.
    Ms. Garvey. Senator, the major airports are doing just 
that. We contacted them immediately and said, we would like you 
to use your local, State police, your local county police, 
metro police, whatever, and beef up the security, the security 
checkpoints. I was looking at some numbers the other day and 
they are dramatic.
    The challenge for us is that many of the Federal law 
enforcement officers that we want to use we are using Federal 
marshals on the aircraft. So in many ways we are relying on 
some of the local officials at the local level. But I do think 
at the larger airports they have done that. This weekend we are 
going to be visiting some of the major airports to see if there 
are additional things we can do.
    Senator Durbin. May I suggest, it seems eminently sensible, 
based on what we have heard today at this hearing, that we have 
an order coming from the FAA at every airport in America that 
every screening team, every screening device, has a uniformed 
law enforcement officer there. I think it accomplishes two 
things. It reminds the employees of the seriousness of what 
they are doing and it could certainly discourage some 
wrongdoers from trying anything.
    Yesterday I went to Lambert Airport in St. Louis. There 
were five people at my screening station. Three were 
conscientiously doing what they were trained to do and two were 
involved in a kind of game-playing and horseplay that high 
school teachers would not tolerate. That is unacceptable. If 
this is truly our first line of defense, before we start 
talking about arming pilots and sky marshals, should we not put 
a law enforcement official at every screening device in every 
airport?
    Ms. Garvey. That would be one option. Two is to use the AIP 
funding. The Secretary has asked for a recommendation on that, 
to use AIP funding so that they can supplement those forces.
    Senator Durbin. Thank you very much.
    Thank you, Madam chair.
    [The statement follows:]

            Prepared Statement of Senator Richard J. Durbin

    Chairman Murray, Chairman Rogers thank you for holding this 
important hearing today. And a special thank you to Secretary 
Mineta and Administrator Garvey for taking time to come back to 
Capitol Hill to brief us and to work with us on ways to make 
our aviation system the safest in the world. I want to commend 
the Secretary and the Administrator for their quick work on 
Tuesday, September 11, to halt national aviation operations and 
to institute a ground stop for all aircraft. These prudent 
actions likely prevented further tragedy and confusion.
    This Congress and this Administration must expeditiously 
develop a cooperative, comprehensive plan to ensure the safety 
of the traveling public, the security of our airports, and the 
continued economic viability of the aviation industry.
    First and foremost, the federal government should 
immediately take responsibility for the screening of passengers 
and luggage and the control of security checkpoints at our 
nation's airports. We can no longer rely on contractors and 
subcontractors nor on employees with high turnover rates. We 
need well-trained, professional federal government security 
experts to be the central line of defense for airport security.
    I plan to introduce legislation shortly that would require 
these airport security check points to be staffed by federal--
FAA--employees. I also will co-chair a Governmental Affairs 
Committee hearing with Senator Lieberman on Tuesday, September 
25, to more thoroughly examine this issue. While this proposal 
appears to be supported by the airlines and by the 
Administration, I think it's important for Congress to act 
swiftly to codify this important change.
    I have heard from a number of Downstate Illinois airports 
who support the stronger security procedures. However, these 
airports are being asked to shoulder a heavy financial burden. 
For example, the Central Illinois Regional Airport in 
Bloomington-Normal will likely need to spend as much as $30,000 
per month for additional security measures. These funds are 
above and beyond what has been budgeted and could create a 
financial hardship for the airport. The Department should 
explore ways to help smaller airports by providing resources 
and technical assistance to upgrade security and enhance 
passenger safety.
    With regard to on board security, I am encouraged by 
Monday's announcement that federal law enforcement officers 
will resume the sky marshal program. This gives peace of mind 
and real safety assurances to the traveling public. I am a 
cosponsor of Senator Hutchison's Emergency Aviation Security 
Act, which would reinstate the federal sky marshal program.
    However, I believe we can do more. Clearly, we have the 
technological expertise to explore additional cockpit security, 
from video cameras to tamper proof transponders. While we 
pursue common-sense solutions like stronger and more secure 
cockpit doors, we shouldn't delay developing high-tech 
solutions that very well may save lives.
    Finally, the airline industry is still reeling from last 
week's senseless attacks. While carriers are doing their best 
to resume operations while implementing stringent new security 
procedures, it's clear that they face a significant economic 
loss, both short- and long-term.
    It has been estimated that the industry is losing $250 to 
$300 million a day as a direct result of the attacks. In fact, 
some airlines have already announced major layoffs--nearly 
90,000 employees throughout the industry. Chicago-based United 
Airlines announced lay offs of 20,000 employees. Milwaukee-
based Midwest Express has cut 15 percent of its workforce. 
American Airlines will trim 20,000 jobs. U.S. Airways will be 
cutting 11,000 jobs while Continental scales back by 12,000 
employees. Last week, Midway Airlines permanently shut its 
doors. And now the Boeing Company has announced a workforce 
reduction of up to 30,000 employees by 2002 due, primarily to 
falling aircraft orders.
    I strongly support legislation that would help the airline 
industry get back on its feet through special grants and loans. 
This industry is simply too important to my home state of 
Illinois and to the nation for it to face an uncertain future. 
So many Illinoisans and Illinois communities rely on commercial 
service for economic development and tourism, not to mention 
the more than 50,000 airline jobs that are based in the 
Chicagoland area and throughout the state.
    I appreciate the difficult tasks that lie ahead for the 
Department, the Congress, and our nation. Together, we can 
craft common-sense solutions that protect passengers and ensure 
that our aviation system is the safest in the world.

    Mr. Rogers. Mr. Callahan.
    Mr.  Callahan. Thank you, Mr. Chairman. I will be brief 
because I think it is important that we go into executive 
session as quickly as we can.
    Obviously, we have some very chilling deficiencies in the 
system. I do not think this committee's role is to lay blame on 
anyone, but rather as appropriators to find out what resources 
you need to correct the problems. We are not an authorizing 
committee and we are not permitted to make rules and 
regulations. We are appropriators. I think that we have shown a 
great willingness to the executive branch of the government, 
both with the financial problems facing the airline industry 
and with DOT, by saying there are deficiencies, tell us what 
you need to correct the problem.
    This business of just asking people if they packed their 
own bags is not working. In fact, it is asinine that we go 
through that. The fact that we have noncitizens who cannot even 
speak English scanning people--undereducated, unable to speak 
English, and not doing an appropriate job because they are 
undertrained and underpaid.
    We are coming to you as our representatives in the 
executive branch of government and telling you we have the 
money, we will provide it for you, provided you tell us what 
you want, and we need answers immediately.
    I think, Madam Chairman, the quicker we go into executive 
session so we can find out some of these problems, the more 
concerned we are going to be and the more willing we are going 
to be to work with DOT to correct the problems. We need to do 
this, Mr. Secretary, immediately. We need to begin this process 
before we recess this year, which we are going to try to do 
before the end of October. We need to provide you with 
resources, if indeed you need them, or authorization if you 
need any authorization.
    So I am ready, willing, and able to go into executive 
session to listen to the other horror stories that we do not 
want to make public, and with good cause, but to tell you that 
our role in this play is as appropriators who provide 
resources. We are willing to do that. You justify what you need 
the money for.
    Thank you.
    Secretary Mineta. That is very reassuring, Congressman 
Callahan. Thank you very much.
    Senator Murray. Senator Bond.
    Senator Bond. Thank you very much, Madam Chairman.
    Mr. Secretary, Administrator Garvey: First, I join in 
saying, thank you for the tremendous job that you have done. 
Really, you took heroic actions to minimize potential future 
danger. In the long and very difficult hours since then you 
have been very responsive. I can only imagine the amount of 
burdens on your shoulders. Thank you for doing that.
    Now, there are a number of things that I may or may not be 
able the touch on in this time, but I am interested in the 
security issues, and I happen to feel that somehow we need to 
have Federal law enforcement officials doing the screening. I 
am advised that at the St. Louis Airport the turnover of 
screeners is 416 percent per year. That kind of makes you 
wonder about how well qualified they could be if they are 
turning over that fast.
    But I have been exploring and discussing on the floor a 
number of things we need to do to help the airline industry, 
and I want to take this opportunity, since this might be my 
only opportunity to get to you, Mr. Secretary, in a public 
forum, to ask your view on the liability issue, because we are 
preparing to put in probably $5 billion to the airlines, $3 
billion to security.

                         LIABILITY OF AIRLINES

    It is my view that if we do not do something to limit the 
scope of liability to the carriers and provide backup so that 
everybody with a legitimate claim can be paid, that we will be 
dropping $5 billion down a rat hole. I made this argument on 
the floor and it was countered by someone saying: Well, do not 
worry about liability because any lawsuit is 3 to 5 years down 
the road. My understanding, and I ask your comment on this, Mr. 
Secretary, is it is not whether or how many lawsuits will 
ultimately result in judgments for plaintiffs, but the fact 
that there are potentially 5,000 plus, plus, plus lawsuits out 
there that is inhibiting the ability of the airlines, even the 
relatively well-to-do airlines, getting the continuing funding 
they need, the short-term funding, and inhibiting the ability 
of other airlines just to get the cash they need to keep 
operating in the next couple of months. The prospect of 
unlimited liability going forward without some war risk 
protection that you have proposed makes it unlikely that they 
will be able to buy the insurance that you require them to have 
before they operate.
    Would you comment on that for the record, please, sir?
    Secretary Mineta. First of all, New York has what is 
referred to as a collateral damage liability law. So right off 
the bat, United and American Airlines are facing tremendous 
liability.
    Senator Bond. If I may interrupt, Continental conducted the 
screening and USAir brought some of the passengers in.
    Secretary Mineta. That is correct. You are absolutely 
right. I suppose if you wanted to, if I get in a taxi and get 
on Continental and then get on United Airlines, then someone 
could take it all the way back to the taxi company if they 
wanted to.
    But in any event, part of the problem is now the capital 
markets have dried up for the airlines. So that is why in this 
legislation that will be coming to you there is a provision 
dealing with the whole issue of liability, both retrospective 
as well as prospective. The details of that are being worked 
out right now, but the liability issue is very, very big for 
all the airlines. So that is going to be an integral part of 
that package.

                           Airline operations

    Senator Bond. In your judgment--and I might ask the 
Administrator to comment on it--are we likely to see airlines, 
significant airline carriers, unable to continue because of a 
lack of availability of access to the financial markets without 
this liability limitation?
    Secretary Mineta. I believe that is the case. That is the 
case right now.
    Senator Bond. Madam Administrator, is that the case?
    Ms. Garvey. It is, Senator.
    Senator Bond. So you are saying that if we are going to 
appropriate money, as I strongly believe we must, and I support 
what appears to be developing as the administration's package, 
that must, in addition to including the assistance for the 
airlines in security measures, it must include liability 
protections as well?
    Secretary Mineta. That is correct. The other piece of it is 
the fact that in some instances--in meeting with one of the 
CEO's of an airline, he said that they had already received 
their 7-day cancellation notice. Others are finding tremendous 
increases in their insurance premiums. So it is not only a case 
of insurance premiums going up, but it is also in some cases 
insurance not being available to them at all.
    Senator Bond. Thank you very much, Mr. Secretary.
    Thank you, Madam chair.
    Mr. Rogers. Ms. Kilpatrick.

                       airline employee benefits

    Mrs. Kilpatrick. Thank you. Thank you, Senator Murray, as 
well as Congressman Rogers, for having this hearing.
    Of the money being appropriated, $3 billion from what I 
understood the Secretary to say earlier as a part of the $40 
billion that was passed last week; another $5 billion which we 
think will be in a new supplemental to recapitalize the 
industry; and the $12.5 billion in loan guarantees, is there 
language--and I am stressing in the strongest way possible that 
there be language--that would make sure that those dollars go 
to not just security, but the employees?
    We have heard today over the last 24 hours that nearly 
100,000 employees will be laid off. Where will those employees 
be laid off? What kind of benefits will they have? What kind of 
health care will they be able to obtain for themselves and 
their families?
    I want to make sure that these moneys do not go to the 
CEO's and other high-ranking officials who already make over $1 
million a year. I want to make sure that the money does not go 
to the stockbrokers, although I am a stock owner in some of 
them and we may take a brunt. It has to go to the families who 
have also been serving these airlines.
    There has been a lot of discussion, and I would like you to 
answer that, Mr. Mineta. I want to make sure that when we do 
infuse the money into the industry that it goes to securing the 
industry and making whole as much as possible those employees 
who have served well. No more curbside check-ins, so that is 
inconvenient for a lot of us. What happens to all of those 
employees? What happens to the baggage handlers and all that?
    Secretary Mineta. The latter part of last week, maybe on 
Thursday or so, because most of the focus was on foreign and 
military relations and operations, the President established, 
let us call it, the DCPC, Domestic Consequences Policy 
Committee. So there are a number of us who are part of that 
Domestic Consequences Policy Committee. One of the things that 
the President has explicitly outlined is to make sure that 
unemployment benefits, that retraining moneys and programs that 
are similar to what would be otherwise available under the 
Trade Adjustment Act assistance, would be there for those in 
the airline industry.

                         airport security firms

    Mrs.  Kilpatrick. Happy to hear it, and I will continue to 
work with that. But finally for me, this company that is in 46 
airports, that had the low bid contract and non-citizens that 
handle security, and has criminal convictions, who hired them?
    Secretary Mineta. The airline is the one that contracts 
with each----
    Mrs. Kilpatrick. An airline? One airline? So do they all go 
together and hire them or does each airline?
    Secretary Mineta. The airline hires the company and then 
the airlines--well, let me have Ken maybe go into that, because 
he has maybe got the list of airports with the contractors.
    Mr. Mead. Different airlines can hire the same security 
company and that does happen.
    Mrs. Kilpatrick. Obviously, low bid?
    Mr. Mead. In some airports, Dulles for example, you have 
the airlines get together there, they hire one vendor. In the 
case of Dulles it is Argenbright. In the case of other 
airports, where you have an airline, say, that has a dedicated 
concourse, and you have two or three concourses at that 
airport, you may have in fact three different firms providing 
the security, each hired by a separate airline.

                  Federalization of aviation security

    Mrs. Kilpatrick. Really, finally for me is the suggestion 
that much of what I have read today and has been said before, 
the suggestion that the Federal Government become more active 
in that and that we take that responsibility from the airlines 
and perhaps do something more federally. Mr. Secretary, Madam 
Garvey, what is your position on that?
    Secretary Mineta. We are looking very actively at that 
whole issue of what some people have called nationalization. 
Some people have referred to it as federalization. In any 
event, it is going to be an enhanced system, better than where 
we have been, let us say, on the 11th of September. In fact, 
right away, before the airlines were able to get back in, we 
had increased the security measures.
    But on the screeners specifically, one of the things we 
will be looking at is this whole issue of federalization.
    Mrs. Kilpatrick. Thank you, Madam Chair, Mr. Chairman.

                    COCKPIT SECURITY--DOOR HARDENING

    Senator Murray. Thank you.
    I am going to ask just one quick question and then turn it 
back over to those who have not had an opportunity. Mr. Queen, 
while you are here and we have your expertise, we have heard a 
lot in recent days about hardening the cockpit doors with 
kevlar and some kind of suggestions like that. From your 
expertise, can you tell me if there are specific safety 
tradeoffs if we were to require those doors to be hardened?
    Mr. Queen. The short answer is yes, because as you look at 
the doors, at least in our models today, anywhere between 80 
pounds to 130 pounds of force is required to open the door, and 
they are designed to open at that force because they are the 
vent path in the event of a decompression. So at a very low 
delta psi, on the order of a tenth of one pound pressure on 
that door, they open. It adds up to about that much.
    The reason why that happens is you need to protect the 
basic structure of the airplane. So a quick example is, on the 
757, if you were able to increase that to one psi, hold the 
door to that level of pressure, you have put about 9,000 pounds 
of pressure on the bulkhead and 6,000 pounds of pressure on the 
cockpit floor, and both the floor and the bulkhead have control 
cable runs that are critical to the control of the airplane, 
and you could not ensure that those bulkheads or floor would 
not fail and you would lose control of the airplane as a result 
of that.
    So clearly there are things we can do to make the doors 
more secure, but since they are the only available venting path 
out of the cockpit, we have to also make sure we meet that 
equal pressure requirement, which is why we have to be careful 
not to rush into something without understanding all the 
consequences.
    Senator Murray. Thank you very much.
    Mr. Rogers. Mr. Tiahrt.
    Mr. Tiahrt. Thank you, Mr. Chairman. I do have a statement 
I would like to put in the record and go directly to my 
questions.
    Ahead of us I think there is a bright day in aviation, but 
a lot of things are going to have to happen before we get 
there. We have talked about these things. We have seen them on 
the television, heard them on the radio. We have talked about 
them in this committee, we have talked about the need for sky 
marshals and increasing the strength of security doors. But 
there are some things that we have not talked much about. We 
can begin to look at some of the employees whose lives have 
been disrupted. And while there is no comparison as we look at 
the families of those who lost their lives.

          manufacturers financial impact and federal response

    When we look at the people whose lives are going to be 
disrupted, I would urge, Mr. Secretary, that the administration 
create a policy which addresses these work interruptions and 
layoffs. The Administration should allow employees who have 
lost their jobs, whether they were working for the airlines or 
for aircraft manufacturers, to receive benefits in terms of 
retraining and education or perhaps a hardship withdrawal on 
401[k]'s without any penalty. These steps will help to soften 
the blow. Perhaps we could create a program which would allow 
an employee to move from a technician to an engineer or from a 
parts deliverer to a machinist. Such a program would let them 
improve their lives while their employment is interrupted.
    Administrator Garvey, there are several long and 
complicated things that I would like you to consider and 
perhaps get back to me with your thoughts. We are seeing some 
ripple effects that get to Wichita, Kansas. There may be as 
many as 4,000 or 5,000 people laid off at the Boeing Company 
alone. There are three other manufacturers in that area--
LearJet, Beech, and Cessna. Each of them are impacted because 
they are single-engine aircraft, they are business jets, they 
are charter jets.
    We do not know the impact, but I would like for you, Mr. 
Secretary, and you, Administrator Garvey, to include in a 
financial stabilization package, small manufacturers as well as 
large manufacturers like Boeing, because they are going to be 
impacted by this event of September 11. Just one sentence would 
solve that problem and allow them to stabilize the jobs they 
have for their people and also the industry that they are such 
a vital part of. That one sentence is to include in 
protections, ``air carriers and other companies that hold FAA 
certificates and rely on U.S. airspace to conduct their primary 
business.''
    If you could give me some assurance that you will fight for 
those people who are part of this ripple effect, I would be 
very happy.
    Secretary Mineta. There is nothing in there to limit it in 
terms of what kinds of companies would be eligible, other than 
that, for instance, some of the funds are for airports, some of 
the funds would be for airlines. The airlines could be major 
commercial or it could be a cargo.
    Mr. Tiahrt. Or it could be charter airplanes, I am 
assuming, too, charter airlines?
    Secretary Mineta. Charter? 91, I am not sure. I do not 
think Part 91 is covered. I am not sure. Part 135 and Part 121 
are covered, but I am not sure it gets down to the Part 91 
charters.
    Mr. Tiahrt. As you and Deputy Secretary Jackson get into 
the recommendations that come from the administration, I hope 
that you will include small manufacturers as well as larger 
manufacturers of aircraft, the charter companies. They are part 
of this air transportation industry that is 10 percent of our 
gross domestic product. They are a very important spoke in our 
economic wheel, and if one part of it is shaken, I am afraid it 
will have additional bad effects.

             Impacts on general aviation and flight schools

    Administrator Garvey, I would like you to get back with me 
on any indication of security measures that may be proposed for 
general aviation as a result of these terrorist attacks. Also, 
I note that the pilots association has been outstanding to work 
with as far as the FAA and they have some good recommendations. 
I would like to know what guidance you have given your staff 
and organizations involved with them in terms of helping craft 
a solution for class B flight training prohibitions and what 
will be acceptable for the future.
    My third concern is about these flight schools. We know 
that some of these terrorists were actually trained in 
America's flight schools. I think that is an awful, awful 
thing. Certainly it clouds everything. But in the future we 
want people to fly. We have a pilot shortage now. Perhaps we 
could develop some guidelines, some red flags. I do not want to 
penalize flight schools because we had a deficiency within the 
INS. We should be able to give them some kind of guidelines so 
that they can operate safely and protect our skies and yet 
continue with the business of training future pilots. I believe 
that is very important for our industry. Please give me some 
kind of an idea as to what guideline or direction you plan to 
go in those areas, because my goal is to have safe skies and 
people back traveling again and feel confident in doing that.
    Ms. Garvey. Congressman, we actually are working on that 
today. That was one of the areas, when we lifted the ban last 
night on some of the restrictions in aviation, that was an area 
that was still outstanding. We heard mention this morning about 
perhaps doing background checks on some of the students who 
would register at the flight schools. We are looking at a 
couple of other recommendations as well.

                           PREPARED STATEMENT

    So if I could get back to you in a day or two as we think 
those through and talk them through among ourselves, I will do 
that. We know it is a real issue, not just for your State, but 
for other States as well.
    Thank you.
    Mr. Tiahrt. Thank you.
    [The statement follows:]

             Prepared Statement of Congressman Todd Tiahrt

    The terrorist attacks last Tuesday left an enormous void in the 
hearts of all Americans. It has not only had an emotional impact on our 
nation, it is having an economic impact as well.
    I would not begin to compare America's horrible loss of lives to 
the potential loss of jobs as a result of this horrific act. However, I 
believe it is the responsibility of both Congress and the 
Administration to guarantee that the air industry moves forward. As we 
work to secure air travel for all citizens, we must work to secure the 
jobs of those who depend on this industry for their livelihood.
    Mr. Secretary, as you know it's not just the pilots, flight 
attendants, and CEOs of the major commercial carriers who feel the 
pinch of an industry-wide slowdown. It's the Skycap who doesn't know if 
he can count on checking bags at curbside to make a living. It's the 
counter agent whose job will be among the first to go if travel doesn't 
pick-up. It's the Travel Agent who fears for the future of her small 
business as a result declining bookings. And it's any of the thousands 
of workers, such as those at Boeing, who face massive layoffs as a 
result of the impact this tragedy has had on the commercial aircraft 
production industry.
    There is no spoke more important to America's economic wheel than 
the air industry. And one of the most important components of that 
spoke is general aviation. As you know, the shutdown of the National 
Airspace System had a significant economic impact on general aviation 
and the long-term viability of many GA companies has been threatened. I 
urge my colleagues in the House and Senate, as well as President Bush, 
to remember the issues facing general aviation in any efforts to craft 
a financial stabilization package. This sector of the air industry is 
vitally important to America's transportation system, manufacturing 
base, and our economy.
    Thank you for appearing before the committee today and I look 
forward to working with you as we strive to protect America's air 
passengers and strengthen our air industry.

    Mr. Rogers. Secretary Mineta has another engagement that he 
is late for already. We have kept him now half an hour past the 
time he allowed for us. Before he leaves, if any of the 
remaining four members would have a quick question for the 
Secretary before he is excused, we would entertain that now. 
But we hope you would be very brief.
    Mr. Aderholt.

               database tracking of potential terrorists

    Mr. Aderholt. Since before the terrorist attacks, I 
understand that there has been the use of a computer database 
scripting language mechanism that has been used by the 
Department of Defense to link different databases together in 
order to compare and correlate their data. I understand that 
meetings have recently taken place between the FAA and the 
companies that could provide this technology. I think this is 
something that the FAA should take into consideration to see if 
there can be an implementation of some kind of database so that 
they can review the technology to screen out those potential 
terrorists that could be on there.
    I just wanted to ask you what your thoughts on that might 
be.
    [The information follows:]
                   General Aviation Security Measures
    The security measures the FAA currently is working for general 
aviation primarily involve air traffic restrictions. In addition, to 
enhance security of aircraft operations, on October 1, 2001, the FAA 
issued Special Aviation Regulation (SFAR) 91, which imposes security 
requirements for the following operations, including general aviation:
  --1. Aircraft that enplane passengers from or deplane passengers into 
        a sterile area, and
  --2. Aircraft weighing more than 12,500 pounds maximum certificated 
        takeoff weight. For this category, notification of the security 
        procedures would be in the form of a NOTAM (Notice to Airman), 
        which may or may not direct implementation of the procedures 
        for all affected operators simultaneously.
    The SFAR:
  --1. Immediately implements security procedures for private charters 
        and all other operations in which persons are enplaned from or 
        deplaned into a sterile area, regardless of aircraft weight. 
        Security procedures include the screening of passengers, crew, 
        other persons, and their accessible property and aircraft 
        searches.
  --2. When activated by FAA by NOTAM, implements security procedures 
        for operation of aircraft in excess of 12,500 pounds maximum 
        certificated takeoff weight except for those required for 
        security measures under parts 108 and 129, regardless of 
        enplanement and deplanement through a sterile area. The FAA is 
        closely monitoring threat information and if conditions 
        warrant, the agency is prepared to impose additional security 
        measures.
                             flight schools
    The FAA continues to consider what security measures might be 
effective and appropriate for flight schools. Criminal history 
background checks for persons applying for enrollment in flight schools 
are among these; however there are some practical problems. Flight 
schools train many foreign students who come to the United States 
specifically for pilot training. As foreign citizens, they would not be 
tracked in U.S. law enforcement databases. In addition, criminal 
history checks would not necessarily deter an individual from receiving 
flight training, since an individual can arrange for informal, non-
regulated training.

    Secretary Mineta. Let me turn to Administrator Garvey on 
where we are on the database technology.
    Ms. Garvey. Well, you are absolutely right, those 
discussions have been under way. It is something we are looking 
at aggressively and it may very well be part of the program as 
we move forward with some of the money that we have received 
from Congress and from the President. This may be something 
that we will target. It is not something that has been, as you 
know, a high priority for us because of other competing 
interests in the past, and we also obviously want to hook in 
with the FBI and with the other intelligence agencies as well. 
So those discussions are ongoing and we would be happy to keep 
you and your staff informed of that.
    Mr. Aderholt. Thank you.
    Thank you, Mr. Chairman.
    Mr. Rogers. This only applies to the Secretary. If you have 
a peculiar question that only he can answer, let us ask that 
now. Then we will come back to the others.
    Ms. Granger.

                      SKY MARSHALS IMPLEMENTATION

    Ms. Granger. I have one question. I do not know, perhaps it 
is not yours. But I understand it takes 14 weeks additional for 
sky marshals for special training. If that is true, then if we 
said do it or you said do it, how long would it be before they 
would be on the planes?
    Secretary Mineta. We hope to have sky marshals in the air, 
in terms of the new group we are getting in right now, very, 
very quickly. I do not know where the 14 weeks figure came 
from, but no, it is going to be much quicker than that.
    Again, just for security purposes, we just have not been 
talking about how many or when they are going to be on board. 
We already had a small force, but we are having it implemented 
through other agencies that are volunteering their folks to be 
trained quickly. In the meantime, as we get those temporary 
folks into the airplanes, we are going to build up our own air 
marshal program. So those will be on board very quickly.
    Mr. Rogers. Mrs. Emerson.
    Ms. Emerson. Mr. Secretary, I would love to ask you a 
question, but I am going to save mine for Ms. Garvey.
    Mr. Rogers. Mr. Sweeney.

                       airline solvency proposal

    Mr. Sweeney. Thank you, Mr. Chairman. I will be very brief. 
In fact, I want to thank the Secretary and the rest of the 
panelists for being here. I am going to make a point, because I 
am going to submit my questions to you or speak to your staff 
directly.
    But like Senator Byrd and many other members, I have had 
great consternation, as you know, as it relates to the airline 
performance. Lest I appear to be gratuitous here, I, as one 
member, suffered losses on the 11th. So I would urge you in 
your negotiations with the airlines on the solvency package to 
develop as comprehensive a response in terms of their role as 
corporate citizens, because that mindset, I believe, as one 
member, led in part to some of the lapses that we have now.
    So I would urge you to understand that many of us are going 
to move in the direction we need moving, because we recognize 
national priorities here. But underneath that is a deeper 
problem, as you know.
    Secretary Mineta. We recognize that as well, sir.
    Mr. Rogers. Mr. Secretary, we realize you are late for your 
meeting and we deeply appreciate your agreeing to stay this 
extra half hour. We are going to let you go about your 
business. We hope the other members of the panel can stay 
briefly for any remaining questions the members have not had a 
chance to ask. But thank you so much, Mr. Secretary, for being 
here. We congratulate you on your good work.
    Secretary Mineta. Thank you very much, Mr. Chairman, Madam 
Chairman. Thank you very much, and to all the members of the 
panel.
    Senator Murray. Thank you, Mr. Secretary. We appreciate you 
being here. We will let you go, and I will ask our members that 
did not have their 5 minutes to quickly ask their remaining 
questions. We do want to recess and reconvene in Hart 219 as 
quickly as possible in a closed session.
    Mr. Rogers. Mr. Aderholt?
    Mr. Aderholt. No.

               DATABASE TRACKING OF POTENTIAL TERRORISTS

    Mr. Rogers. Ms. Emerson.
    Ms. Emerson. I want to just address something, and this 
might be something that we actually need to talk about in 
closed session, but it goes back to what Robert was talking 
about as well as others at the beginning. You know, I think we 
have a lot to do for the second, third, fourth lines of 
defense, if you will, to stop a potential hijacker. But we 
still have not attacked and we still must address the first 
line of defense, which is when somebody books a ticket on an 
airplane how can we find out very quickly if that person is on 
a potential list of suspects.
    It is something that I have been studying, that the Israeli 
government does. I think that it would be certainly an 
important investment for us to try to determine how to best 
weed those folks out before we even proceed to a security 
checkpoint in an airport. I cannot tell you how strongly I feel 
about that, because so much--it appears that if we were able to 
do that, and I am certain the technology is there to do that, 
and the cooperation could be there to do that, that many of 
these problems may possibly be averted in the future.
    So, please.
    Ms. Garvey. Congresswoman, thank you. Let me say, first of 
all, there is a process in place and I would appreciate the 
chance to talk about that in more detail in closed session. 
Having said that, I think that you raise an excellent point, 
which is are there more technologies out there, are there other 
procedures that we need to put in place. So again, what I would 
like to do is cover what we do in closed session and then offer 
some thoughts on other things we are thinking about.
    Ms. Emerson. Thank you.
    Senator Murray. Thank you.
    Senator Domenici has asked for 3 minutes of time before we 
adjourn and I would be happy to allow him that.

                  airline safety and public confidence

    Senator Domenici. Thank you very much, Madam Chairperson.
    I just wanted to make an observation for you all and to ask 
if you agree. First let me ask, before this terrorist act were 
American citizens flying in airplanes safe? Was it a safe way 
to travel?
    Ms. Garvey. Yes.
    Senator Domenici. Has anything changed so that it is unsafe 
now as compared to 3 weeks ago? Should the American people be 
worried about flying American airlines once you release them to 
fly? Who wants to answer that? Do you, Jane Garvey?
    Ms. Garvey. Thank you very much, Senator. Certainly before 
the 11th, I think all of us really believed that the system was 
safe. I think what we encountered on the 11th was something 
that none of us had ever imagined possible. As I mentioned a 
little bit earlier and mentioned again this morning, much of 
what we had focused on in the area of security never took into 
account someone who is willing to commit suicide and was 
willing to use an airplane as a lethal weapon.
    So in that sense it has changed all of the rules. We are 
asking ourselves every day, of course, what else we should be 
doing, what else we can be doing. Congress has certainly raised 
questions. The chairman started with the three areas that we 
are focusing on: more Federal marshals, securing the cockpit, 
much better security system, even federalizing it, as has been 
suggested. I think those are all steps we must take to deal 
with what is a very new reality for us.
    Senator Domenici. I just want to say, before this act, it 
was my opinion as one Senator that the American economy was in 
recession. I believe that will be proved up here in about a 
month or less, that we are growing at a negative rate. If you 
stay there for a couple of quarters, it is deemed to be America 
in recession. I think that was going to happen whether or not 
the terrorist attack occurred.
    What I am fearful of is that it will last longer than it 
should because the American consumers will not return quickly 
to their original habits and be American consumers, who buy a 
car if that is what they intended to do, or add to their house 
or go shopping and buy some new clothes for the ensuing season. 
If there is fear among the American people and they do not 
return to being consumers, I am very fearful that we will have 
a recession that will last very long, because the consumers are 
going to lead us out of it.
    So I am very hopeful that wherever you can, everybody in 
charge of our American airline industry, as soon as possible 
tell the American people with confidence that it is safe to 
fly. I think in that context it is as safe today as it was 3 
weeks ago, once you let the airlines all take off and clear the 
airports. I think that is what will be the case. It will be as 
safe or safer than it was.
    I am hopeful that the American people will believe that 
that is the case, so they will start flying again, and they 
will also believe that it is time to buy the car they planned 
to buy, not wait around. The terrorists will have won if our 
consumers wait around because they are fearful.
    Do you have any thoughts on that?
    Ms. Garvey. Restoring public confidence is really what we 
are very, very focused on. The methods that we are taking, the 
fact that we will be using the system ourselves, I hope will be 
the right steps. I think certainly the suggestions that we have 
heard today are absolutely initiatives we must undertake and 
undertake quickly.
    Senator Domenici. Thank you very much. I appreciate it.

                     Additional committee questions

    Senator Murray. Thank you.
    Senator Shelby was unable to be here in this open session 
today. He was in New York City reviewing the damage.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Question Submitted by Senator Herb Kohl
                          container hardening
    Question. In light of the recent disaster, it is expected that the 
FAA will greatly increase its security spending. And while greater 
security on the ground will clearly be a priority, we must not overlook 
the continued threat posed by in-flight explosions. In 1991, the 
Aircraft Hardening Program was initiated, which included funding for 
the Hardened Container Project. The goal of the program is the 
protection of commercial aircraft from catastrophic damage or critical 
system failure due to in-flight explosions. What is the current status 
of this project? It is my understanding that this project has required 
a great deal of cooperation between the FAA and the air carriers. Have 
the air carriers assisted the FAA in the implementation of the project? 
Does the DOT plan on using a portion of the supplemental that was 
passed by Congress last week for the Hardened Container Project?
    Answer. The Transportation Security Administration (TSA) continues 
to support the hardened container program and is attempting to foster a 
relationship with U.S. air carriers to support another operational 
demonstration program. To date, one of the major difficulties in 
executing an operational demonstration has been the lack of a U.S. air 
carrier willing to assist in the evaluation effort. Operational data 
gathering has been limited to the demonstration program with Tower Air, 
which is no longer in business.
    Since air carrier ground handling equipment and procedures vary, we 
anticipate other modifications to accommodate air carrier operations 
will be necessary. Damage tolerance limits have yet to be established 
for hardened containers. Therefore, once the units exhibit any visible 
damage, their blast-resistance cannot be assured and the units should 
be pulled from service for repair. An operational evaluation would 
provide the opportunity to establish damage tolerances for the 
containers.
    Unfortunately, the level of support provided by U.S. air carriers 
prior to 9/11 was minimal. Both Federal Aviation Administration (FAA) 
and now the TSA have worked with the airline industry in developing the 
fabrication standard for the hardened container, but there has not, so 
far, been a significant level of interest on the part of air carriers 
in taking steps to implement the project.
    Within the supplemental passed by Congress, there is $100 million 
of operational funds available for the aircraft hardening program. 
However, these resources will be used for cockpit hardening rather than 
container hardening.
                                 ______
                                 
         Questions Submitted by Senator Ben Nighthorse Campbell
                         lines of communication
    Question. Every time we have a hearing involving the FAA and/or the 
airlines, the question of the stability of the line of communication 
between the airlines and their customers is always raised. Now it is 
clear that the line of communication between everyone involved in air 
travel--the FAA, Federal authorities, airlines, and customer--is 
severely deficient, if not to say completely inadequate. What steps are 
you going to take to improve this so that information moves quickly and 
accurately from the air traffic controllers to the airlines to the 
passengers, and most importantly, to the appropriate agencies in the 
event of an emergency?
    Answer. The FAA, in concert with the Department of Defense, NORAD, 
and other federal agencies, has in place policies, procedures, and a 
communications infrastructure to monitor aircraft for suspicious 
activity and deviation from authorized flight. Awareness, refinement, 
and training on these policies and procedures since September 11, 2001, 
are on going. A system is in place for interagency, DOD, and law 
enforcement information sharing to facilitate each organization's 
requirements. Additionally, the FAA is currently working with the 
Office of Homeland Security and other agencies to meet interagency 
requirements for enhanced ground/ground communications and surveillance 
availability. Certain current and planned technologies are considered 
Security Sensitive Information (SSI) and are prohibited from 
dissemination.
                              cockpit door
    Question. A recent Washington Post article reported not only FAA 
concerns with the cockpit doors, but also individual pilots concerns 
with the fact that these doors are flimsy and easily penetrable. It 
seems to me that these doors are probably no more effective than the 
curtains that separate the first class cabin from the rear of the 
plane. In light of the recent testimony of the men convicted of the 
1993 World Trade Center bombing regarding the use of hijacked airplanes 
in a terrorist attack, such as the attacks of September 11th, 2001, why 
hadn't the FAA taken appropriate precautions after such a clear 
warning?
    Answer. No specific and credible information regarding an active 
conspiracy to use a commercial aircraft as a weapon against U.S. 
targets was passed to the FAA prior to the events of September 11, 
2001. Regardless, clearly we could have done more to prepare for such 
attacks.
                         security loophole rule
    Question. For years we have realized that there is need to increase 
the levels of airline security and to assess threats and to coordinate 
actions to deal with these threats. One commission after another has 
been created to look into how to deal with these threats. Rules to 
tighten security loopholes were proposed in 1997 and were to take 
effect this month. Why has it taken so long for these rules to go into 
effect?
    Answer. The vast majority of the measures recommended by both the 
1990 President's Commission on Aviation Security and Terrorism 
following the Pan Am 103 disaster, and the 1996 White House Commission 
on Safety and Security following the TWA 800 crash, have in fact, been 
implemented.
    The implementation of some recommended measures have been 
difficult. The rulemaking process requires an agency to properly 
consider and evaluate quite substantial industry comments, write and 
coordinate the lengthy final rules, implement security program 
requirements, and deploy systems for detection and measuring 
performance at airports. FAA is also required to complete a thorough 
analysis of the impact of the rules on small businesses. There was 
significant OMB interest in these rules that would affect many small 
entities as defined by the Small Business Administration. FAA 
estimated, but could not conclusively determine, whether or not the 
proposed rules would have a significant economic impact on a 
substantial number of small entities. Therefore, FAA undertook an 
outreach to small businesses and conducted listening sessions during 
extended comment periods.
    In the meantime, numerous improvements were implemented via air 
carrier and airport security programs or through Security Directives in 
response to immediate threats. The change in perspective produced by 
both the terrible attacks of September 11th, and by the increased 
awareness of the threat posed by Al Qaeda worldwide will make the full 
implementation of appropriate security measures much quicker in the 
immediate future.
                              cross-check
    Question. Two of the accused hijackers were listed on the FBI's 
list of terrorists to watch. We know that these men were on the planes 
because their names were listed on the flight manifests. How could 
these men purchase tickets and board a plane when they are on the FBI 
list of terrorists without any second glances?
    Answer. Prior to September 11, 2001, as a matter of routine, FAA 
was not provided comprehensive watch lists from the FBI and other 
agencies on individuals of interest to those agencies. As of September 
11, 2001, the FBI and other entities provide information on a case-
specific basis to the FAA concerning individuals who pose a threat to 
civil aviation. To the extent such information is authorized for public 
release, it is used by the FAA to alert air carriers to such 
individuals.
    Question. It is so easy to check whether a person is using a stolen 
credit card or trying to cash a bad check. Why is it so difficult to 
have a cross-check system, not only with the FBI, but with all law 
enforcement agencies, to see if there are any threatening people 
purchasing tickets or checking onto our nation's airplanes?
    Answer. We believe this technique does in fact have merit and are 
pursing ideas of this type.
                           security personnel
    Question. Airlines subcontract security responsibilities to 
companies with the lower bid who in turn hire inattentive, uneducated, 
and poorly trained security personnel without thorough background 
checks. The FAA's own tests have shown that security checkpoints can be 
easily breached. The FAA testers have casually thrown fake guns and 
grenades into purses and bags that went undetected by security. Fake 
identification badges are also used by testers and go unnoticed by the 
security personnel. What are the FAA's plans to overhaul how security 
personnel are hired and trained to make sure that the security 
deficiencies are corrected?
    Answer. With the assumption of direct federal responsibility for 
the screening of passengers, baggage, and cargo, the screening 
personnel working for the TSA will be better trained, better paid, and 
subject to thorough background checks.
                            general aviation
    Question. The FAA's shutdown of all flights last week has been 
having a major effect on general aviation companies. In states such as 
Colorado, small businesses that provide sight-seeing flights, crop 
dusting, and shuttle aircraft are experiencing enormous financial 
losses with no end in sight. What steps are you taking to ensure that 
general aviation companies and small business that depend on access to 
our skies are included in any possible aid packages while ensuring that 
these airports and aircraft meet increased national security 
regulations?
    Answer. We understand that the terrorist attacks of September 11 
have put a strain on general aviation companies. The Air Transportation 
Safety and System Stabilization Act, Public Law 107-42, which directs 
the President to provide compensation to air carriers, does not apply 
to general aviation companies. However, a financially healthy airline 
industry is a powerful engine for generating economic growth and 
prosperity. As air carriers are able to recover financially from the 
effects of the terrorist attacks, we are confident that other segments 
of the industry, including general aviation, will recover as well. The 
U.S. Department of Transportation has been working diligently to 
provide payment relief under the Act, and to date, the Department has 
already disbursed almost $4 billion to more than 300 air carriers.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                       airport security measures
    Question. Press reports indicated that two of the suspected 
terrorists were on an FBI watch list. Does the FBI or the Department of 
Justice supply these watch lists to the FAA? Does the FAA supply that 
list to airline carriers?
    Answer. Specific information on current procedures with respect to 
the use of intelligence and investigative ``watch list'' information is 
sensitive and may be provided in closed session. Prior to September 11, 
2001, as a matter of routine, FAA was not provided comprehensive watch 
lists from the FBI and other agencies on individuals of interest to 
those agencies. As of September 11, 2001, the FBI and other entities 
provide information on a case-specific basis to the FAA concerning 
individuals who pose a threat to civil aviation. To the extent such 
information is authorized for public release, it is used by the FAA to 
alert air carriers to such individuals.
    Question. Were American Airlines and United Airlines provided these 
names before this attack?
    Answer. No. American Airlines and United Airlines were not provided 
these names before this attack?
    Question. Is it routine for airlines to match up passenger lists 
with potential threat lists? And if these names were not provided, is 
this a procedure that should now be put in place?
    Answer. When the FAA provides names and other identifying 
information with respect to individuals thought to pose a credible 
threat to civil aviation, most airlines on a voluntary basis search 
reservation systems for possible matches. And in some instances where 
the information is sufficiently specific, they would be directed by FAA 
to take action to prevent such persons from flying.
    Specific measures to make more effective use of law enforcement and 
intelligence information are themselves sensitive and can be provided 
as appropriate in closed testimony.
    Question. The criminal investigation into last week's terrorist 
attacks is on going. Attorney General Ashcroft announced last week that 
new armed, plainclothes federal agents will begin flying on domestic 
commercial flights, augmenting the Federal Air Marshal Program. Putting 
armed marshals on the thousands of commercial flights every day will 
surely be expensive. And even with the promised new agents, it will be 
virtually impossible to patrol every flight. What additional steps are 
the Department of Transportation and the Federal Aviation 
Administration taking to ensure passenger safety?
    Answer. The Federal Air Marshal program has been greatly expanded 
since September 11. Details of this expansion and related activities 
are classified or sensitive security information. In addition, air 
carriers have strengthened cockpit doors, modified procedures to be 
followed in the event of an attempted hijacking, and taken other steps, 
some of which we would prefer to discuss in closed testimony. Some 
measures can be discussed in open testimony. The FAA and the TSA have 
reviewed a range of options that will contribute to increase security 
including, but not limited to: Hardening the flight deck door and 
associated bulkhead; continuous operation of the transponder; emergency 
alerting systems; video/audio surveillance on-board the aircraft; and 
arming the flight crews with non-lethal weapons and physical defensive 
tactics.
    With regard to these options, the FAA issued rules for hardening 
the cockpit doors, first mandating a ``quick fix'' within 45 days, 
followed by a permanent fix later.
    In addition, FAA formed a working group consisting of members from 
FAA, TSA, industry groups, Federal law enforcement agencies, and 
regulated Part 108 air carriers. The group's purpose was to update the 
``Crew Training Common Strategy'' to deal with new threats against 
civil aviation security. The Aviation and Transportation Act required 
the FAA to develop guidance for a new ``Common Strategy''. After 
significant participation from the groups mentioned above, the ``Crew 
Training Common Strategy--Detailed Guidance'' document was completed 
and distributed to regulated Part 108 air carriers on January 18, 2002.
    Question. The FAA has implemented strict new rules designed to make 
aviation travel safer. Many small airports in my State, however, have 
implemented emergency stopgap measures that will have to be replaced 
with expensive security service long-term. What will the Department of 
Transportation and the Federal Aviation Administration do to make sure 
that airports can afford these security measures?
    Answer. As you know, the Aviation and Transportation Security Act 
made many aspects of aviation security the direct responsibility of the 
Federal government. This includes direct supervision of passenger, 
baggage, and cargo screening and various law enforcement measures. It 
also created a mechanism for airports to obtain relief from the 300-
foot standoff distance (anti-car bomb) measures by substituting other 
equivalent, but less costly measures. The new TSA is committed to 
assisting airports of all sizes to have the most effective security 
possible that is commensurate with the threat and that is most cost 
effective. However, aside from costs to be borne by the TSA, other 
increased security costs, especially physical improvements, will have 
to be borne by the individual airports.
    Question. The airlines are reporting losses of $330 million a day 
due to decreased passengers and schedules. Also, many major airlines 
and airplane manufacturers have announced plans to cut back at least 20 
percent of their operations and lay off employees. All this will 
inevitably lead to airlines cutting service to some areas of the 
country. What are the Department of Transportation and the Federal 
Aviation Administration doing to ensure that air service will be 
maintained at small and rural airports?
    Answer. Following the attacks of September 11, airlines reduced 
service across the country. Based on an analysis the Department of 
Transportation (DOT) did in November, the service reductions among 
communities of different sizes were relatively proportional across the 
spectrum from large-hub airports to the nonhub airports to which you 
referred. That is, carriers have reduced service at the small, nonhub 
communities in approximately the same percentage as at medium and large 
hubs. Of course, individual communities may have suffered more or less 
than the average of the group. In addition, the Department's Essential 
Air Service (EAS) program provides a safety net to all eligible 
communities by guaranteeing them that they will maintain at least some 
level of air service that will link them to the national air 
transportation system.
    Question. How long will the airline bailout package of $15 billion 
keep the airlines going?
    Answer. The terrorist attacks of September 11th had a profound 
effect on the financial position of the airline industry. The DOT has 
disbursed nearly $4 billion of the $5 billion in compensation to 
airlines provided by the Air Transportation Safety and System 
Stabilization Act. In addition, America West was granted a loan 
guarantee in accordance with procedures established by the Act. 
Anecdotal evidence suggests that quick action under the Stabilization 
Act has had the intended effect of stabilizing the industry and 
restoring the confidence of the financial markets in the airline 
industry. We are beginning to see some encouraging signs in airline 
traffic due to increasing consumer confidence in the safety and 
security of air travel as a result of government initiatives to enhance 
airline security. Airline stocks are steadily improving as travelers 
head back to the skies and as analysts boost airline stock valuations.
    Question. What additional steps must Congress take to ensure the 
long-term viability of our nation's airlines?
    Answer. Though the financial condition of most carriers is 
improving, it is too early to tell how far the recovery process will go 
and how long it will take. It is premature to speculate about the need 
for additional steps that Congress might take to ensure the long-term 
viability of the airline industry. However, the DOT will continue to 
closely monitor developments in the airline industry and will take 
whatever steps we believe necessary to secure a safe, financially 
sound, and competitive airline industry.
    Question. A great emphasis has been placed on upgrading security 
measures at airports around the country. At this same time, though, 
ridership on trains and buses has increased dramatically over the past 
week. Press reports indicate that ID's and bags are not being checked 
at train stations and bus terminals around the country. What measures 
are being taken by the Department of Transportation to ensure security 
at these transportation terminals?
    Answer. The DOT has not taken any direct measure to ensure security 
at train stations around the country. However, Amtrak has increased its 
security immensely, placing surveillance in critical infrastructure 
areas such as bridges and overpasses. Amtrak has also tightened 
procedures for checking and confirming passenger identification when 
purchasing and obtaining train tickets. Additionally, it has instituted 
numerous other security measures to heighten security throughout the 
Amtrak system.
    The nation's transit systems are inherently ``open'' environments. 
They are designed to move people quickly to their destinations, and 
therefore must provide quick, easy access for passengers. In addition, 
they are intended to make low-cost transportation alternatives 
available for everyone. Unlike airports, where it is appropriate to 
check all bags being taken onto a plane, posting security checkpoints 
at every bus stop or subway station entrance would raise costs and 
reduce personal mobility to the point where public transportation would 
no longer be viable. The ``three-legged stool'' of security, personal 
mobility, and economic vitality is one that requires careful adjustment 
to ensure an appropriate balance. Recognizing this, the Federal Transit 
Administration's (FTA) security focus is on helping public transit 
agencies prioritize risks, manage risks to acceptable levels, and 
mitigate the impact of potential incidents.
    The FTA has undertaken a five-part security initiative to help 
enhance the security of the nation's public transportation systems. 
This is not a ``one-size-fits-all'' undertaking, as every transit 
system has different requirements. The five parts of the FTA's security 
initiative are: assessment, planning, testing, training, and 
technology. First, enhancing transit security must begin with an in-
depth, professional assessment of the threats to and vulnerabilities of 
each transit system. The FTA deployed expert security assessment teams 
to the 30 largest transit agencies to assess the security gaps in the 
agencies' high-consequence assets, including terminals, and to make 
specific recommendations to reduce the threats to acceptable levels. 
The second component is planning. The FTA is providing hands-on 
assistance to transit agencies as they develop and refine their 
security and emergency management plans in light of the security 
assessment findings and heightened terrorist threats. Third, The FTA is 
working with local transit agencies to conduct full-scale emergency 
drills to test their plans and equipment. Fourth, the FTA is offering 
additional security training and workshops. It is imperative that we 
have a transit workforce that understands security issues and is fully 
prepared to respond should a security incident occur. Transit workers 
are, after all, the ``eyes and ears'' of transit agencies, and they are 
in the best position to protect customers from potentially harmful 
situations. The final component involves technology and research. The 
FTA is identifying technologies that show promise in a transit 
environment and enhance security of our transit terminals.
                                 ______
                                 
              Question Submitted by Congressman Ed Pastor
         airline industry and related businesses emergency aid
    Question. Secretary Mineta, and Administrator Garvey, as a longtime 
supporter of the airline industry, this is an issue that is of major 
concern to me. I agree that this attack has had a disastrous impact 
upon the airlines, and Congress must act to save the industry. This is 
why I support your request for an emergency aid package.
    However, not only have I been an advocate for the airlines, but I 
have also been a supporter of the entire airline industry. As you know, 
this industry includes not just the major carriers, but the thousands 
of small businesses across the country that provide essential parts and 
services to the airlines as well. These supplies include women and 
minority-owned small businesses, many of which depend upon the airlines 
as a major or sole source of revenue. They not only lack the ability to 
survive a major downtown in airline travel, but also lack the clout and 
financial backing of other major creditors to the airlines carriers. I 
want to make sure that these establishments are not left to perish when 
we move to support the airline industry simply because their voices are 
not as loud as the major Wall Street players.
    If the Federal government appropriates direct aid to the major 
airline carriers, how could they be compelled to prioritize their 
financial responsibilities in a manner that is fair and equitable to 
all of those in the industry that have been financially injured?
    Answer. The Federal Aviation Administration (FAA) and the 
Department of Transportation (DOT) have a strong commitment to 
American's small businesses. As markets adjust to the impact of the 
terrorist attacks on the World Trade Center and the Pentagon, the 
strong working relationships between these businesses and the airlines 
will insure their survival.
    To further encourage economic recovery, DOT provided direct 
compensation under Public Law 107-42 to over two hundred air carriers, 
many of them small businesses. Funds paid to date total almost $4 
billion of the $5 billion that was authorized. Unlike the loan 
guarantee program also authorized by Public Law 107-42, compensation 
was mandated for those carriers who were eligible under the statutory 
criteria.
    In addition, DOT construed the legislation as permitting smaller 
carriers to receive payments even though they did not report financial 
and operating data. We also undertook several initiatives to lessen the 
regulatory burden for small businesses applicants: a separate 
application form was adopted for air taxi operators, and we are now 
considering methods to simplify for them the independent audit 
procedures that are required prior to final payment.
    Also, the Small Business Administration now has an ``Expanded 
Economic Injury Disaster Loan Program'' to provide low-interest loans 
to small businesses across the Nation that are having trouble meeting 
their ordinary and necessary operating expenses due to the terrorist 
attacks or Federal actions in response to the attacks.
    Taken together, we believe that these programs will provide 
sufficient relief to the industry and no further action at this time is 
necessary.

                         conclusion of hearing

    Senator Murray. Mr. Chairman, if there are no further 
questions for this panel, we will recess the session and move 
to the closed session as quickly as possible in Hart 219. We 
ask members to move there quickly and we will resume the 
hearing as quickly as possible.
    Mr. Rogers. Thank you.
    [Whereupon, at 4:55 p.m., Thursday, September 20, the 
hearing was concluded, and the subcommittee was recessed, to 
reconvene subject to the call of the Chair.]

                                   - 

</pre></body></html>
